<html>
<title> - ENHANCING AND IMPLEMENTING THE CYBERSECURITY ELEMENTS OF THE SECTOR-SPECIFIC PLANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     ENHANCING AND IMPLEMENTING THE
                     CYBERSECURITY ELEMENTS OF THE
                         SECTOR-SPECIFIC PLANS

=======================================================================

                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                       THREATS, CYBERSECURITY AND
                         SCIENCE AND TECHNOLOGY

                             joint with the

                     SUBCOMMITTEE ON TRANSPORTATION
                      SECURITY AND INFRASTRUCTURE
                               PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2007

                               __________

                           Serial No. 110-82

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     COMMITTEE ON HOMELAND SECURITY
                  U.S. GOVERNMENT PRINTING OFFICE
48-977                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009

               BENNIE G. THOMPSON, Mississippi, Chairman
LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
    Columbia                         BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
    Islands                          GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY
       Jessica Herrara-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
    Islands                          GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                                  Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
    Officio)
                    Jacob Olcott, Director & Counsel
        Dr. Chris Beck, Senior Advisor for Science & Technology
                       Carla Zamudio-Dolan, Clerk
       Dr. Diane Berry, Minority Senior Professional Staff Member
?

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

    SHEILA JACKSON LEE, Texas,       DANIEL E. LUNGREN, California
            Chairwoman               GINNY BROWN-WAITE, Florida
EDWARD J. MARKEY, Massachusetts      MARSHA BLACKBURN, Tennessee
PETER A. DeFAZIO, Oregon             GUS M. BILIRAKIS, Florida
ELEANOR HOLMES NORTON, District of   PETER T. KING, New York (Ex 
    Columbia                             Officio)                  
YVETTE D. CLARKE, New York           
ED PERLMUTTER, Colorado              
BENNIE G. THOMPSON, Mississippi (Ex  
    Officio)                         
                                     
    Mathew Washington, Director
        Erin Daste, Counsel
 Natalie Nixon, Deputy Chief Clerk
  Coley O'Brien, Minority Senior 
              Counsel

                                 (iii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science...................     5
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Transportation Security and Infrastructure Protection.......     9
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    48
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    40

                               Witnesses
                                Panel I

Mr. Greg Garcia, Assistant Secretary, Office of Cyber Security 
  and Telecommunication, Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. George Hender, Banking/Financial Sector Coordinating Council, 
  Management Vice Chairman, Options Clearing Corporation:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28
Mr. J. Michael Hickey, Chairman, Telecommunications Sector 
  Coordinating Council, Vice President, Government Affairs-
  National Security Policy, Verizon:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office.......................    16

                                Panel II

Mr. Larry Clinton, President and CEO, Internet Security Alliance:
  Oral Statement.................................................    75
  Prepared Statement.............................................    77
Dr. Lawrence A. Gordon, Ernst & Young Alumni Professor, 
  Managerial Accounting and Information Assurance, Robert H. 
  Smith School of Business, University of Maryland:
  Oral Statement.................................................    81
  Prepared Statement.............................................    84
Ms. Sally Katzen, Visiting Professor of Law, George Mason 
  University School of Law:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54

                             For the Record

Dr. Michael O'Hanlon, Senior Fellow, Brookings Institution:
  Prepared Statement.............................................   100
Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office:
  Prepared Statement.............................................   115

                               Appendixes

Appendix I:  Cyber Security Criteria.............................   125
Appendix II:  Thirteen DHS Cyber Security Responsibilities.......   126


  ENHANCING AND IMPLEMENTING THE CYBERSECURITY ELEMENTS OF THE SECTOR-
                             SPECIFIC PLANS

                              ----------                              


                      Wednesday, October 31, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                     joint with the
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:45 p.m., in 
Room 311, Cannon House Office Building, Hon. James R. Langevin 
[chairman of the Emerging Threats, Cybersecurity, and Science 
and Technology Subcommittee], presiding.
    Present: Representatives Langevin, Etheridge, Pascrell, 
Jackson Lee, Clarke, McCaul, and Lungren.
    Mr. Langevin. The Subcommittee on Emerging Threats, 
Cybersecurity, and Science and Technology, and the Subcommittee 
on Transportation Security and Infrastructure Protection will 
now come to order.
    The subcommittees today are meeting to receive testimony on 
enhancing and implementing the cybersecurity elements of the 
sector-specific plans. I will begin by recognizing myself for 
the purpose of an opening statement.
    Good afternoon. Over the past few months, the Subcommittee 
on Emerging Threats, Cybersecurity, and Science and Technology 
has held numerous hearings to assess how far-reaching our 
cybersecurity vulnerabilities are and how best to address them. 
Today, we will be focusing on the extent to which cybersecurity 
has been implemented as part of our 17 different sector-
specific plans.
    We are joined today by the Transportation Security and 
Infrastructure Protection Subcommittee led by Chairwoman Sheila 
Jackson Lee of Texas and Ranking Member Lungren. Though this is 
our first joint hearing on the subject, I very much look 
forward to working with the chairwoman and ranking member, 
along with my ranking member on the subcommittee on these 
issues of the 110th Congress as it continues.
    Although critical infrastructure protection is usually 
associated with physical protection of facilities, there is a 
growing realization that cybersecurity must receive equal 
attention. This holds true especially since the Nation's 
critical infrastructure relies extensively on computerized 
information systems and electronic data.
    As we learned 2 weeks ago in a hearing on control systems 
and the electricity grid, many elements of our Nation's 
critical infrastructure are vulnerable to cyber attack in part 
because the computers are connected to the Internet. A cyber 
attack against a portion of our critical infrastructure could 
have devastating consequences that could cascade across the 
country.
    Similarly, an attack on our control systems could cause 
serious physical harm, for example, through the introduction of 
raw sewage into drinking water systems or through the 
catastrophic failure of critical electrical generators.
    One of the most important ways we can secure our 
infrastructure is through the implementation of the sector-
specific plans. These 17 plans, one for each critical 
infrastructure sector in the U.S., are supposed to describe how 
each sector will identify, prioritize, and protect their 
physical and cyber assets. These plans are based on the high 
level of Federal guidance in the National Infrastructure 
Protection Plan, or NIPP, released by DHS in 2006. The NIPP is 
the roadmap for the sectors to follow when developing their 
sector-specific plans.
    The completion of the sector-specific plans will allow DHS 
to write a national annual report on critical infrastructure 
protection which is designed to give us a general assessment of 
the security of our infrastructure. This firsthand report is 
scheduled to be released next week. Today, we will focus 
specifically on the cyber aspects of these plans.
    I have two significant concerns about the efforts of the 
Department of Homeland Security in this area. First, according 
to the Government Accountability Office report, released today, 
many of the 17 plans are incomplete when it comes to 
cybersecurity. The GAO rated these 17 sector-specific plans 
according to three categories--either fully addressed, 
partially addressed, or not addressed at all--and found that 
none of the plans fully addressed all 30 cybersecurity 
criteria. GAO reports many plans have no way of identifying the 
consequences of a cyber attack or reporting metrics of progress 
in implementing the plans to DHS. GAO concluded that without 
comprehensive plans, certain sectors could be ill prepared to 
respond to a cyber attack.
    Now, the plans are supposed to be the easier part of this 
process, but if we are struggling just to get the plans right, 
we are going to have an even tougher time achieving true 
security. Our main goal, of course, is actually protecting our 
critical infrastructure or at least making it resilient to 
attack; that should be the primary focus of our efforts. But as 
the first step, DHS must improve the current state of the cyber 
elements of the sector-specific plans. What we have now is 
simply unacceptable.
    My second concern is with the implementation of the plan. 
Today's sector witnesses will describe the varying degrees to 
which they have begun translating their plans into actual 
improvements. It should be noted, of course, that the sector-
specific plans were officially released in May 2007, so there 
has not been a great deal of time for action. While sectors 
have started implementing their plans, much work clearly 
remains to be done.
    Under the Department's current public-private partnership 
approach, I don't believe the Federal Government can adequately 
ensure the security of our critical infrastructure. Thus far, 
DHS has adopted a laissez-faire approach, it seems, towards 
critical infrastructure owners and operators. The sector-
specific plan process is entirely voluntary and there are no 
regulatory requirements attached to it.
    Many would argue, however, that protecting critical 
infrastructure is an issue of national security, a core 
constitutional responsibility of the Federal Government. Under 
this viewpoint, laissez-faire is arguably not the appropriate 
model.
    This observation is not intended to be an argument for more 
regulation or a criticism of our private sector partners. In a 
perfect world, we either wouldn't have to worry about security 
or would have an unlimited amount of money to spend on it, but 
this is clearly not a perfect world.
    The Federal Government and the American people want to 
ensure that there is a high level of cybersecurity protections 
on our critical infrastructure. But, as Dr. Gordon notes in his 
testimony, private sector owners and operators have a hard time 
making the business case for increased cybersecurity 
investments.
    Recognizing there may, in fact, be a market failure when it 
comes to private sector cybersecurity, I have asked the second 
panel of witnesses to discuss ways to incentivize owners and 
operators of critical infrastructure to better protect their 
systems. Some believe that with the proper incentives, the 
private sector can respond faster and more efficiently to 
future threats. Clearly, without appropriate consideration of 
all available public policy tools, the private sector's 
participation in critical infrastructure efforts may not reach 
its full potential, but I do think we need to look at a broad 
range of options in this area.
    I have great apprehension, though, about the current 
framework DHS is creating with the sector-specific plans as 
they relate to cybersecurity. But I am hopeful that today's 
discussion will be a valuable tool in trying to strike the 
right balance that will ensure a high level of security with a 
low level of government involvement.
    Mr. Langevin. That concludes my opening statement, and the 
Chair now recognizes the ranking member of the subcommittee, 
the gentleman from Texas, Mr. McCaul, for an opening statement.

   Prepared Statement of the Honorable James R. Langevin, Chairman, 
      Subcommittee on Emerging Threats, Cybersecurity, and Science

    Good afternoon. Over the past few months, the Subcommittee on 
Emerging Threats, Cybersecurity and Science and Technology has held 
numerous hearings to assess how far reaching our cybersecurity 
vulnerabilities are and how best to address them. Today we will be 
focusing on the extent to which cybersecurity has been implemented as 
part of our 17 different Sector Specific Plans. We are joined today by 
the Transportation Security and Infrastructure Protection Subcommittee, 
led by Chairwoman Jackson-Lee and Ranking Member Lungren. Though this 
is our first joint hearing on the subject, I very much look forward to 
working with the Chairwoman and Ranking Member on these issues as the 
110th Congress continues.
    Although critical infrastructure protection is usually associated 
with physical protection of facilities, there is a growing realization 
that cybersecurity must receive equal attention. This holds true 
especially since the nation's critical infrastructure relies 
extensively on computerized information systems and electronic data. As 
we learned two weeks ago in a hearing on control systems and the 
electricity grid, many elements of our nation's critical infrastructure 
are vulnerable to cyber attack in part because their computers are 
connected to the Internet. A cyber attack against a portion of our 
critical infrastructure could have devastating consequences that 
cascade across the country. Similarly, an attack on our control systems 
could cause serious physical harm, for example through the introduction 
of raw sewage into drinking water systems or through the catastrophic 
failure of critical electrical generators.
    One of the most important ways we can secure our infrastructure is 
through the implementation of the Sector Specific Plans. These 17 
plans----one for each critical infrastructure sector in the U.S.--are 
supposed to describe how each sector will identify, prioritize, and 
protect their physical and cyber assets. These Plans are based on the 
high level Federal guidance in the National Infrastructure Protection 
Plan--or NIPP--released by DHS in 2006. The NIPP is the road map for 
the sectors to follow when developing their Sector Specific Plans. The 
completion of the Sector Specific Plans will allow DHS to write a 
National Annual Report on Critical Infrastructure Protection, which is 
designed to give us a general assessment of the security of our 
infrastructure. The first annual report is scheduled to be released 
next week.
    Today we will focus specifically on the cyber aspects of these 
plans. I have two significant concerns about the efforts of the 
Department of Homeland Security._First, according to the Government 
Accountability Office report released today, many of the 17 plans are 
incomplete when it comes to cybersecurity. The GAO rated the 17 Sector 
Specific Plans according to three categories: fully addressed, 
partially addressed, or not addressed, and found that none of the plans 
fully addressed all 30 cybersecurity criteria_GAO reports that many 
plans have no way of identifying the consequences of a cyber attack or 
reporting metrics of progress in implementing the plans to DHS. GAO 
concluded that without comprehensive plans, certain sectors could be 
ill prepared to properly respond to a cyber attack.
    Now, the plans are supposed to be the easier part of this process. 
But if we're struggling just to get the plans right, we're going to 
have an even tougher time achieving true security. Our main goal, of 
course, it actually protecting our critical infrastructure, or at least 
making it resilient to attack. That should be the primary focus of our 
efforts, but, as a first step, DHS must improve the current state of 
the cyber elements of the sector specific plans. what we have now is 
simply unacceptable. My second concern is with the implementation of 
the plans. Today's sector witnesses will describe the varying degrees 
to which they have begun translating their plans into actual 
improvements. It should be noted that the sector plans were officially 
released in May 2007, so there has not been great deal of time for 
action. While many sectors have started implementing their plans, much 
work remains to be done. Under the Department's current public/private 
partnership approach, I do not believe the Federal government can 
adequately ensure the security of our critical infrastructure.
    Thus far, DHS has adopted a laissez-faire approach toward critical 
infrastructure owners and operators. The Sector specific Plan process 
is entirely voluntary, and there are no regulatory requirements 
attached to it. Many would argue, however, that protecting critical 
infrastructure is an issue of national security, a core constitutional 
responsibility of the Federal government. Under this viewpoint, 
laissez-faire is arguably not the appropriate model. This observation 
is not intended to be an argument for more regulation or a criticism of 
our private sector partners. In a perfect world, we either wouldn't 
have to worry about security or would have an unlimited amount of money 
to spend on it. But this is clearly not a perfect world.
    The Federal government and the American people want to ensure there 
is a high level of cybersecurity protections on our critical 
infrastructure, but, as Dr. Gordon notes in this testimony, private 
sector owners and operators have a hard time ``making the business 
case'' for increased cybersecurity investments. Recognizing that there 
may in fact be a market failure when it comes to private sector 
cybersecurity, I've asked the second panel witnesses to discuss ways to 
incentivize owners and operators of critical infrastructure to better 
protect their systems. Some believe that with the proper incentives, 
the private sector can respond faster and more efficiently to future 
threats. Clearly, without appropriate consideration of all available 
public policy tools, the private sector's participation in critical 
infrastructure protection efforts may not reach its full potential.
    I have great apprehension about the current framework DHS is 
creating with the sector specific plans as they relate to 
cybersecurity. But I am hopeful that today's discussion will be a 
valuable tool in trying to strike the right balance that will ensure a 
high level of security with a low level of government involvement.

    Mr. McCaul. I thank the chairman, and Chairwoman Jackson 
Lee and Ranking Member Lungren.
    Let me first say how honored I was yesterday to announce 
with you the creation of a commission to study this issue of 
cybersecurity, which has the top and brightest minds in the 
country on cybersecurity participating. It will be chaired by 
Admiral Inman, who is a former Director of NSA, Deputy Director 
of CIA, a good friend of mine, one of the brightest individuals 
I think I have ever met; and Scott Charney, who I had the 
opportunity to work with at the Department of Justice, who 
headed up the Computer Crime and Intellectual Property section.
    I look forward to working with you in a bipartisan way. It 
is actually a nonpartisan commission that will provide 
recommendations for the next administration and the Congress on 
this very important issue.
    This hearing today will bring attention to the importance 
of protecting the Nation's critical information technology 
infrastructure. In response to the President's seventh Homeland 
Security Directive, the Department of Homeland Security has 
developed the National Infrastructure Protection Plan. It is 
designed to provide a coordinated approach to establish 
national priorities, goals, and requirements for all 17 sectors 
of our economy that own and operate critical infrastructures 
across the country.
    Since every sector depends to a certain extent on IT 
systems and networks, it is very important that each sector's 
plan includes its approach to securing its information 
infrastructure. The sector-specific plans have undergone what 
some might call a tortuous evolution. Even so, it is important 
to realize that these plans are one piece of developing a 
common framework across the 17 diverse sectors.
    What this subcommittee has discovered in its hearings is 
that each of the 17 sectors is dependent upon information 
infrastructure in one way or another. Some are more dependent 
upon it than others, but each sector could be vulnerable to 
cyber threats and cyber attacks if appropriate steps are 
ignored. For example, a hacker could infiltrate the billing 
system of a hospital or retail store or affect credit numbers 
or health information for a vast number of individuals. This 
would inject the financial and/or health care system with 
uncertainty.
    Similarly, we learned earlier this month that industrial 
control systems could cause very real physical damage if not 
properly secured.
    We need to make sure that all the sectors are aware of 
their inherent interdependencies, and also that all sectors 
have critical information infrastructure, even if they don't 
think they do, that needs to be evaluated and appropriately 
secured. The sector-specific plans are the first step in 
securing this country's critical infrastructure.
    Again, Chairman Langevin and I--I was pleased to announce 
yesterday that we are participating in a commission to develop 
recommendations on cyber and information security policy for 
the next President. It is important to evaluate the actions of 
the current administration, build upon its successes, and 
incorporate its lessons learned as we move forward to improve 
our Nation's overall cybersecurity.
    With that, Mr. Chairman, I yield back.
    Mr. Langevin. I thank the gentleman.
    And the Chair now recognizes the chairwoman of the 
Subcommittee on Transportation Security and Infrastructure 
Protection, the gentlelady from Texas, Ms. Sheila Jackson Lee, 
for an opening statement. And let me just again, as I mentioned 
in private to the chairwoman, say how grateful I am that we are 
doing this joint hearing and how much I certainly look forward 
to working with you, Madam Chair, as we go forward.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And let 
me offer my equal appreciation of the opportunity to continue a 
topic that my committee, Transportation Security and 
Infrastructure Protection, along with the ranking member of 
that subcommittee, has continued to have a keen eye.
    And as I do so, might I just acknowledge the existence of 
the National Infrastructure Protection Plan. In meeting with a 
number of those from the private sector, we know that the work 
that we are doing today, the work that you have done, is 
extremely important and is an urgent topic of the private 
sector's participation in protecting our country's critical 
infrastructure.
    So, again, I am grateful to Chairman Langevin for inviting 
the Subcommittee on Transportation Security and Infrastructure 
Protection to participate in this hearing; and I look forward 
to our future collaboration where our issues of concern 
interact.
    Today's hearing regards the implementation or existence of 
the cybersecurity elements of the 17 sector-specific plans, 
SSPs, under the National Infrastructure Protection Plan. 
Ranking Member Lungren and myself take particular interest in 
this topic as DHS protection falls under our subcommittee's 
jurisdiction. We have been and continue to be very vigilant 
about the Department's protection of our Nation's critical 
infrastructure, beyond cybersecurity to also address physical 
and human considerations. Thanks again to Chairman Langevin, 
however, we will learn today about how the Department is 
protecting critical infrastructure from a cybersecurity 
perspective, and I look forward to seeing how the lessons 
learned today apply to other critical infrastructure protection 
programs. Thus far, I have been disappointed with DHS SSP 
efforts, but I look forward to learning more today and 
continuing the journey so that we can work together public and 
private sector.
    SSP is a massive and unprecedented undertaking. According 
to the Homeland Security Act of 2002, critical infrastructure 
includes systems and assets, whether physical or virtual, so 
vital to the United States that the incapacity or destruction 
of such systems and assets would have a debilitating impact on 
security, national economic security, national public health or 
safety, or any combination of these matters. Based upon this 
definition, critical infrastructure is not just bridges and 
water utilities, but also financial centers and transactions. 
It is therefore clear that when such a vast and important 
mission is combined with a young agency, it is incumbent upon 
it and its oversight committee to have frank and honest 
discussions about the efficacy of our SSP efforts.
    Protecting our systems and assets from natural and human-
made disasters is exclamated by the fact that approximately 85 
percent of the country's critical infrastructure is owned and 
operated by the private sector. Furthermore, this 
administration did not encourage the government to regulate the 
private sector owners and operators, and for them, instead--to 
protect their critical infrastructure, but instead it 
encouraged voluntary partnerships.
    I raised the question earlier this morning about whether or 
not there needs to be regulation or should we continue in the 
voluntary effort. How well the Department manages this 
voluntary relationship with the private sector to protect our 
critical infrastructure is and will continue to be a major 
priority for our committee and my subcommittee specifically.
    Recently, Chairman Thompson and I directed committee staff 
to investigate the implementation of the NIPP and SSPs to learn 
whether they are motivating private industry to protect our 
critical infrastructure. Because such a large task is based 
upon a voluntary partnership, we need to give great attention 
to whether actions are indeed being taken. That will be the 
focus of my attention at today's hearings.
    And might I also say that I believe there is a great 
interest in the private sector to be engaged. They know that 
they have a large share of the private infrastructure or the 
infrastructure of this Nation. Then, what is the vehicle, what 
is the formula, what is the structure that should be utilized 
to engage the private sector and to make this work?
    After all, we are responsible for securing America 
collectively, and this committee, the full committee, knows 
full well the question will be asked, maybe only of this 
committee, if the possibility occurs of a terrorist act in this 
Nation.
    The release of the NIPP and SSPs was delayed significantly. 
Unfortunately, the threat to our critical infrastructure was 
not simultaneously delayed. As a result, we have to quickly 
determine whether these plans are being implemented by owners 
and operators to better protect our critical infrastructure.
    It is not enough to create large, nearly unreadable 
documents and to discuss processes. Instead, we must focus on 
implementation and execution. For instance, we must have 
effective and efficient communication between private sector 
owners and operators of critical infrastructure at all levels 
of government.
    On September 26, Chairman Thompson and I sent a letter to 
Assistant Secretary Stephan and Director Caboli about the 
implementation of the SSPs and the standards of the national 
annual report that is supposed to describe the implementation 
of protection efforts. Based upon the Department's responses, 
we are quite concerned about whether verifiable action is being 
taken by the private sector.
    I am not here to reprimand the private sector or to 
officially call for its regulation; but as I indicated, can we 
collaborate and can we work together? Because of the mission, 
however, I believe that all options should be on the table, and 
I believe that we need to give these partnerships a chance. We 
need to know whether the Department is executing them 
effectively; and what can we do to help make them work better?
    I believe the owners and operators of these assets will in 
most cases act without regulation if an effective case for 
action is made and there is adequate and necessary follow-
through by the Department, oversight, and the opportunity to 
share how we can do better.
    I want to learn from our witnesses, from the private sector 
how the Department can be more effective in encouraging this 
necessary and urgent activity.
    It is now time for an open and honest conversation about 
protecting our critical infrastructure. We are done with 
documents and verbiage; it is time for action. It is time for 
us to learn about the tools that you need and how this Congress 
can be helpful.
    We may not need a regulatory hammer, but we certainly need 
a national discussion about civic and corporate responsibility 
and cooperation.
    I believe, Chairman Langevin, that today's hearing is the 
beginning of establishing that cooperation and dialogue on 
behalf of the American people. I thank you.
    Mr. Langevin. I thank the gentlelady for her comments, and 
particularly the sentiment of our cooperation, I know that will 
continue, and I look forward to that.
    [The statement of Ms. Jackson Lee follows:]

  Prepared Statement of the Honorable Sheila Jackson Lee, Chairwoman, 
 Subcommittee on Transportation Security and Infrastructure Protection

    I would like to take this opportunity to thank all of you for 
joining us this afternoon to discuss the urgent topic of private sector 
participation in protecting our country's critical infrastructure. I am 
particularly grateful to Chairman Langevin for inviting the 
Subcommittee on Transportation Security and Infrastructure Protection 
to participate in this hearing, and I look forward to future 
collaboration where our issues of concern intersect.
    Today's hearing regards the implementation--or existence--of the 
cyber security elements of the 17 Sector Specific Plans (SSPs) under 
the National Infrastructure Protection Plan (NIPP). Ranking Member 
Lungren and I take particular interest in this topic as DHS' 
infrastructure protection efforts fall under our subcommittee's 
jurisdiction. We have been--and continue to be--very vigilant about the 
Department's protection of our nation's critical infrastructure beyond 
cyber security, to also address physical and human considerations.
    Thanks to Chairman Langevin, however, we will learn today about how 
the Department is protecting critical infrastructure from a 
cybersecurity perspective, and I look forward to seeing how the lessons 
learned today apply to other critical infrastructure protection (CIP) 
programs. Thus far, I have not been very impressed with DHS' CIP 
efforts.
    CIP is a massive and unprecedented undertaking. According to the 
Homeland Security Act of 2002, ``critical infrastructure'' includes 
``systems and assets, whether physical or virtual, so vital to the 
United States that the incapacity or destruction of such systems and 
assets would have a debilitating impact on security, national economic 
security, nation public health or safety any combination of these 
matters,'' Based upon this definition, ``critical infrastructure'' is 
not just bridges and water utilities, but also financial centers and 
transactions. It is, therefore, clear that when such a vast and 
important mission is combined with a young agency, it is incumbent upon 
it and its oversight committee to have frank and honest discussions 
about the efficacy of our CIP efforts.
    Protecting theses systems and assets from natural--and human-made 
disasters is exacerbated by the fact that approximately 85 percent of 
the country's critical infrastructure is owned and operated by the 
private sector. Furthermore, this Administration did not encourage the 
government to regulate and mandate private sector owners and operators 
protect their critical infrastructure but, instead, it encouraged 
voluntary partnerships. How well the Department manages this voluntary 
relationship with the private sector to protect our critical 
infrastructure is--and will continue to be--a major priority for our 
Committee, and my subcommittee specifically.
    Recently, Chairman Thompson and I directed Committee staff to 
investigate the implementation of the NIPP and SSPs to learn whether 
they are motivating private industry to protect our critical 
infrastructure. Because such a large task is based upon a voluntary 
partnership, we need to give great attention to whether actions are, 
indeed, being taken. That will be the focus of my attention at today''s 
hearing.
    The release of the NIPP and the SSPs was delayed significantly. 
Unfortunately, the threat to our critical infrastructure was not 
simultaneously delayed. As a result, we have to quickly determine 
whether these plans are being implemented by owners and operators to 
better protect our critical infrastructure. It is not enough to create 
large, nearly unreadable documents and to discuss processes; instead, 
we must focus on implementation and execution. For instance, we must 
have effective and efficient communication between private sector 
owners and operators of critical infrastructure and all levels of 
government.
    On September 26, 2007, Chairman Thompson and I sent a letter to 
Assistant Secretary Stephan and Director Caverly about the 
implementation of the SSPs and the status of the National Annual Report 
that is supposed to describe the implementation of protection efforts. 
Based upon the Department's responses, we are quite concerned about 
whether verifiable action is being taken by the private sector.
    I am not here to reprimand the private sector or to viscerally call 
for its regulation. Because of the mission, however, I believe that all 
options should be on the table. I believe that we need to give these 
partnerships a chance. We need to know whether the Department is 
executing them effectively. I believe the owners and operators of these 
assets will, in most cases, act without regulation if an effective case 
for action is made and there is adequate and necessary follow through 
by the Department. I want to learn from our witnesses from the private 
sector how the Department can be more effective in encouraging this 
necessary--and urgent--activity.
    It is now time for an open and honest conversation about protecting 
our critical infrastructure. We are done with documents and verbiage. 
It is time for action. It is time for us to learn about the tools you 
need and how this Congress can help. We may not need a regulatory 
hammer, but we certaintly need a national discussion about civic and 
corporate responsibility. Perhaps today's hearing begins that 
conversation and will lead to concrete steps that will make america 
truly safer.

    Mr. Langevin. The Chair now recognizes the ranking member 
of the subcommittee, the gentleman from California, Mr. 
Lungren, for the purpose of an opening statement. And, 
likewise, I look forward to working with the gentleman from 
California.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I thank 
the gentlelady and I thank the gentleman from Texas, Mr. 
McCaul.
    First of all, let me say that I believe that the Department 
of Homeland Security did a good job in putting together the 
sector-specific plans and coming up with the National 
Infrastructure Protection Plan under the direction of Colonel 
Stephan. I know, when he first came in, he was dissatisfied 
with what was then in the works, and asked us for extra time to 
make sure that we could put a good product together. And I 
think the Department has; I congratulate you on that. Frankly, 
it is a good piece of work.
    I am, as my colleagues are, dismayed by the recent GAO 
review which did find that most of the sectors lacked a process 
for identifying the consequences of cyber attacks against their 
assets. That is probably not surprising, because most Americans 
and most in Congress look at guns, gates, and guards as the 
traditional means of protecting our critical infrastructure; 
and it is only after stepping back a ways that we realize the 
importance of the cyber world in all of this.
    It is my feeling that a public-private partnership is 
absolutely essential, not just because 85, 86, 87, whatever 
percentage you want to say of our critical infrastructure is 
privately owned and operated; but the agility with which the 
private sector is able to adapt in the area of technology is at 
least the equal of those of us in government. We would do 
ourselves a disservice if we in any way followed procedures on 
the bureaucratic side or the regulatory side which denied us 
that agility, that creativity, and that ingenuity in responding 
to what are threats that change, not yearly, not monthly, not 
weekly, not daily, but, frankly, minute by minute.
    So I am very interested in the testimony we will receive 
today from both the public and the private sectors. But I hope 
that we will find a way to reach that balance that is necessary 
between government regulation and private ingenuity and 
effectiveness.
    Thank you very much, Mr. Chairman.
    Mr. Langevin. I thank the gentleman for his opening 
statement.
    Mr. Langevin. Other members of the subcommittee are 
reminded that under the committee rules, opening statements may 
be submitted for the record.
    I now welcome our first panel of witnesses. I want to begin 
by thanking the panel for their patience and willingness to 
stick around. We wish we had a little more control over the 
schedule around this place, but it doesn't seem to work out 
that way.
    But I do want to begin by welcoming our first witness, Mr. 
Greg Garcia, Assistant Secretary for Cybersecurity and 
Communications. Assistant Secretary Garcia oversees the 
Department of Homeland Security's mission to prepare for and 
respond to incidents that could degrade or overwhelm the 
operation of the Nation's information technology and 
communications infrastructure.
    So I welcome you, Mr. Secretary.
    Our second witness, Dave Powner, is the Director of 
Information Technology Management Issues at the Government 
Accountability Office.
    Thank you for your participation, and we welcome you here 
today, Mr. Powner.
    Our third witness is Mr. J. Michael Hickey, the Chairman of 
the Communications Sector Coordinating Council. Mr. Hickey is 
also the Vice President of Government Affairs and National 
Security Policy at Verizon.
    Welcome, Mr. Hickey.
    Our fourth witness is Mr. George Hender, the Chairman of 
the Banking and Financial Sector Coordinating Council. Mr. 
Hender is the Vice Chairman of the Options Clearing 
Corporation.
    Welcome to you, Mr. Hender.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    Mr. Langevin. And I now ask each witness to summarize his 
statement for 5 minutes, beginning with Assistant Secretary 
Garcia.
    The floor is yours.

   STATEMENT OF GREG GARCIA, ASSISTANT SECRETARY, OFFICE OF 
    CYBERSECURITY AND TELECOMMUNICATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Garcia. Thank you, sir.
    Mr. Chairman, Madam Chairwoman, members of the 
subcommittees, thank you very much for inviting me again to 
speak about the Department of Homeland Security's effort to 
strengthen the security and resilience of our Nation's critical 
infrastructure.
    My comments today will focus on three areas: first, how my 
office has worked with each of the 17 critical infrastructure 
and key resource sectors to ensure cybersecurity is integrated 
into their sector-specific plans, or SSPs;
    Second, I will report on the findings from our 
cybersecurity review of each SSP; and
    Third, our plan for continuing to increase attention that 
each sector gives to cybersecurity.
    Under the National Infrastructure Protection Plan, or NIPP, 
my office, the Office of the Cybersecurity and Communications, 
works to reduce cyber risk and enhance cybersecurity in two 
ways. We serve as the Federal lead for the IT and 
communications sector infrastructure protection efforts, and as 
the lead for addressing the cross-sector cyber element for all 
sectors.
    Throughout the development of the SSPs, my office provided 
cybersecurity guidance and support to the sectors. This 
included providing sector-specific agencies with resources for 
identifying cybersecurity practices and protective programs, 
helping them identify cyber R&D priorities, and developing a 
comprehensive cyber guidance checklist which gave each sector a 
framework for integrating cybersecurity into their SSPs.
    In addition, sectors asked us to review drafts of their 
SSPs, and we provided recommendations on ways to address 
cybersecurity. My office also conducted a review of the cyber 
elements in each plan to determine sector-specific efforts and 
identify cross-sector trends. Our review was generally 
consistent with the findings of the GAO's analysis.
    In particular, I am pleased that the GAO found that 12 out 
of the 17 sectors were comprehensive in addressing 
cybersecurity and their SSPs. This is clear evidence of all the 
hard work that has been done to date. Since the development of 
the SSPs, sectors have been implementing their plans and 
enhancing efforts to address the security of their cyber 
infrastructure.
    Our review of the 2007 sector annual reports revealed an 
increased integration of cybersecurity considerations across 
the sectors. For example, more than half of the sectors 
identified at least one cybersecurity goal and/or priority. 
This is a significant improvement from the 2006 sector annual 
reports, and it is a strong indication of increased 
understanding about the importance of cybersecurity.
    Additionally, sectors are incorporating DHS-sponsored 
cybersecurity measures, such as our cybersecurity vulnerability 
assessment tool, into their risk assessment efforts.
    I would add, no discussion of cybersecurity and 
infrastructure protection efforts would be complete without 
mentioning the cross-sector cybersecurity working group. This 
group is composed of experts from each sector and serves to 
enhance cross-sector understanding of mutual dependencies and 
interdependencies. It is currently focused on addressing common 
cybersecurity challenges identified in each sector's initial 
SSP and developing improvements that can be leveraged across 
the sectors.
    Overall, while we are seeing greater attention given to 
cybersecurity, there is still more work to do. Each sector must 
consider their own cybersecurity posture and balance against 
other sector-specific risk management efforts. Specifically, 
sectors should continue to focus on identifying their critical 
cyber infrastructure, assessing their cyber risk, implementing 
protective programs, and measuring the effectiveness of their 
efforts.
    My office is currently engaging with sectors that may not 
have fully captured the good cybersecurity work they are 
already doing in their initial SSPs. We will work with them to 
more fully document their efforts as they update their SSPs and 
develop their 2008 sector annual reports.
    We will also continue to work with individual sectors to 
implement the cyber aspects of their SSPs in order to 
measurably enhance security within their sectors. We will 
conduct workshops with sectors to identify incentives, cyber 
metrics, and current and future cyber R&D requirements.
    The development of the SSPs represented a significant 
milestone for public and private sector national protection and 
preparedness activities. My office is committed to promoting 
cybersecurity strategies that can address the evolving risks we 
face. We are thankful for the work that has been done to date, 
and we encourage all sectors to continue working with us to 
address cybersecurity and their infrastructure protection 
activities.
    Thank you all for your time today, and I am happy to 
address any questions that you may have.
    Mr. Langevin. Thank you, Secretary Garcia, for your 
testimony.
    [The statement of Mr. Garcia follows:]

                  Prepared Statement of Gregory Garcia

    Good afternoon, Chairman Langevin, Chairwoman Jackson-Lee, Ranking 
Member McCaul, Ranking Member Lungren, and Members of the 
Subcommittees. Thank you for inviting me to speak about our efforts to 
work with all 17 critical infrastructure and key resource (CI/KR) 
sectors to address the security of the cyber elements of their 
infrastructures, including the incorporation of cyber security into 
their Sector-Specific Plans (SSP), progress in advancing mitigation 
actions, and plans for continuing to engage with the CI/KR sectors to 
further address cyber security.
    One of the most pressing challenges facing the Department of 
Homeland Security (DHS) is preparing for cyber attacks against our CI/
KR. Threats to the Nation's CI/KR are numerous and constantly evolving. 
The ability of threat actors to exploit vulnerabilities is facilitated 
by the widespread availability of tools, techniques, and information. A 
variety of cyber threats could exploit vulnerabilities in the Nation's 
CI/KR assets, systems, networks, and functions, potentially threatening 
national and economic security, public health and safety, and 
confidence in the government. The President's National Strategy to 
Secure Cyberspace recognized the importance of assessing threats and 
vulnerabilities and determining how likely or significant those attacks 
could be on critical infrastructure. It called for public-private 
partnerships to address five critical priorities: (1) a national 
cyberspace security response system, (2) a national cyberspace security 
threat and vulnerability reduction program, (3) a national cyberspace 
security awareness and training program, (4) securing governments' 
cyberspace, and (5) national security and international cyberspace 
security cooperation. The first three priorities speak directly to the 
development and implementation of the SSPs.
    In implementing the National Strategy DHS' Office of Cybersecurity 
and Communications (CS&C), working in partnership with the Office of 
Infrastructure Protection (OIP), Sector-Specific Agencies (SSAs), and 
public- and private-sector security partners, is committed to 
preventing, preparing for, responding to, and recovering from cyber 
attacks and their consequences. CS&C's strategic goals include 
preparing for and deterring catastrophic incidents by achieving a 
collaborative risk management and deterrence capability with a mature 
partnership between government and the private sector. One example of 
this partnership is CS&C's National Coordinating Center (NCC). Since 
1984, the NCC has served as a forum through which the Federal 
government and private sector communications providers can interact 
face-to-face on a daily basis. This strategic goal also encompasses 
tactical efforts to secure and protect the Nation's cyber 
infrastructure from attacks and disasters by identifying and mitigating 
threats, vulnerabilities, and consequences.
    Our vision, philosophy, and strategy for preventing, responding to, 
and recovering from cyber attacks reflect the expanding and widespread 
importance of the cyber infrastructure. Policies that advance a safe 
and secure infrastructure rely on the valuable relationships between 
the public and private sectors and on public trust and confidence.
    The key to continued success is partnering strategically with the 
private sector to identify, prioritize and protect critical cyber 
assets, systems, networks and functions. Even though the private sector 
builds, owns and operates most of the cyber infrastructure, CS&C takes 
an active role in its protection by building public-private 
partnerships that are vital to our strategy to secure cyberspace and to 
facilitating efforts to raise cyber security awareness, train 
personnel, stimulate market forces to secure cyberspace, improve 
technology through the identification of cyber research and development 
requirements, identify and remediate vulnerabilities, and exchange 
information.
    CS&C works to reduce cyber risk and enhance cyber security in two 
primary ways under the National Infrastructure Protection Plan (NIPP) 
framework: (1) as Federal lead for the Information Technology (IT) 
Sector's infrastructure protection and preparedness responsibilities 
(in partnership with the Communications Sector); and (2) as a cross-
sector cyber element that involves DHS, the SSAs for each of the 17 CI/
KR sectors, and public and private sector owners and operators.
    Homeland Security Presidential Directive 7 designates DHS as the 
SSA for both the Communications and IT sectors. CS&C's National 
Communications System (NCS) and the National Cyber Security Division 
(NCSD) carry out the SSA responsibility for the Communications and IT 
Sectors, respectively. Both sectors recently released their Sector 
Specific Plans (SSPs), which are planning documents that focus on 
overall sector preparedness, including managing risk to the sectors' 
critical functions and infrastructures that support homeland, economic, 
and national security. Under the NIPP framework, the Internet and its 
associated services are identified as a shared key resource of the IT 
and Communications Sectors, reflecting the convergence of voice and 
data communications networks and services. In their respective DHS-
designated roles for the Communications and IT infrastructure sectors, 
the NCS and NCSD share responsibility with public--and private-sector 
security partners for the availability of the Internet and its 
associated services. Recognizing the synergies between IT and 
Communications, the chair of each sector's Government and Sector 
Coordinating Councils also participates in the other sector's council. 
In addition, representatives from the IT and communications sectors 
participate in each other's risk assessment methodology development 
efforts.

Cyber Security in the Sector-Specific Plans
    In support of the cross-sector cyber responsibility, NCSD is 
working closely with OIP, the SSAs, and other security partners to 
integrate cyber security into the CI/KR sectors' protection and 
preparedness efforts.
    During the SSP development process, NCSD provided cyber expertise 
to the sectors, including reviews of draft SSPs and participation in 
sector-specific cyber security meetings. Specifically, as sectors were 
developing their SSPs, NCSD developed and provided information to SSAs 
on resources for cyber security practices and protective programs that 
are applicable across all sectors, as well as some that are more 
focused on individual sectors, to help inform the identification of 
cyber security-related protective programs. For each protective 
program, a brief description and the specific activities they supported 
within the preparedness spectrum were provided. NCSD also developed 
information on cyber research and development (R&D) requirements and 
priorities to help SSAs in the identification of cyber-related R&D 
priorities. A description of Federal organizations that support cyber 
R&D and several references to R&D documents that outlined specific 
cyber security initiatives were provided. NCSD also offered to work 
directly with any sector that requested assistance and worked with 
responding sectors to develop and review cyber security content for the 
SSPs.
    NCSD also developed a comprehensive SSP Cyber Guidance Checklist, 
which provided sectors with a framework for integrating cyber security 
throughout each section of their SSPs. The checklist complemented DHS' 
2006 CI/KR Protection SSP Guidance developed by OIP and was intended to 
provide a starting point for SSAs as they integrated cyber into their 
SSPs. The checklist included an outline and guidance for the 
development of cyber content for the SSPs. NCSD shared the checklist in 
OIP-sponsored technical assistance sessions with SSAs to provide 
expertise and answer questions regarding the inclusion of cyber 
security in the SSPs. NCSD personnel also met individually with those 
SSA representatives who expressed an interest in determining approaches 
for incorporating cyber security into their SSPs and sector risk 
management efforts.
    In December 2006 and January 2007, NCSD conducted a review of the 
final draft SSPs as part of OIP's review process to (1) assess each 
sector's plan for securing its cyber infrastructure and (2) understand 
the coordination between NCSD and the sectors needed to better secure 
the sector's cyber infrastructure. In addition to considering the full 
content of the SSPs, this review focused on specific areas where future 
coordination between NCSD and the sectors might be necessary to address 
the security of the cyber elements of the Nation's CI/KR, including the 
critical initial action to identify the sectors' cyber security 
partners that NCSD should engage with to manage cyber risk. NCSD also 
determined that coordination may be required in understanding how each 
sector plans to identify and assess risk to its cyber infrastructure. 
Coordination is also required when assisting sectors in the development 
or refinement of methodologies intended to identify critical cyber 
elements and to assess cyber risk. Finally, the review identified 
protective programs specific to cyber security that fall within NCSD's 
responsibility and cyber R&D priorities requiring coordination across 
the sectors and with DHS' Science and Technology Directorate.
    After the SSPs were finalized, NCSD conducted a second review of 
the documents on behalf of the Cross-Sector Cyber Security Working 
Group (CSCSWG). The CSCSWG provides a forum for exchanging information 
on common cyber security challenges and issues (i.e., threats, 
vulnerabilities, and consequences) and enhancing the understanding 
across sectors of mutual dependencies and interdependencies. The 
working group includes cyber security experts from the CI/KR sectors 
collaborating to identify systemic cyber risks and mitigation 
strategies for the Nation's CI/KR sectors. The CSCSWG held its 
inaugural meeting on May 30, 2007, and determined that an initial area 
of focus would be reviewing the cyber security components of the SSPs 
to better understand the various efforts to protect cyber elements of 
the 17 CI/KR sectors and identify trends in cyber infrastructure 
protection that cut across the sectors. Using the NCSD review as a 
starting point, the group provided input on sectors' cyber content and 
on cyber activities not fully captured or initiated after the drafting 
process. The group has begun to share successes, best practices, and 
lessons learned to help the development and implementation of more 
effective cyber risk management activities across the sectors. For 
example, through the CSCSWG, members learned about the Roadmap to 
Secure Control Systems in the Energy Sector. As a result, the Water and 
Chemical Sectors have chosen to initiate similar efforts to address the 
unique concerns of control systems security within their sectors.

    Progress in Advancing Mitigation Actions
    Many of the SSPs were created in summer and fall of 2006. Sectors 
have been implementing the plans, continuing or initiating efforts to 
address the security of their cyber infrastructure. Sectors are not 
uniformly comprehensive in their cyber security efforts and should not 
necessarily be. Each sector must consider its cyber security posture 
and balance that against other risk management efforts, in 
consideration of the unique aspects of its infrastructure. Cyber risk 
varies by sector, based on its dependence on cyber elements. For 
example, the extensive use of control systems in the Energy Sector and 
of business systems in the Financial Services Sector must factor into 
the extent, sophistication, and unique implementation of mitigation and 
protection strategies within those sectors. Other sectors do not have 
cyber infrastructure integrated as ubiquitously in their essential 
services, a fact that influences the focus and maturity of their cyber 
security efforts. The length of time a sector's public and private 
partners have been working together on infrastructure protection issues 
is another factor in the comprehensiveness of their plans. These 
observations regarding the cyber security position of the SSPs are 
generally consistent with the findings of the Government Accountability 
Office's (GAO) analysis.
    The integration and maturing nature of cyber security across the 17 
CI/KR sectors was clear when NCSD reviewed and contributed to the 
Sector Annual Reports (SARs). The sectors' 2007 SARs were much improved 
over their initial 2006 efforts. For example, more than half of the 
sectors identified at least one cyber security goal and/or priority in 
their second SAR. This represents a significant increase in the number 
of sectors from the 2006 SAR, suggesting that the understanding of the 
importance of cyber security is becoming more pervasive in the sectors.
    Further, more sectors are implementing DHS-sponsored protective 
measures, such as the Comprehensive Review, the Risk Analysis and 
Management for Critical Asset Protection (RAMCAP), and the Site 
Assistance Visit programs. NCSD collaborates with OIP to incorporate 
cyber security into these DHS risk and vulnerability assessment 
programs so that sectors implementing them would address the cyber 
elements of their infrastructure. We encourage sectors to assess cyber 
risk by using the Cyber Security Vulnerability Assessment (CSVA), a 
flexible and scalable approach that analyzes an entity's cyber security 
posture and describes gaps and targeted considerations that can reduce 
overall cyber risks. It assesses the policies, plans, and procedures in 
place to reduce cyber vulnerability in 10 categories (e.g., access 
control, configuration management, physical security of cyber assets, 
etc.) and leverages various recognized standards, guidance, and 
methodologies (e.g., International Organization for Standardization 
27001, Information Systems Audit and Control Association Control 
Objects for Information and related Technology, and the National 
Institute of Standards and Technology Special Publication 800 series). 
The CSVA tool is being used by six sectors in their tailored 
vulnerability assessments: five through their sector specific RAMCAP 
modules and another, the Transportation Sector, in its customized cyber 
security assessment.

    Plans for Continuing to Engage with the CI/KR Sectors to Further 
Address Cyber Security
    Our review of the SSPs and SARs found that sectors are paying 
attention to cyber security, but more needs to be done. Over the next 
year, sectors need to focus on identifying their critical cyber 
infrastructure, assessing cyber risk and promoting voluntary 
assessments, implementing protective programs, and measuring the 
effectiveness of their efforts.
    NCSD has created an action plan and is engaging with sectors in 
addressing cyber security issues not fully addressed in those sectors' 
initial SSPs. This action plan includes working with sectors to review 
cyber security priorities, assess effects of cyber attacks, develop 
protective programs, and evaluate R&D requirements and initiatives to 
identify areas where additional capabilities are needed. NCSD has 
already worked with the cyber experts of the Chemical Sector 
Coordinating Council (SCC) and the SSA to identify cyber security 
content needed for the 2008 update to their SSP. Some of the 
opportunities for engagement are based on sector specific needs, but 
others address more common challenges. The action plan will address 
both individual and more universal steps.
    While all sectors have established SCCs and Government Coordinating 
Councils (GCCs), the degree of examination of specific cyber risk and 
of cyber information sharing varies. Some sectors--such as Financial 
Services--consider cyber security as critical to their core business 
functions and integrate cyber security into all of their SSP 
implementation activities. In fact, the Financial Services SSA, the 
Department of the Treasury, sits on the IT GCC because of its interest 
and expertise in cyber security. Other sectors have historically had 
less focus on cyber security due to the lack of prominence of IT in the 
business of the sector. Representation from the sectors' SCCs and GCCs 
are participating in the CSCSWG provides a mechanism for two-way 
information flow on cyber concerns across all sectors. Participation in 
the CSCSWG may help less-mature sectors make more rapid progress in 
identifying cyber goals, gaps, and interdependencies, as well as 
developing programs to deter, respond and recover from cyber attacks by 
enabling them to leverage the experiences, work, and cyber functional 
expertise that exists in many sectors.
    In addition, the reliance of some sectors on control systems 
highlights an area for increased coordination of risk management 
efforts. NCSD's Control Systems Security Program (CSSP) and the Process 
Control Systems Forum (PCSF) are resources to help address control 
systems risk. The CSSP coordinates efforts among Federal, State, local, 
and tribal governments, as well as control system owners, operators, 
and vendors, to improve control system security within and across all 
critical infrastructure sectors. In support of risk mitigation efforts, 
the CSSP developed the Control Systems Cyber Security Self Assessment 
Tool and provides training in control systems cyber security. The PCSF, 
a standing group under the CSCSWG, works to develop solutions for 
process control systems security, aggregate information, connect 
decision makers, and leverage other groups' work.
    Sectors may leverage the United States Computer Emergency Readiness 
Team (US-CERT) to share information on cyber threats and 
vulnerabilities and enhance situational awareness. The timely detection 
and analysis of cyber attacks further helps to assess operational risk 
and mitigate the impact on our Nation's critical infrastructures of 
cyber vulnerabilities. US-CERT is working with the Information Sharing 
and Analysis Center Council to expand this operational interaction.
    Finally, most sectors are taking on the challenge of identifying or 
developing metrics to measure the effectiveness of all infrastructure 
protection efforts, including those for cyber. Since sectors have 
different overall approaches to infrastructure identification and risk 
management, NCSD will work with the sectors to develop some cross-
sector qualitative measures that correlate to cyber security to help 
measure the effectiveness of sectors' cyber security efforts.
    Conclusion
    The development of the 17 CI/KR SSPs represented a significant 
milestone in sectors' protection and preparedness activities. Sectors 
varied in how they addressed the security of the cyber elements of 
their infrastructures, including the incorporation of cyber security 
into their SSPs, but demonstrated increased understanding of the 
importance of cyber security in the SARs and implementation activities.
    As the sectors work to address the feedback from the GAO on the 
cyber security aspects of the SSPs, CS&C, and specifically, NCSD will 
continue to execute its cross-sector cyber responsibility to work with 
sectors to reduce cyber risk and enhance cyber security. Our goal is to 
create a clear and actionable path forward with the sectors and to work 
together to secure our critical cyber infrastructure.
    NCSD will continue to schedule regular interactions with individual 
sectors as well as meetings with multiple sectors. For example, we plan 
to meet with each SSA at least twice a year, once before the sectors 
update their SSPs and once in early spring of 2008 as sectors are 
preparing their SARs. NCSD will develop guidance on cyber elements that 
should be considered for inclusion in the SSPs and SARs. This guidance 
will complement guidance from the Office of Infrastructure Protection. 
NCSD will also work with sectors through their coordinating councils to 
identify cyber subject matter experts within their sectors and raise 
awareness of the sectors' reliance on cyber infrastructure. NCSD is 
piloting this approach by convening a small group of cyber security 
experts with security clearances from across the sectors to support the 
SSA risk assessment process for the 2008 National CI/KR Protection 
Annual Report.
    NCSD also plans to offer workshops in 2008 with sector partners and 
other invited subject matter experts to address incentives to encourage 
voluntary risk assessments, develop cross-sector cyber metrics, and 
identify existing cyber research and development projects. The outcome 
of these workshops will provide sectors with ideas for incentives for 
investing in cyber security, metrics that enable realistic evaluation 
of cyber security, and cyber R&D priorities. NCSD will also continue to 
support the efforts of the CSCSWG as it addresses opportunities to 
enhance cyber security across the sectors and share information about 
strong cyber programs and practices. Further, NCSD will continue to 
roll out important efforts like the CSVA, software assurance, and 
control systems acquisition guidance, training, and cyber exercises to 
our sector partners.
    We encourage sectors to continue to work collaboratively with NCSD 
on addressing cyber security in their infrastructure protection 
activities. Through participation in the CSCSWG, individual meetings 
with NCSD, and various NCSD-sponsored workshops and programs, sectors 
can make significant progress in the future to address or more fully 
address cyber security.
    We must reinforce a culture of preparedness, shift from a reactive 
to a proactive stance, and prepare by promoting effective cyber 
security strategies that evolve as the risks evolve. There is much work 
to be done, but progress continues every day. We rely on the support 
and expertise of the sectors to advance this mission.
    I would like to thank the Subcommittees for their time today, and I 
appreciate this opportunity to discuss these important cyber security 
priorities.

    Mr. Langevin. I now recognize Mr. Powner to summarize his 
statement for minutes.
    Welcome.

  STATEMENT OF DAVID POWNER, DIRECTOR, INFORMATION TECHNOLOGY 
      MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Langevin, Chairwoman Jackson Lee, 
Ranking Members McCaul and Lungren, and members of the 
subcommittees, we appreciate the opportunity to testify on our 
report being released today on cybersecurity elements of the 
sector plans to protect our Nation's critical infrastructures.
    Chairman Langevin and Ranking Member McCaul, I would like 
first to thank you for your leadership and oversight of the 
Nation's cyber critical infrastructure.
    As the focal point for SSP, DHS has many cyber-related 
roles and responsibilities that are called for in law and 
policy that we have previously testified on before this 
subcommittee. These are highlighted in detail in my written 
statement. One of these is the development of a comprehensive 
national plan that requires each of the 17 sectors to develop 
sector-specific plans that include how each sector will 
identify, assess, and protect its cyber assets. Today's request 
is--I will discuss how well these plans address key cyber 
aspects of cybersecurity and GAO's observations and 
recommendations to move beyond the planning phase.
    The extent to which the sectors address aspects of 
cybersecurity and their plans varied. The strongest plans were 
the ones from the IT and communications sectors, while the 
weakest included the agriculture and commercial facilities 
sectors. The banking and finance sectors assessment fell near 
the middle of these plans.
    DHS has acknowledged these shortcomings and has stated that 
these are only early efforts by sectors to develop their 
respective plans. DHS attributed the variations to several 
items, including the maturity of the sector and the extent to 
which the sector worked with DHS to develop their plans. 
Nevertheless, until these plans fully address the key cyber 
elements, infrastructure sectors may not adequately identify, 
prioritize, and protect critical cyber assets.
    Another reason why these plans are incomplete is that based 
on our broader work for the full committee and for the 
subcommittee chaired by Ms. Jackson Lee, some of the sectors 
claim that these plans are not that useful. In particular, some 
sectors believe that they have progressed beyond these plans. 
In these cases, then, this is just a paper exercise.
    It is important to note that these are just plans. They do 
not identify actual assets and vulnerabilities; rather, they 
identify approaches the sectors will pursue. Moving forward, if 
in fact these plans are truly to be used to identify gaps in 
our Nation's cyber protection efforts on a national level, as 
intended, these plans need to be improved, meaning that they 
comprehensively address cyber elements and, even more 
importantly, the plans need to be effectively implemented.
    From an oversight perspective, it will be important to 
track how these plans evolve and are implemented in the 
critical infrastructure protection annual report due to the 
Executive Office of the President each September, although we 
hear that this year's report will be issued in November.
    Beyond its involvement with developing and implementing 
these plans, DHS's national Cybersecurity Division needs to 
continue to bolster its capabilities so that it is viewed as a 
valuable service provider to infrastructure owners. Today, this 
is not necessarily the case.
    To its credit, DHS's efforts to lead cyber exercises, like 
Cyber Storm, provide valuable information to participants to 
improve response, and coordination mechanisms. However, our 
Nation still lacks a national threat assessment and a mature 
analysis and warning capability, an area that we are currently 
reviewing for you, Mr. Chairman. If DHS is to effectively 
fulfill its role as the focal point for cyber critical 
infrastructure protection, it must fulfill more of its 
responsibilities and build more capability.
    Our Nation continues to progress at a slow pace in 
implementing this sector-based approach to protecting our 
Nation's critical infrastructures. We are almost 10 years into 
this approach, and although there is some progress in areas, we 
are not where we need to be. Unless we start making more 
progress and actually protecting our critical infrastructures, 
we may want to consider alternative approaches such as 
prioritizing and protecting by asset criticality regardless of 
sector.
    In summary, Mr. Chairman, and Madam Chair, if the sector-
based approach to protecting our Nation's critical 
infrastructures is to be effective, we will need comprehensive 
plans. However, ultimately our Nation needs to move beyond the 
planning stages and into implementation of effective protective 
and recovery programs. Implementation of these plans is more 
likely if DHS can successfully fulfill its responsibilities and 
become a provider of valuable information on threats and 
analytical products to our Nation's critical infrastructure 
owners.
    This concludes my statement. I will be pleased to respond 
to questions.
    Mr. Langevin. I thank you, Mr. Powner, for your testimony.
    [The statement of Mr. Powner follows:]\1\
---------------------------------------------------------------------------
    \1\See For the Record.
---------------------------------------------------------------------------
    M. Langevin. And the Chair now recognizes Mr. Hickey for 
his statement for 5 minutes.

 STATEMENT OF J. MICHAEL HICKEY, CHAIRMAN, TELECOMMUNICATIONS 
                  SECTOR COORDINATING COUNCIL

    Mr. Hickey. Good afternoon, Chairman Langevin and 
Chairwoman Jackson Lee, Ranking Members McCaul and Mr. Lungren. 
It is a pleasure to be here representing the communications 
sector and to testify on behalf of the sector in terms of what 
we are doing day in and day out to advance not only 
cybersecurity, but business continuity and emergency 
preparedness practice within our sector.
    What I would like to do in my few minutes with you is to 
discuss four areas of involvement. The first is focused on what 
companies like Verizon do day in and day out that really 
addresses not only cybersecurity, but broader asset protection 
within our companies.
    I would also like to spend a few minutes talking about the 
collaborative activity that is under way, again day in and day 
out not only within our sector, but with our partners in 
government.
    Third, I will speak briefly to the Communications Sector 
Coordinating Council structure and the work that we are doing 
on our sector-specific plan.
    And I will conclude with a few observations in terms of 
what I think we can do, what we must do, with government, going 
forward.
    Effective industry and government collaboration starts with 
the actions of individual organizations. The private sector 
owns and operates from 85 to 90 percent of this country's 
critical infrastructure. Because of industry's important role 
in national and homeland security, corporations like Verizon 
must dedicate the operations, experience, resources, and 
oversight necessary to be as self-aware and self-reliant as 
possible.
    Verizon's communications, voice, data, and video networks 
are touched by over 100 million consumers and government and 
business customers daily. Because of this reach, we have a 
longstanding and growing commitment to national security and 
emergency preparedness. For instance, we have designed, built, 
and managed networks that are resilient and redundant. We have 
adopted best-practice business methods and security procedures. 
We have created and tested business continuity and emergency 
preparedness programs. We have responded successfully to a wide 
range of crises and have provided leadership to industry and 
government organizations dedicated to national security and 
emergency preparedness.
    From a structural standpoint internally, we have corporate 
policy statements that require attention to business 
continuity, emergency preparedness, and cybersecurity. We have 
a number of senior leaders within our business from a chief 
information officer, who is an executive vice president, to a 
new chief technology officer, again another executive vice 
president, to the announcement of a new chief security officer 
for Verizon Corporation who will start with us in January, who 
currently serves as executive assistant director of the FBI for 
Criminal, Cyber, and International Security.
    We have groups within our IT organization that serve as 
service bureaus to all of our business units to make sure that 
cybersecurity practices are designed, engineered, and adopted 
business unit by business unit. We actually focus on security 
within our company from more of an organic standpoint.
    We rely on ground-up business unit activity, identifying 
and dealing with issues; and beyond that, to coordinate 
activity across our corporation, we have executive security 
councils and a Verizon information security council that is 
responsible not only for oversight, but to make sure that best 
practices are implemented within our business organizations.
    We have a cyber intrusion response team that provides 7-by-
24 coverage for the entire enterprise, supporting all business 
units and organizational points of contact to assess intrusion 
impacts, contain and control further dissemination of problem 
areas across the company, and capture and preserve evidence for 
law enforcement and legal purposes.
    So, within Verizon Corporation, as within many other 
corporations that I work with day in and day out, there are 
strong practices in place. There is a real focus day in and day 
out on cybersecurity and critical assets protection within our 
organizations.
    I would like to address, just for a minute, sector 
collaboration. Verizon and its peer companies within the 
communications sector have a long history of cooperation on 
national security and emergency preparedness. We have a 40-year 
history that stems back to the aftermath of the Cuban missile 
crisis when the National Communications System was created to 
deal with issues of interoperability and sustainable 
communications.
    Since that time, in 1984, the National Coordinating Center 
for Telecommunications was formed as a partner organization 
with the National Communications System. It was broadened. It 
was established when Executive Order 12472 created it, and it 
has focused since that time on making sure that industry and 
government work together closely day in and day out on a full 
range of asset protection measures. The focus is on 
facilitating information sharing among government and industry 
participants regarding vulnerability, threat, intrusion, and 
anomaly information affecting the telecommunications 
infrastructure.
    I might point to the recent Southern California fires where 
the NCC Watch took a real leadership role in coordinating 
private sector and government information, sharing real-time on 
what was happening within the field and how industry and 
government could respond together. That information developed 
there was shared with a joint field office when established on 
the West Coast.
    There is a network reliability and interoperability council 
established by the FCC back in 1992. There have been a series 
of seven councils since that time. Most have focused on some 
aspect of security practice. Verizon and industry in general 
have been very active in working not only with the FCC, but 
with other government partners in advancing sound practice on a 
voluntary basis as a result of the work done within the NRIC.
    There is another organization called the National Security 
Information Exchange. In 1990, the NCS focused on actions 
industry and government could pursue to protect critical 
telecommunications from the growing hacker threat. Ultimately, 
the NCS and NSTAC created national security information 
exchanges. These exchanges, since that time, have brought 
together expertise from government and subject matter experts 
on security practice from industry to address a full range of 
security practices relevant to the evolving risk environment.
    Pertinent to the Communications Sector Coordinating 
Council, I am very proud to be its chair for this year, and it 
points out the complexities, I think, of working together not 
just within our sector, but on a cross-sector basis; and we 
have focused very much on our interdependencies not just within 
our sector, but across sectors.
    The Communications Sector Coordinating Council became 
operational in calendar year 2006. It was chartered to foster 
the coordination of policy initiatives to improve the physical 
and cybersecurity of sector assets and to ease the flow of 
information within the sector, across sectors, and with 
designated Federal agencies.
    We now embrace 35 member companies that are broadly 
representative of the sector. I think that is a real benefit of 
the Sector Coordinating Council's having been established, 
because we are not just traditional wireline and wireless; we 
are satellite, we are undersea cable. We represent the National 
Broadcasters, the Association of Public Television Stations, a 
wide range of companies.
    To summarize, the sector has been very proactive through 
the Sector Coordinating Council, through other mechanisms, and 
we have really focused on our sector-specific plan, currently 
on the risk assessment which we plan to have complete by the 
end of this calendar year in draft form and in final form by 
the end of the first quarter next year. Thank you.
    Mr. Langevin. Thank you.
    [The statement of Mr. Hickey follows:]

                Prepared Statement of J. Michael Hickey

    Overview:
    Mr. Chairman and Members of the Subcommittee, my name is Mike 
Hickey and I thank you for the opportunity to testify before you on 
measures we have taken to address cybersecurity in the Communications 
Sector Specific Plan. I serve as Vice President of Government Affairs 
for National Security Policy at Verizon and as Chair of the 
Communications Sector Coordinating Council. I also serve as Vice Chair 
of the Internet Security Alliance and am an active member of the US 
Chamber of Commerce Homeland Security Task Force. Of these 
organizations, the Communications Sector Coordinating Council is 
uniquely chartered to represent the breadth of the communications 
sector on policy issues relating to the protection of critical 
communications infrastructure and key assets. Since 2005, it has 
emerged as an instrument for business engagement with government on 
policy matters relating to homeland security and emergency 
preparedness.
    My comments will address the roles that have been established for 
industry and government in protecting the nation's critical physical 
and cyber communications assets, steps taken to protect these assets, 
what measures have worked effectively and what needs to be done to 
sharpen the collective focus as we move forward.

    Tiered Approach to Critical Asset Protection:
    Effective industry and government collaboration starts with the 
actions of individual organizations. The private sector owns and 
operates nearly 90% of this country's critical infrastructure. Because 
of industry's important role in national and homeland security, 
corporations like Verizon must dedicate the operations experience, 
resources and oversight necessary to be as self-aware and self-reliant 
as possible. Verizon is obligated to its shareowners and customers to 
take the steps necessary to secure its cyber, physical and human assets 
from disruption or attack. We cooperate with peer companies in order to 
support communications sector mutual aid obligations. We also 
proactively address our interdependencies with other sectors to ensure 
continuity of operations in time of crisis. Finally, we continue to 
work with government agencies at the Federal, State, regional and local 
levels to support appropriate security and emergency preparedness 
initiatives.

    Strength from Within:
    Verizon Communications Inc. is a Dow 30 company. It employs over 
240,000 employees. In 2006, the company generated $88 billion in annual 
revenue and spent $17.1 billion on capital investments. Verizon's 
state-of-the-art voice, data and video networks are touched by over 100 
million consumers and government and business customers daily.
    Given its breadth of service and geographic coverage, Verizon's 
commitment to national security and emergency preparedness--grounded in 
corporate policy, sound business practice and hands-on experience--is 
long-standing and growing. In order to ensure the continuity of its own 
operations and to meet the requirements of its critical customers in 
time of crisis, Verizon has:
        <bullet> Designed, built and managed network facilities that 
        are robust and resilient;
        <bullet> Embraced ``best practice'' business methods and 
        security procedures;
        <bullet> Created and tested business continuity and emergency 
        preparedness programs that have served the corporation and its 
        customers in times of stress;
        <bullet> Responded successfully to a wide range of crises; and,
        <bullet> Provided leadership strength to industry and 
        government organizations dedicated to national security and 
        emergency preparedness.
    Verizon's Internal Security Councils: Verizon takes a holistic 
approach to addressing information security by coordinating business 
unit activity around network and information protection. This effort is 
led by the Verizon Executive Security Council (VESC), established in 
1995 to oversee all aspects of information security within Verizon. 
Reporting to the VESC is the Verizon Information Security Council 
(VISC), an enterprise-wide, cross-organizational working committee 
comprised of lead security managers and information security teams. The 
VISC is charged with instituting a secure environment for company 
network, information management, processing, transport and delivery.
    The Verizon business units that comprise the VISC are dedicated to 
providing coordinated information and network security services for 
Verizon. These services include firewall support, host (mainframe and 
distributed) management, virus protection, risk assurance, information 
security practices, information security awareness, Incident Response & 
Vulnerability scanning, and remote access security administration.
    Computer Intrusion Response Team (CIRT): The Verizon CIRT provides 
7x24 coverage for the entire enterprise, supporting all business units 
and organizational points of contact to assess intrusion impacts, 
contain and control further dissemination of problems across the 
company, and capture and preserve evidence for law enforcement/legal 
purposes. The CIRT also provides restoration options, identifies and 
closes security vulnerabilities (exploited or otherwise), and uses 
secure communication channels during response.
    The CIRT's network of contacts and organizational breadth enable it 
to effectively work with the appropriate company personnel to 
coordinate incident response and resolution. A single point of contact 
is designated for all network or computer related security advisories 
to the enterprise, thus eliminating duplication of information and 
effort by quality checking all data prior to distribution. A historical 
repository of advisory data is also maintained for reference.
    Management Structure: Verizon has sharpened its focus in addressing 
its evolving challenges in network technology and security. Key 
internal organizations have been realigned to apply consistent, best 
practice solutions to IT and network technology across business units. 
Verizon's Executive Vice President and Chief Information Officer has 
oversight over a range of technical support organizations serving the 
company's major business units. Meanwhile, a newly created position of 
Executive Vice President and Chief Technology Officer has 
responsibility for establishing and managing the overall direction, 
technology and planning of all Verizon networks. The CTO in each of 
Verizon's business groups remains responsible for the day-to-day 
execution of their network deployment strategies.
    Technical Support:T1 A full array of internal technical, consulting 
and R&D services are available to guide decision making and strengthen 
best practice within all major business units. For instance, the 
Verizon Information and Network Security organization advances security 
strategies that integrate people, process and technology (such as 
firewalls, intrusion detection systems, virus protection, and remote 
access) with full adherence to information security policies and 
practices; while also providing technical and consulting services to 
business units--all with a primary focus on information asset 
protection.
    Verizon Information Security Focus is Crucial: In today's evolving 
threat environment, malicious insiders are the greatest threat to our 
critical national infrastructures. Today's geo-political climate will 
result in cyber attacks against national communications and control 
systems of economic, safety, or political significance. And politically 
(ideologically) motivated cyber attacks are increasing in volume, 
sophistication, and coordination. Verizon is addressing today's very 
real threats. Standards organizations must address carrier class 
security issues and architectures. The vendor community needs to 
produce equipment & software that meet Verizon's security objectives. 
And our customers and peer carriers need to work with us to mitigate 
security risks.

    Sector Leadership and Collaboration:
    Verizon, and its peer companies within the Communications Sector, 
have a long history of cooperation in national security and emergency 
preparedness. This history distinguishes the Communications Sector from 
most other critical sectors identified in the National Infrastructure 
Protection Plan. The sector personifies cooperation and trusted 
relationships that have resulted in the delivery of critical services 
when emergencies and disasters occur. A strong bond between the private 
and public sectors exists today in large part because of several 
organizations that were created in response to earlier threats to the 
nation's critical infrastructure.
    National Communications System: The Sector Specific Agency for the 
Communications Sector is the National Communications System (NCS), 
currently housed within the Department of Homeland Security's National 
Cyber Security and Communications Division.
    The NCS was established by President Kennedy in the aftermath of 
the Cuban missile crisis when communications problems between the 
United States and key international players threatened to further 
complicate the crisis. Since 1963, the NCS has worked to strengthen the 
communications facilities and components of various Federal agencies, 
focusing on interconnectivity and survivability.
    National Coordinating Center for Telecommunications: In 1982, 
telecommunications industry and Federal Government officials identified 
the need for a joint mechanism to coordinate the initiation and 
restoration of national security and emergency preparedness 
telecommunications services. In 1984, Executive Order 12472 broadened 
the NS/EP role of the National Communications System and created the 
National Coordinating Center for Telecommunications as a central 
public-private sector organization to coordinate response to emergency 
communications situations.
    In January 2000, the NCC was designated an Information Sharing and 
Analysis Center for Telecommunications in accordance with PDD-63. The 
NCC-ISAC facilitates information sharing among government and industry 
participants regarding vulnerability, threat, intrusion, and anomaly 
information affecting the telecommunications infrastructure.
    The National Security Telecommunications Advisory Committee 
(NSTAC): The NSTAC was created 25 years ago, in 1982, by Executive 
Order 12382. NSTAC provides another highly successful example of how 
the private sector helps direct government decisions around national 
security and emergency preparedness communications (NS/EP). This 
advisory committee to the President brings together 30 industry chief 
executives representing major telecommunications companies, network 
providers, information technology companies, finance and aerospace 
businesses. NSTAC provides industry-based advice and expertise to the 
President on a wide range of telecommunications problems related to 
implementing NS/EP communications policy issues. These include, but are 
not limited to, information security, information assurance, and 
critical infrastructure protection.
    NS/EP communications enable the government to make an immediate and 
coordinated response to all emergencies, including cyber attacks. NS/EP 
communications allow the President and other senior Administration 
officials to be continually accessible, even under stressed conditions. 
The impact of today's dynamic technological and regulatory environment 
is profound with new technologies and increasing competition bringing 
both new opportunities and new vulnerabilities to the information 
infrastructure. The NSTAC is strongly positioned to offer advice to the 
President on how to leverage this dynamic environment to enrich NS/EP 
communications capabilities and ensure that new architectures fulfill 
requirements to support NS/EP operations; and to avoid introducing 
vulnerabilities into the information infrastructure that could 
adversely affect NS/EP communications services. The NSTAC's current 
work plan includes issues ranging from information sharing and the 
security and reliability of converged networks to research and 
development (R&D) issues related to converged networks.
    The Network Reliability and Interoperability Council (NRIC): 
Government-imposed solutions may hinder the ability of business to 
adapt and respond effectively to the changing threat environment. So it 
becomes critical for business and government to work collaboratively 
towards solutions that are meaningful, adaptable and sustainable. The 
voluntary development of and compliance with ``best/sound practice'' 
approaches to physical and cyber security is a model that is time 
tested. It is illustrated through the work of the Federal 
Communications Commission's Network Reliability and Interoperability 
Council. The NRIC is a successor to the National Reliability Council, 
first established in 1992. Through the work of seven successive 
councils, subject matter experts from business and government have come 
together to address network reliability and interoperability issues of 
concern, develop best/sound practices and encourage voluntary adoption. 
The NRIC will soon merge with the Media Security and Reliability 
Council (MSRC) to create a new organization, the Communications 
Security, Reliability, and Interoperability Council (CSRIC).
    National Security Information Exchange (NSIE): In April 1990, the 
Chairman of the National Security Council's Policy Coordinating 
Committee requested the NCS Manager identify what actions industry and 
Government should pursue to protect critical NS/EP telecommunications 
from the growing ``hacker'' threat. The NCS Manager subsequently 
requested that the NSTAC provide industry's perspective on the network 
security issue. Ultimately NSTAC created a mechanism for security 
information exchange and produce a corresponding implementation plan. 
The NSTAC and NCS Manager also established separate, but closely 
coordinated, Network Security Information Exchanges (NSIEs). In May 
1991, the NSIE charters were finalized, and NSTAC companies and 
government departments and agencies designated their NSIE 
representatives, chairmen, and vice-chairmen. The NSTAC and government 
NSIEs held their first joint meeting in June 1991.
    Industry and government coordinate through their respective NSIEs 
to voluntarily share sensitive information on threats to operations, 
administration, maintenance, and provisioning systems supporting the 
telecommunications infrastructure. Government NSIE members include 
departments and agencies that use national security and emergency 
preparedness (NS/EP) telecommunications services, represent law 
enforcement, or have information relating to network security threats 
and vulnerabilities. NSTAC NSIE representatives include subject matter 
experts who are engaged in prevention, detection, and/or investigation 
of telecommunications software penetrations or have security and 
investigative responsibilities.

    The Communications Sector Coordinating Council (CSCC) and its 
Sector Specific Plan (SSP):
    Verizon recognizes its critical operational dependence on other 
sectors and has established the necessary vendor relationships to meet 
both normal and extraordinary continuity of business requirements. In 
turn, all critical sectors are heavily reliant on the Communications 
Sector to support their own continuity of operations.
    The Homeland Security Act of 2002 provided the basis for DHS' role 
in the protection of the nation's critical infrastructure and key 
resources (CI/KR.) The Act assigned DHS responsibility for developing a 
comprehensive national plan for securing CI/KR in conjunction with 
other Federal agencies, State and local agencies and authorities, the 
private sector and other entities.
    The complexity of cross sector independencies was recognized in the 
2006 National Infrastructure Protection Plan, resulting from Homeland 
Security Presidential Directive 7. HSPD-7 focused on the 
identification, prioritization and protection of the nation's critical 
assets. It prescribed the development of the National Infrastructure 
Protection Plan (NIPP) and corresponding Sector Specific Plans. Perhaps 
most significantly, the NIPP encouraged the establishment of sector 
coordinating councils. In so doing, it brought greater sector diversity 
to the table and significantly advanced the institutional capacity of 
sectors to formally and proactively address cross-sector dependencies.
    Communications Sector Coordinating Council (CSCC): The 
Communications Sector Coordinating Council (CSCC) became operational in 
calendar year 2006. It was chartered to foster the coordination of 
policy initiatives to improve the physical and cyber security of sector 
assets, and ease the flow of information within the sector, across 
sectors and with designated Federal agencies. Through the CSCC, 
private-sector owners, operators and suppliers can engage Federal 
government entities to: identify and coordinate policy issues related 
to the protection of critical infrastructure and key resources; 
facilitate the sharing of information related to physical and cyber 
threats, vulnerabilities, incidents, potential protective measures, and 
best practices; and, address policy issues related to response and 
recovery activity and communication following an incident or event. The 
CSCC now embraces 35 member companies and has become more 
representative of the diversity of the Communications sector. Members 
include wireline, wireless, cable, satellite, information service 
providers, as well as commercial and public broadcasters, service 
integrators, and equipment vendors. Small and medium size companies are 
represented through CTIA, USTelecom, ITA and NCTA. Verizon currently 
chairs the CSCC.
    CSCC members meet quarterly to review industry and government 
actions on critical infrastructure protection priorities, confer with 
Federal agency representatives, review cross sector CIP issues, and 
coordinate with industry participants in NSTAC and the NCC ISAC to 
ensure industry coordination. Council work groups meet frequently to 
engage industry and government SME's on task force initiatives. Top 
2007 CSCC priorities include the sector's risk assessment of critical 
assets, cross sector pandemic planning and implementation of access and 
credentialing and emergency wireless protocols.
    The CSCC and IT Sector Coordinating Councils maintain close 
coordination on a range of policy and operational initiatives. Both 
sectors participate in a recently formed cross sector cyber security 
work group. Both have worked to heighten industry's role in NS/EP 
exercises such as last summer's ESF2 exercise in New Orleans and in 
TopOff 4. In the aftermath of Katrina, the Councils met to discuss ways 
of strengthening industry preparation and response to major events. 
Both participate in ongoing sector risk assessment activity. Both 
organizations have elected sector liaisons to attend each other's 
coordinating council meetings and they meet annually to confer, with 
government counterparts, on ongoing sector activity.
    Partnership for Critical Infrastructure Protection (PCIS): The 
Communications Sector Coordinating Council is a member of the 
Partnership for Critical Infrastructure Security (PCIS.), a private 
sector organization. PCIS is comprised of the leadership from each of 
the Sector Coordinating Councils, which represent the owners and 
operators of the critical infrastructure and key resources sectors 
identified by the government in HSPD-7. The mission of PCIS is to 
coordinate cross-sector initiatives that promote public and private 
efforts to help ensure secure, safe, and reliable critical 
infrastructure services. This mission encompasses physical, cyber, and 
human security that rely on strong infrastructure integrity and 
resilience. Accordingly, the PCIS mission spans the full spectrum of 
critical infrastructure matters from prevention, planning, and 
preparedness to business continuity, mitigation, response, and 
recovery.
    The PCIS has worked to encourage a productive industry partnership 
with the Federal government over the past six years. It was formally 
recognized as the Private Sector Cross-Sector Council in the National 
Infrastructure protection Plan when it was released in 2006. The NIPP 
states that the ``cross-sector issues and interdependencies are 
addressed among the sector coordinating councils through PCIS. PCIS 
members, including the CSCC, continue to work with designated Federal 
agencies on implementation of their sector specific plans.
    Communications Sector Specific Plan (CSSP): The CSCC completed work 
on the CSSP for critical infrastructure and key resource (CI/KR) 
protection, as recommended by the NIPP, in December 2006 the plan was 
subsequently released in May 2007. It was developed jointly by industry 
and the National Communications System, with input from Federal 
government agencies ranging from the US Department of Commerce to the 
Federal Communications Commission.
    The CSSP provides a framework for protecting the Nation's critical 
communications assets and key resources. It addresses asset 
identification, risk assessment and mitigation, protective programs and 
government measurements.
    The goals of the CSSP include the need to:
        <bullet> Protect the overall health of the national 
        communications backbone;
        <bullet> Rapidly reconstitute critical communications services 
        after national and regional emergencies;
        <bullet> Plan for emergencies and crises by participating in 
        exercises and updating response and continuity of operations 
        plans;
        <bullet> Develop protocols to manage the exponential surge in 
        utilization during an emergency situation and ensure the 
        integrity of sector networks during and after an emergency 
        event;
        <bullet> Educate stakeholders on communications infrastructure 
        resiliency and risk management practices in the Communications 
        Sector;
        <bullet> Ensure timely, relevant, and accurate threat 
        information sharing between the law enforcement and 
        intelligence communities and key decision makers in the sector;
        <bullet> Establish effective cross-sector coordination 
        mechanisms to address critical interdependencies, including 
        incident situational awareness, and cross-sector incident 
        management.
    The CSSP acknowledges the lead role played by private sector owners 
and operators in protecting critical assets. The communications 
companies that own, operate and supply the Nation's communications 
infrastructure have historically factored natural disasters and 
accidental disruptions into network resiliency architecture, business 
continuity plans, and disaster recovery strategies. The interconnected 
and interdependent nature of these service provider networks has 
fostered crucial information sharing and cooperative response and 
recovery relationships for decades. The CSSP also articulates the role 
of the Federal government in providing the support and resources 
necessary to identify threats and help mitigate risk.
    The Communications Sector's strategy is to ensure the nation's 
communications networks and systems are secure, resilient, and rapidly 
restored after an incident. The approach outlined in the CSSP includes:
        <bullet> Defining industry and government roles in protecting 
        communications infrastructure by leveraging corporate 
        capabilities and government programs;
        <bullet> Adopting an architectural approach to infrastructure 
        identification and risk assessment processes;
        <bullet> Coordinating with other sectors and customers on 
        critical infrastructure dependencies and solutions for 
        mitigating risk; and
        <bullet> Working closely with DHS to advance sector protection 
        and mitigation measures.
    The CSSP defines the three major arenas where risk assessments are 
conducted: industry self-assessments; government-sponsored assessments 
and government-sponsored cross sector dependency analyses. Industry 
self-assessments of risk are ongoing. Such assessments are conducted to 
verify compliance with company policies, industry standards, contract 
agreements and regulatory requirements.
    Throughout 2007, industry has turned its attention to working with 
government to define relevant government sponsored assessments through 
a National Sector Risk Assessment (NSRA) process. Through this process, 
industry and government have undertaken a qualitative risk analysis of 
Communications Sector infrastructure and have narrowed the scope of 
risk assessments to nationally critical network elements. This process 
will result in a draft government assessment by December 2007, with a 
final report to be completed by March 2008. Based on the outcomes of 
this government assessment process, government may conduct more 
quantitative assessments of selected architecture elements in 
conjunction with industry.
    The third and final element of the CSSP risk assessment process is 
the analysis that government will undertake with industry on cross-
sector dependencies. Work will commence in 2008, the process will 
identify high-level critical sector communications dependencies and 
will leverage NCS risk assessment methodologies to identify 
communications dependencies specific to a facility or function. The 
goal will be to assist other sectors in the assessment of 
communications dependencies for high-risk assets.
    The Communications and IT Sector Coordinating Councils have worked 
to ensure that respective risk assessment efforts, although distinct, 
are complementary where the sectors overlap. This cross-sector 
participation increases information sharing, including lessons learned. 
In each sector, cyber threats associated with the sector's functional 
or network elements will be identified and vulnerabilities and 
consequences associated with such threats will be assessed to determine 
risk.
    Whatever success the CSCC has achieved in the development of the 
CSSP has resulted from industry's singular focus on developing a 
critical asset protection plan that is designed by industry for 
implementation by industry. In order to accomplish this, the NCS 
stepped forward to advocate industry positions within the Department of 
Homeland Security and with DHS project contractors. A strong element of 
social capital exists among industry representatives and Federal agency 
personnel within the Communications Sector. This trusted relationship 
helped to produce a practical, meaningful asset protection framework 
that can now be used by industry and government partners to better meet 
the country's security requirements. The CSSP is realistic and well-
grounded.
    Critical Asset Protection Over the Long Term: What cannot be 
underestimated by policymakers is the enormous amount of private sector 
resources that are being devoted to finding solutions--with government 
partners--to achieve greater effectiveness in our country's security 
and response programs. The Communications Sector continues to commit 
significant financial resources and subject matter expertise to 
strengthen critical business practices. It will continue to dedicate 
time and expertise to its work with the NCS and other Federal, state 
and local government partners to address emerging operational and 
policy issues.
    To ensure even greater effectiveness in protecting the Nation's 
critical communications infrastructure--both physical and cyber--
industry and government partners must be clear about their respective 
roles in getting the job done. Industry is the first line of defense in 
protecting assets and mitigating risks, and aggressive business 
continuity and security practice will remain critically important as 
the Nation's risk environment continues to evolve. Although the 
Communications Sector's long history of coordination will change as 
industry restructuring continues, close planning and coordination 
within the sector will continue to be a mainstay of efforts to fortify 
physical and cyber security programs.
    Government must continue to ensure clarity of roles and 
responsibilities among all levels of government and the private sector. 
It should continue to advocate for strong sector and cross sector 
collaboration on operational and policy issues and in providing the 
necessary intelligence and operational support to ensure effective 
industry preparedness and response, in particular by refining and 
improving roles and responsibilities in the National Response 
Framework.
    Although industry and government have made progress on long 
standing issues pertaining to protection of critical assets and key 
resources, much work lies ahead. There must be an even greater Federal 
government focus on effective engagement and integration of state and 
local authorities in all aspects of critical infrastructure protection 
and emergency response, including the rollout and coordination of 
initiatives ``on the ground''. For instance, practical steps on access 
and credentialing and emergency wireless protocols for shutdown and 
restoration of service must be taken to facilitate industry response to 
natural or man-made disasters. Myriad jurisdictional laws and 
requirements may be complex, but real world execution is overdue. 
Government must also continue to integrate industry more fully on 
operational planning, coordination and joint policy initiatives. 
Effective partnerships require early involvement of industry and direct 
engagement in government programs, including protection and response 
plans, which impact the private sector's critical industry assets. 
Although government has recognized the importance of sharing timely 
threat intelligence with industry, more needs to be done in this area 
to advance NS/EP interests. Finally, recent Congressionally mandated 
changes in organization and functions within DHS need to be fully 
implemented and understood by all stakeholders in the critical 
infrastructure protection and emergency response domain. In sum, 
Industry and the Federal government have much to do on the full array 
of critical infrastructure protection initiatives, while advancing 
transition plans for the upcoming change in Administration.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or the subcommittee might have about Verizon 
or the Communications Sector.

    Mr. Langevin. I now recognize Mr. Hender to summarize your 
statement for 5 minutes.

     STATEMENT OF GEORGE HENDER, BANKING/FINANCIAL SECTOR 
  COORDINATING COUNCIL, AND MANAGEMENT VICE CHAIRMAN, OPTIONS 
                      CLEARING CORPORATION

    Mr. Hender. Chairman Langevin, Chairwoman Jackson Lee, 
Ranking Members McCaul and Lungren, and members of both 
subcommittees, my name is George Hender, and I am Chairman of 
the Financial Services Sector Coordinating Council, also known 
as FSSCC. I am pleased to appear today on FSSCC's behalf to 
discuss the important topic of cybersecurity.
    FSSCC was established by the Department of Treasury. FSSCC 
is a private sector coalition of the Nation's leading banks, 
financial firms, insurance companies, and their trade 
associations. FSSCC worked collaboratively with Treasury, our 
sector specific agency, and with FSSCC, our government 
coordinating council, to craft our sector-specific plan.
    Our plan identifies three specific goals: first, to 
maintain a sector strong position of resilience, risk 
management, and redundant systems;
    Second, to manage the risk posed by cross-sector 
interdependencies; and
    Third, to work with law enforcement, the private sector, 
and our international counterparts to track and arrest 
criminals.
    The remainder of my testimony will focus on FSSCC's efforts 
to meet these goals in the area of cybersecurity.
    Modern financial services are built on a foundation of 
informational technology. Financial firms' systems are a target 
for cyber attack because that is where the money is. As the 
nature and the complexity of attacks grow more sophisticated, 
FSSCC continues to implement a number of cyber-related 
initiatives. I would like to highlight some of those 
initiatives.
    A year prior to the National Infrastructure Protection 
Plan's release in 2006, FSSCC formed the first sector R&D 
committee. In April 2006, this committee published The Research 
Challenges, a report identifying eight specific R&D priorities. 
An overarching theme throughout this report is protecting the 
sector from cyber attacks.
    In October 2006, the R&D committee published our research 
agenda to demonstrate how research challenges relate to the 
NIPP. Together with these two publications, the necessary steps 
to produce a robust cyber secure platform was formed.
    Another vital asset of FSSCC is the Financial Services 
Information Sharing Analysis Center, or FS-ISAC. Our ISAC has 
been an effective information-sharing tool in the fight against 
cyber attacks. Every day our ISAC forwards cyber and physical 
security risk updates from over 100 sources to over 11,000 
sector participants. Our ISAC also shares this information with 
Treasury and law enforcement to help stop and prevent attacks.
    FSSCC and our ISAC have also been active participants in 
several business continuity exercises, including the 
congressionally mandated Top Off exercises. Additionally, ISAC 
represented FSSCC in Cyber Storm and Cyber Tempest, two 
exercises focused on cyber-related issues. Our ISAC is also 
helping us to plan for Cyber Storm II, which is scheduled for 
March 2008.
    FSSCC believes exercise participation is critical, and we 
encourage the planners of these exercises to include the 
private sectors during the planning phases of these exercises.
    FSSCC has been an active participant in the Partnership for 
Critical Infrastructure Security, PCIS. I am a member of the 
executive committee and board of PCIS. PCIS has a working group 
focusing on cross-sector collaboration on cybersecurity issues.
    Many cybersecurity issues are ongoing and there are still 
several issues to address. Two issues relate to the GAO's SSP 
report and the DHS's R&D budget. According to GAO, the banking 
and finance sector SSP was ranked somewhat comprehensive in 
addressing cybersecurity. Because the GAO did not consult with 
the Treasury or FSSCC when preparing this report, I 
respectfully disagree with their conclusions.
    Our SSP included the research challenge document which 
fully addresses the GAO criteria for cybersecurity R&D. For 
example, our R&D committee is identified as the primary 
mechanism to solicit information on R&D initiatives; and the 
research challenges report details the sector's goals and gaps 
related to cybersecurity. Examples of the SSP in my written 
testimony contradict GAO's finding that we failed to identify 
the programs to detect, deter, respond, and recover from cyber 
attacks.
    The GAO report also stated our SSP failed to describe the 
process for R&D investment priorities, but the R&D committee 
clearly identified a number of priorities where investment 
dollars could be directed. Without further guidance, it is 
unclear how the GAO reached these conclusions. We will welcome 
a dialogue with GAO on these important issues.
    Finally, FSSCC believes DHS should consult with the private 
sector when funding private research. FSSCC thinks it makes 
good economic sense to fund R&D industry experts and to use 
those experts to achieve this goal. Greater communication and 
consulting is necessary between DHS, Treasury, and FSSCC.
    Another option would be to provide direct grant authority 
to the Treasury. Currently, FSSCC can only influence R&D 
projects through comment letters.
    In short, FSSCC believes that the DHS cybersecurity R&D 
budget should be more closely aligned with the level of threat. 
An appropriation of only $11 million is clearly insufficient. 
Our Nation would be better served by providing additional 
budget discretion and dollars to projects identified by the 
industry under attack.
    Thank you for the opportunity to provide FSSCC's views for 
this important hearing. I would be pleased to answer any 
questions.
    [The statement of Mr. Hender follows:]

                 Prepared Statement of George S. Hender

    Chairman Langevin, Chairwoman Jackson Lee, Ranking Members McCaul 
and Lungren, and members of the Subcommittee on Emerging Threats, 
Cybersecurity, and Science and Technology and the Subcommittee on 
Transportation Security and Infrastructure Protection of the House 
Homeland Security Committee, I am George Hender, Management Vice 
Chairman of The Options Clearing Corporation (OCC), which is the 
world's largest derivatives clearing organization.\1\ OCC is a leader 
in business continuity planning in the financial services sector and 
was a founding member of the Financial Services Sector Coordinating 
Council (FSSCC) and ChicagoFIRST, a regional public/private partnership 
addressing homeland security and emergency management issues in the 
financial services industry. I am pleased to submit this statement on 
the very important topic of cybersecurity on behalf of FSSCC.\2\
---------------------------------------------------------------------------
    \1\ OCC, founded in 1973, was the first clearinghouse to receive a 
'AAA'credit rating from Standard & Poor's Corporation. Operating under 
the jurisdiction of the Securities and Exchange Commission and the 
Commodity Futures Trading Commission, OCC provides clearing and 
settlement services for the American Stock Exchange, the Boston Options 
Exchange, the Chicago Board Options Exchange, the CBOE Futures 
Exchange, the International Securities Exchange, NYSE Arca, OneChicago, 
the Philadelphia Stock Exchange and the Philadelphia Board of Trade.
    \2\ The members of FSSCC are the America's Community Bankers (ACB); 
American Bankers Association (ABA); American Council of Life Insurers 
(ACLI); American Insurance Association (AIA); American Society for 
Industrial Security (ASIS) International; BAI; BITS/The Financial 
Services Roundtable; ChicagoFIRST; Chicago Mercantile Exchange (CME); 
The Clearing House (TCH); CLS Group; Consumer Bankers Association 
(CBA); Credit Union National Association (CUNA); The Depository Trust & 
Clearing Corporation (DTCC); Fannie Mae; Financial Industry Regulatory 
Authority (FINRA); Financial Information Forum (FIF); Financial 
Services Information Sharing and Analysis Center (FS-ISAC); Financial 
Services Technology Consortium (FSTC); Freddie Mac; Futures Industry 
Association (FIA); ICE Futures U.S.; Independent Community Bankers of 
America (ICBA); Investment Company Institute (ICI); Managed Funds 
Association (MFA); The NASDAQ Stock Market, Inc.; National Association 
of Federal Credit Unions (NAFCU); National Futures Association (NFA); 
NACHA--The Electronic Payments Association; The Options Clearing 
Corporation; Securities Industry Automation Corporation (SIAC); 
Securities Industry and Financial Markets Association (SIFMA); State 
Street Global Advisors; VISA USA Inc.
---------------------------------------------------------------------------
    On June 6, 2006, I was appointed to serve as Sector Coordinator for 
the Financial Services Sector by former Secretary of the Treasury John 
Snow. Thus, I am the Chairman of FSSCC. Prior to my appointment, I 
served as FSSCC's Vice Chairman from September 2004 through May 2006. 
Additionally, I am on the Executive Committee and Board of the 
Partnership for Critical Infrastructure Security (PCIS), which is the 
private sector organization that coordinates homeland security issues 
for all national critical infrastructures. I have also formerly served 
as Vice Chairman of the Financial Services Information Sharing and 
Analysis Center (FS-ISAC). This is the organization responsible for 
communicating key cyberspace, physical security, and Homeland Security 
information to the financial services sector.
    I applaud the Committee for holding today's hearing on such an 
important topic. Before I focus on measures taken by FSSCC related to 
cybersecurity, I would first like to discuss the important role the 
financial services sector has in our economy and the role FSSCC plays 
in improving the sector's resilience through safeguarding its critical 
infrastructure and employees.

    Introduction and Background
    The United States financial services sector is the backbone of the 
world economy. With United States assets estimated to be in excess of 
$55 trillion,\3\ this large and diverse sector accounted for over $1 
trillion in 2006 gross domestic product (GDP) or 7.8 percent of total 
GDP.\4\ The sector is primarily owned and operated by the private 
sector whose institutions are extensively regulated by Federal and, in 
many cases, state government. In addition to these public sector 
entities, self-regulatory organizations (SROs), such as the 1Municipal 
Securities Rulemaking Board (MSRB), the Financial Industry Regulatory 
Authority (FINRA), and the National Futures Association (NFA), and 
exchanges, such as the Chicago Mercantile Exchange (CME), the New York 
Stock Exchange (NYSE), also play an important role in industry 
oversight.
---------------------------------------------------------------------------
    \3\ http://www.financialservicesfacts.org/financial2/today/assets
    \4\ http://www.bea.gov/bea/dn2/gdpbyind_data.htm
---------------------------------------------------------------------------
    Working together, the public and private sector regulators 
encourage a highly competitive market where identifying and managing a 
myriad of financial and nonfinancial risks is essential to success. 
Through numerous laws enacted by Congress over the past 150 years, 
federal financial regulators have implemented a complex regime that 
includes examinations of the sector's institutions' operational, 
financial and technological systems. These examinations are designed to 
determine the extent to which an institution is addressing its 
financial and non-financial risks, such as Internet and information 
technology vulnerabilities. They also evaluate the adequacy of controls 
and applicable risk management practices at the institution.

    Public-Private Partnership
    Both the public and private sector financial services organizations 
recognize the importance of business continuity planning in preparing 
for catastrophic events; however, our sector's organizations know they 
will not operate as independent entities during a real crisis. 
Therefore, planning for these events should be done in a coordinated 
fashion.
    FSSCC was established at the request of the U.S. Treasury 
Department in response to Homeland Security Presidential Directive 7, 
which required sector-specific Federal departments and agencies to 
identify, prioritize and protect United States critical infrastructure 
and key resources. We are a private sector coalition of the nation's 
leading financial services firms and trade associations that are 
working to reinforce the financial services sector's resilience to 
terrorist attacks, man-made and natural disasters, and other threats, 
such as cyber attacks, facing the sector's critical infrastructure.
    FSSCC closely interacts with its Sector Specific Agency (SSA), the 
Department of the Treasury (Treasury), and the Financial and Banking 
Information Infrastructure Committee (FBIIC), its public-sector 
counterpart.\5\ We also strongly support regional public/private 
partnerships, such as ChicagoFIRST and DFWfirst. These organizations 
address homeland security and emergency management issues on a local 
level, where many catastrophic events are primarily managed.
---------------------------------------------------------------------------
    \5\ The members of FBIIC are the Commodity Futures Trading 
Commission (CFTC); the Conference of State Bank Supervisors (CSBS); the 
Department of the Treasury; the Farm Credit Administration (FCA); the 
Federal Deposit Insurance Corporation (FDIC); the Federal Housing 
Finance Board (FHFB); the Federal Reserve Bank of New York; the Federal 
Reserve Board (Fed); the National Association of Insurance 
Commissioners (NAIC); the National Association of State Credit Union 
Supervisors (NASCUS); the National Credit Union Administration (NCUA); 
the North American Securities Administrators Association (NASAA); the 
Office of the Comptroller of the Currency (OCC); the Office of Federal 
Housing Enterprise Oversight (OFHEO); the Office of Thrift Supervision 
(OTS); the Securities and Exchange Commission (SEC); and the Securities 
Investor Protection Corporation (SIPC).
---------------------------------------------------------------------------
    The combined efforts and close interaction of these groups with 
FSSCC fosters a spirit of cooperation within our sector that 
facilitates effective preparation for a critical event, such as a cyber 
attack. Equally important, this collaboration creates a streamlined 
approach to working with other sectors where cross-industry 
interdependencies exist. The financial services sector is very 
dependant on a number of other sectors, especially the energy, 
telecommunications and transportation sectors.
    At the beginning of my term as FSSCC Chairman, I personally met 
with representatives from nearly every FSSCC member to solicit their 
ideas on how to further strengthen the resilience of the financial 
services sector and reduce vulnerability to cyber threats, terrorist 
attacks, criminal or illegal activities, and man-made or natural 
disasters. These conversations, as well as the large number of formal 
and informal meetings taking place each year within FSSCC and between 
FSSCC and FBIIC, help show how our partnership model addresses threats 
and risks posed by the Sector's dependency upon other sectors.
    FSSCC's general meetings provide an example of this model. Here 
members meet and hear from critical sectors on which our sector heavily 
relies. They also provide a venue in which to coordinate and prioritize 
sector initiatives. Another example is the FSSCC working group which is 
working with the Department of Homeland Security (DHS) to develop an 
emergency credential for FSSCC members' use in extraordinary 
emergencies. Development of such a credential is a priority reflected 
in our overall research plan. Just this last summer, the FSSCC 
credentialing working group participated in the cross-sector exercise 
known as ``Summer Breeze.'' This exercise validated the use of First 
Responder Authentication Credential (FRAC) identification cards.
    Arguably, the most important example of collaboration within the 
sector is the ongoing effort to plan for pandemic influenza. On October 
12, 2007, FSSCC and FBIIC completed the most comprehensive exercise 
ever held for the U.S. financial services sector. This important 
exercise focused on the response of the sector's members to pandemic 
influenza; over 2,700 financial firms participated. FSSCC understands 
that effective business continuity planning must envision and prepare 
for a diverse range of issues and threats. This is encompassed in our 
mission statement and goals.

    FSSCC's Mission and Goals
    FSSCC's mission is to foster and facilitate the coordination of 
sector-wide voluntary activities and initiatives designed to bolster 
critical infrastructure protection and homeland security. FSSCC strives 
to improve sector awareness of critical infrastructure protection 
issues, to promote information sharing on these issues, and to find 
opportunities for improved coordination throughout the sector. Through 
its efforts, FSSCC seeks to enhance public trust and confidence in the 
sector's ability to withstand and recover from significant disasters.
    Treasury, in close collaboration with FSSCC and FBIIC, completed 
the Banking and Finance Sector's Sector Specific Plan (SSP) \6\ in 
December 2006. This plan, combined with the 16 other critical 
infrastructure SSPs, helps form the overall National Infrastructure 
Protection Plan (NIPP). Our sector's SSP outlines a strategy for 
working collaboratively with public and private sector partners to 
identify, prioritize and coordinate the protection of critical 
infrastructure. FSSCC believes DHS appropriately guides each critical 
infrastructure sector in coordinating their SSPs. However, each sector 
specific agency should retain control over SSP implementation. Also, 
DHS and each sector should view the SSPs as a starting point for 
developing a comprehensive, nationally-oriented, critical 
infrastructure regime.
---------------------------------------------------------------------------
    \6\ https://www.fsscc.org/reports/2006/Bank_Finance_SSP_061213.pdf
---------------------------------------------------------------------------
    The Banking and Finance Sector's SSP, including its Research and 
Development (R&D) appendices, outlines three sector-specific goals. 
First, the sector seeks to maintain its strong position of resilience, 
risk management and redundant systems, in the face of a myriad of 
intentional, unintentional, man-made and natural threats. Second, the 
sector aims to address and manage the risks posed by the sector's 
dependency on telecommunications, information technology, energy and 
transportation sectors. Lastly, the sector plans to continue to work 
with the law enforcement community, the private sector, and our 
international counterparts to increase available resources used to 
track and arrest criminals. Specifically, to track and arrest those 
persons responsible for crimes against the sector, including cyber 
attacks and other electronic crimes.
    The remainder of my testimony will focus on FSSCC's efforts in 
addressing these goals in light of protecting against cyber attacks and 
other electronic crimes.

    Specific Actions for Cybersecurity
    Modern financial services are built on a foundation of information 
technology, including computing hardware, software and 
telecommunications. This foundation is afflicted by multiple 
vulnerabilities and an increasingly high level of threats. Our sector's 
cybersecurity strategy seeks to address these threats by generally 
focusing on people, process and technology. Ensuring our sector has the 
brightest minds, most efficient processes and state-of-the-art 
technology to protect against cyber threats is our highest priority 
because our sector understands our entities' systems and networks are a 
target because ``that's where the money is.'' \7\ In addition, as 
September 11, 2001, showed us, our sector is a focus of terrorists 
because of our iconic status.\8\
---------------------------------------------------------------------------
    \7\ The members of FBIIC expend considerable effort to ensure the 
information security platforms serving as our industry's cornerstone 
are not compromised. In the case of financial institutions, federal 
examiners are often permanently located within the entity being 
reviewed. The Federal Financial Institutions Examination Council 
(FFIEC) is the primary federal interagency body empowered to develop 
uniform principles and standards for the examination of financial 
institutions. The FFIEC operates an Information Technology Council 
devoted to addressing cybersecurity issues, and its recommendations are 
incorporated into the FFIEC Handbook. Examiners use the Handbook to 
determine the extent to which the institution has identified its 
financial and non-financial risks, such as Internet and information 
technology vulnerabilities. Also, it is used to evaluate the adequacy 
of controls and applicable risk management practices at the 
institution. Additionally, the federal financial regulatory authorities 
issue numerous guidance documents and Financial Institution Letters 
(FILs) specifically related to cybersecurity. Similarly, the Securities 
and Exchange Commission and the securities SROs review the 
cybersecurity programs of exchanges, broker-dealers and clearing 
organizations as part of their ongoing supervisory exams and related 
activities.
    \8\ For many years, the culture of our sector has emphasized strong 
internal controls, physical and cybersecurity, and a comprehensive 
approach to business continuity planning that recognizes the importance 
of recovering and resuming business operations as swiftly as possible. 
Business continuity planning in our sector follows an ``all hazards'' 
approach that focuses on the impact of a disruption, rather than its 
cause, to ensure that high impact but low probability events are 
incorporated into the planning process. After September 11, the Fed, 
Office of the Comptroller of the Currency, and SEC issued the 
Interagency Paper on Sound Practices to Strengthen the Resilience of 
the U.S. Financial System (Sound Practices Paper), Securities Exchange 
Act Release No. 47638 (April 7, 2003). This paper identified stringent 
resumption or recovery objectives for core clearing and settlement 
organizations providing services for critical financial markets or 
acting as large payment system operators, and for firms that play 
significant roles in one or more critical financial markets. The Sound 
Practices Paper sets out an objective of recovering or resuming 
clearing and settlement activities within the business day on which a 
disruption occurs and maintaining geographically dispersed resources 
sufficient to meet those recovery or resumption activities. Last year, 
the agencies that issued the Sound Practices Paper reported to Congress 
that ``the core clearing and settlement organizations, which present 
the greatest potential risk to the operation of the financial system, 
have made significant investments in their operating infrastructures, 
and all have achieved substantial implementation of the sound 
practices.'' Joint Report on Efforts of the Private Sector to Implement 
the Interagency Paper on Sound Practices to Strengthen the resilience 
of the US. Financial System (April 2006).
    GAO has also examined the preparedness of these organizations in 
the light of the Sound Practices paper, and has found continuing 
progress in protecting our nation's financial system from a variety of 
threats, including cyber attacks. See Financial Market Preparedness: 
Significant Progress Has Been Made, But Pandemic Planning and Other 
Challenges Remain GAO-07-399 (March 2007); Financial Market 
Organizations Have Taken Steps to Protect Against Electronic Attacks, 
But Could Take Additional Actions GAO-05-679R (June 2005): Financial 
Market Preparedness: Improvements Made, But More Action Needed to 
Prepare for Wide-Scale Disasters GAO-04-984 (September 2004).
---------------------------------------------------------------------------
    Our sector faces a number of cyber-related threats such as, 
hacking, virus dissemination, software piracy, identity theft, account 
fraud, phishing,\9\ spoofing,\10\ and pump and dump \11\ schemes. 
FSSCC's members have responded to these challenges aggressively. For 
example, FSSCC member organizations have prepared a document to help 
financial institutions develop and execute response programs when 
confidential and sensitive information is accessed or misused by 
unauthorized individuals. The Identity Theft Assistance Center, 
developed by a FSSCC member, provides a free victim assistance service 
and provides data about identity theft to law enforcement.
---------------------------------------------------------------------------
    \9\ ``Phishing'' is a fraudulent scheme where an e-mail directs its 
recipients to Web sites where they are asked to provide confidential 
personal or financial information. Reports of phishing attacks have 
risen dramatically in the last year.
    \10\ ``Spoofing'' is an attempt to gain unauthorized system access 
by mimicking, impersonating or posing as an authorized user.
    \11\ ``Pump and Dump'' is a fraudulent scheme involving 
artificially inflating the price of a stock or other security through 
false or exaggerated promotion. Then the stock or security is sold at 
inflated prices.
---------------------------------------------------------------------------
    The financial services sector has always placed itself on the 
cutting edge of cybersecurity initiatives. Our institutions were among 
the first to have Chief Information Security Officers as part of their 
management teams. Also, the sector was among the first to use various 
authentication tools to protect against internet fraud. Similarly, many 
financial institutions embrace the concept of layered security by using 
multiple intrusion detection and prevention products. Firms regularly 
work with technology companies to improve these products. Without such 
security measures in place, customers would hesitate to use on-line 
products which are a central component of a financial firm's business 
model. In addition to the threat to individual customers, our sector is 
also focused on cyber-related threats to our financial structure. The 
nature and complexity of attacks are growing more sophisticated. As a 
result, our sector works in close collaboration with the nation's 
intelligence community to address this concern.

    FSSCC R&D Committee
    Prior to the NIPP's issuance in June 2006, FSSCC recognized 
cybersecurity as a critical issue and formed a standing R&D Committee. 
This committee was established to identify and prioritize areas of 
need, in which the most promising opportunities exist for research and 
development initiatives. These initiatives significantly improve the 
sector's critical infrastructure protection. The R&D Committee began 
developing a list of priorities in 2005. In April 2006, the committee 
published Research Challenges,\12\ a document which identifies eight 
R&D areas the sector needs to address.\13\
---------------------------------------------------------------------------
    \12\https://www.fsscc.org/reports/2006/
Research_Challenges_Booklet061117.pdf
    \13\ The eight R&D projects are: (1) Secure Financial Transaction 
Protocol (SFTP); (2) Resilient Financial Transaction System (RFTS); (3) 
Enrollment and Identity Credential Management; (4) Suggested Practices 
and Standards; (5) Understanding and Avoiding the Insider Threat; (6) 
Financial Information Tracing and Policy Enforcement; (7) Testing; and 
(8) Standards for Measuring ROI of CIP and Security Technology.
---------------------------------------------------------------------------
    An over-arching theme throughout our Research Challenges is 
securing the sector's information technology infrastructure to prevent 
intrusion from unauthorized sources. In October 2006, the FSSCC R&D 
committee, with Treasury advising, demonstrated for DHS how FSSCC's 
Research Challenges related to the NIPP by publishing FSSCC's Research 
Agenda. Together these two publications provide industry, academia, and 
the public with a shared insight into the opportunities and 
requirements necessary to produce a robust cybersecurity platform.

FS-ISAC
    The FS-ISAC is another vital asset to FSSCC and the sector. It was 
created on October 1, 1999, as a means of meeting the sector's 
information-sharing obligation under the 1998 Presidential Decision 
Directive 63 on Critical Infrastructure Protection.\14\
---------------------------------------------------------------------------
    \14\ http://www.cybercrime.gov/white_pr.htm
---------------------------------------------------------------------------
    The FS-ISAC channels information from more than 100 sources to 
reach over 11,000 sector participants daily and promotes information 
sharing between the public and private sectors. The FS-ISAC provides 
sector-wide knowledge about cyber and physical security risks faced by 
the financial services sector. Specifically, FS-ISAC's incident alerts 
notify members about the type of attack, its origin, and suggested 
remedial action. FS-ISAC information allows members to immediately 
receive threat and vulnerability information; share vulnerabilities 
anonymously and communicate within a secure portal; access new data 
feeds of threat and vulnerability information; and access a wide range 
of user data from which users can produce their own reports and 
metrics. The FS-ISAC also uses this information to work with Treasury 
and law enforcement in helping to stop and prevent attacks.
    Two important government information sources for the FS-ISAC's 24/7 
Security Operations Center are DHS's Homeland Security Information 
Network (HSIN) and the U.S.-Computer Emergency Readiness Team (US-
CERT). Relevant information from these data sources is monitored by the 
FS-ISAC and shared with trusted sector representatives through FS-
ISAC's notification system and web portal. Then reports from FS-ISAC 
approved members are uploaded through the system. Both sources provide 
a valuable service to the FS-ISAC. FSSCC and the FS-ISAC continue to 
work with DHS to coordinate these reports into the sector's information 
sharing structure.
    The FS-ISAC has been an effective tool in the fight against cyber 
attacks. For example, in November 2006, an FS-ISAC member detected an 
unusually large number of unauthorized log-in attempts against its 
systems and anonymously reported this information to the FS-ISAC. Soon 
after, the FS-ISAC issued an alert to its members. Later, five more 
financial institutions reported similar activity. This information 
sharing proved the financial institutions were under attack from a 
single source. While the attack was relatively insignificant in terms 
of its potential sector-wide impact, it demonstrates how the FS-ISAC's 
collaborative model can be an effective means to quickly deliver real-
time information so financial institutions may be alerted to act 
against real threats.
    The FS-ISAC was effective once again this past August when it 
alerted several member banks of suspicious web-site activity. The FS-
ISAC then helped to avoid compromise of several major money center and 
regional banking institutions user accounts.\15\
---------------------------------------------------------------------------
    \15\ FS-ISAC discovered use of Torpig Trojans, which use malicious 
code designed to place themselves into on-line banking applications for 
the purpose of stealing user login IDs and passwords. These Trojans 
evade detection by disabling security warning messages. Then they log 
open window sessions to capture user log-on information which is sent 
back to the attacker. After discovering use of the malicious code on 
several members' web sites, FS-ISAC was able to issue an incident alert 
that led to the discovery and eradication of this Trojan on web sites 
both in the U.S. and overseas.

    Cyber Syllabus
    In May 2006, the U.S. Department of Defense sought a private sector 
partner to help develop an undergraduate studies curriculum designed to 
provide exposure to information technology cybersecurity issues. FSSCC, 
through its R&D Committee, took the initiative to partner with the 
National Terrorism Preparedness Institute at St. Petersburg College in 
Florida to complete the project. I am pleased to report the syllabus 
was completed in May 2007, resulting in an on-line training program 
that can be made available to all universities. Additionally, FSSCC is 
working to identify an educational institution capable of making this 
program available to our members at no cost. It is our hope this type 
of public-private collaboration will help to inspire a new generation 
of ideas and resources devoted to protecting our nation's cyber space.

    Handbook of Science and Technology for Homeland Security
    Another joint DHS/FSSCC initiative currently underway is the 
drafting of a handbook designed to educate researchers on the critical 
needs of the homeland security and intelligence communities. It will 
also promote interdisciplinary dialogue in those fields. I am pleased 
to report FSSCC is on target to provide this information to DHS by 
year's end. Also, this handbook should be distributed worldwide in 
online and print formats next year.

    Cybersecurity Exercises
    FSSCC and FS-ISAC have been active participants in several business 
continuity exercises, including the congressionally mandated TOPOFF 
exercises and a number of regional and national cybersecurity 
exercises. In February 2006, FS-ISAC represented our sector in Cyber 
Storm, the first government-led, full scale cybersecurity exercise of 
its kind. Ten months later, in December 2006, FS-ISAC participated in 
Cyber Tempest, an exercise devoted to testing a wide area of cyber 
issues from a regional perspective. Both of these exercises provided 
positive benefits to our sector's business continuity planning, such as 
developing better integration between FSSCC and the FS-ISAC. FSISAC is 
now involved in planning Cyber Storm II scheduled for March 2008. These 
opportunities are a vital resource to leverage. We believe exercise 
leaders would benefit by increasing our level of involvement in future 
exercises.

    PCIS Working Group
    FSSCC has been an active participant in PCIS, which was formally 
recognized in the NIPP as the Private Sector Cross-Sector Council. PCIS 
is dedicated to coordinating cross-sector initiatives aimed at 
promoting public and private efforts to improve the security and safety 
of our nation's critical infrastructure. PCIS has established a working 
group focused on cross-sector collaboration of cybersecurity issues. 
Each Sector Coordinating Council must appoint a sector representative 
to participate on the working group. The FSSCC has selected FS-ISAC 
Chairman, Eric Guerrino, for this task. The PCIS working group is 
another example of how the financial services sector is following a 
collaborative model to develop a strong cybersecurity network.

    Future Challenges
    FSSCC has achieved a great deal over the past few years. However, 
there are still many issues which must be addressed regarding 
cybersecurity. Some of these issues have been highlighted in a recent 
Government Accountability Office (GAO) report entitled Critical 
Infrastructure Protection: Sector-Specific Plans' Coverage of Key 
Cybersecurity Elements Varies. Another less apparent, but equally 
important, issue includes increasing the level of consultation between 
DHS and its SSCs and SSAs over research and development initiatives. I 
will take a few moments to highlight each issue.

    GAO Report
    The GAO recently conducted a review of each SSP to determine if key 
aspects of cybersecurity related to the NIPP had been adequately 
covered. The GAO's preliminary results have found none of the plans 
fully addressed all 30 cybersecurity related criteria. Consequently, 
the GAO recommends that DHS require all SSPs be amended to address all 
cyber-related criteria by September 2008. Based on the cyber-related 
criteria established by GAO for its report, the GAO concluded the 
Banking and Finance Sector's SSP ``somewhat comprehensively'' covers 
cybersecurity. We respectfully disagree with the GAO's analysis. 
Because the GAO did not consult the SSAs or Sector Specific Councils 
when conducting its review, I would like to take this opportunity to 
explain our view on several areas the report concluded our SSP did not 
address.
    Under section seven of the report, GAO stated our sector's SSP 
failed to (1) describe a process to solicit information on ongoing 
cyber R&D initiatives and (2) identifies existing cyber-related 
projects that support goals and identifies gaps. The sector's SSP 
highlights the R&D committee as the primary mechanism to solicit 
information on R&D initiatives, and the R&D Committee's Research 
Challenges outlines in detail the sector's goals and gaps related to 
cybersecurity. Further, our sector's priority on R&D is evidenced by 
the establishment of the FSSCC R&D Committee in 2005 and publication of 
its Research Challenges in April 2006, well before the NIPP was issued 
last year. FSSCC believes the SSP and the Research Challenges document, 
which was incorporated into the SSP in an appendix, adequately 
addresses the GAO's criteria. We welcome a dialogue with the GAO on 
this issue.
    Additionally, GAO's review stated, under section five, that our 
sector failed to identify programs to deter, respond, and recover from 
cyber attack. The Banking and Finance Sector SSP used a deter, respond 
and recover approach throughout all sections. Our testimony today 
highlights a number of initiatives mentioned in our SSP aimed at this 
very issue--the R&D Committee, FS-ISAC, Cyber Syllabus, Cyber Threat 
Exercises, and PCIS. Consequently, without further guidance from GAO it 
is unclear how they reached a conclusion that our sector completely 
failed to address this issue.
    The GAO report, under section eight, also stated our SSP failed to 
describe a process for investment priorities. Although FSSCC does not 
have any budget authority, we believe our R&D Committee's Research 
Challenges and Research Agenda highlight a number of priorities where 
investment dollars are most needed for our sector.
    FSSCC, FBIIC and Treasury worked in close collaboration to develop 
our SSP, which we believe memorializes past and current initiatives 
into a living document serving as a guide for future action. In other 
words, we agree with DHS's assessment that the SSPs ``represent only 
the early efforts by the sectors to develop their respective plans.'' 
Consequently, we welcome all comments and dialogue from interested 
parties on how to improve our nation's critical infrastructure 
protection regime and believe that our sector is a model for less 
regulated sectors with less mature cybersecurity plans.

    SSC/SSA R&D Budget
    FSSCC believes DHS should consult with the SSCs, and, at the very 
least, their SSAs, on business continuity research projects to ensure 
optimal resource allocation is taking place. FSSCC would like to 
encourage the Subcommittees and Congress as a whole to work with DHS to 
ensure the same collaborative model used in our sector to generate 
business continuity information and reports extends to actual resource 
allocation for critical infrastructure programs. Failure to consult 
with experts from the organizations representing each sector severely 
limits the ability to maximize returns from investment dollars in an 
efficient manner.
    Over the past few years, FSSCC and its members have devoted 
significant resources to generating information, developing plans, and 
identifying issues related to cybersecurity and opportunities for 
research for the public sector. While much information has been 
collected, FSSCC fears this information risks being lost in a ``black 
hole.'' To avoid this result, FSSCC seeks to work with its public and 
private partners to develop a formal program that would channel 
resources to areas and programs that would provide the most positive 
impact for our nation's critical infrastructure. FSSCC thinks that it 
makes good economic sense to channel available sector and public 
research resources to programs supporting the Research Challenges and 
Research Agenda developed by industry experts on FSSCC's R&D Committee. 
To achieve this goal, greater communication and consultation about 
opportunities for R&D spending is necessary between DHS, Treasury and 
FSSCC. Another option would be to provide grant authority to SSAs such 
as the Treasury Department.
    Currently, FSSCC is limited to influencing R&D project funding 
through support letters. Recently, FSSCC R&D Committee members visited 
Carnegie Mellon University (CMU) with a Treasury official to introduce 
CMU officials to the FSSCC R&D Agenda. While at CMU, the FSSCC R&D 
Committee reviewed CMU research projects that CMU judged to be of 
interest to the financial community. Committee members found that CMU 
projects focused on Operational Resiliency, Keystroke Pattern Analysis, 
Device-Enabled Authentication, and Insider Threat Analysis specifically 
addressed major FSSCC research challenges, as well as the corresponding 
NIPP research agenda themes. FSSCC could not fund these research 
projects but wrote letters of support to encourage funding from other 
sources.
    FSSCC believes the DHS cybersecurity R&D budget should be more 
closely aligned with the threat posed. Twelve million dollars 
appropriated for this purpose is insufficient to cover the R&D demands 
within DHS and throughout the critical infrastructure sectors. Our 
nation would be better served by providing additional budget discretion 
and dollars to those most closely aligned with the work to be 
performed.

    Conclusion
    The financial services sector has a long history of thoughtfully 
and carefully preparing for threats to its critical infrastructure and 
employees. The members of FSSCC are proud of our progress since our 
inception in staying abreast of new and unexpected threats to the 
critical infrastructure of the financial services sector.
    The financial services sector is working diligently to refine best 
practices, business continuity plans, and homeland security efforts to 
better protect employees and financial assets from cyber attacks. We 
are grateful for the collaboration and coordination with our public 
sector partners, the Department of the Treasury and the other members 
of FBIIC, as we develop these plans. We will continue to work 
diligently, and I am confident that the financial sector's preparation 
for cyber attacks will meet the high standards of planning for which 
our industry is well respected.
    Thank you again for the opportunity to provide FSSCC's views for 
this important hearing. I would be pleased to answer any questions.

    Mr. Langevin. I want to thank the witnesses for their 
testimony. And I remind each member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for 5 minutes for the purpose of 
questions.
    Mr. Hender, thank you for your testimony. You discussed the 
R&D piece of your sector plan and your information sharing and 
analysis center. What I didn't hear, though, is how your sector 
protects its assets and what efforts are under way in that 
respect.
    Would you address that?
    Mr. Hender. Certainly.
    As I indicated in my testimony, our ISAC on a daily basis, 
a daily basis, receives well over 100 sources of independent 
information which it analyzes, and then passes on that analysis 
every day before the markets open.
    Mr. Langevin. That is information sharing. What about--what 
steps do you take? What concrete steps are you taking?
    Mr. Hender. Well, part of the information that is fed to 
the 11,000 participants is, in fact, potential cyber attacks. 
They then take that information and use that information to 
look at their systems to see whether they have vulnerabilities.
    Also, attacks take place and they are able to pass on to 
the other participants the attacks that are ongoing and how 
those attacks can be mitigated. We also use that information to 
pass on to the other government agencies to make sure that 
those attacks are taken seriously and the government agencies 
can use their best efforts to stop them.
    Mr. Langevin. I think, clearly, what would be helpful to 
this subcommittee, for better understanding of the situation, 
is more concrete steps--instead of action plans, steps that 
they actually take as opposed to just being notified and 
sharing information.
    What steps are then taken to make sure that the attacks are 
not successful and then security mechanisms are actually put 
into place? I would have felt more comfortable--you spoke about 
intrusion detection devices and other beefing up, fire walls 
and things of that nature.
    Mr. Hender. Clearly, the members of FSSCC spend billions 
and billions of dollars building just those things that you 
have mentioned to prevent the attacks.
    As we all know, these attacks are becoming more 
sophisticated every day, and the things that they have in 
place, which maybe were adequate a year ago or 6 months ago, we 
now know are not. So they are continuously spending money to 
make sure that those fire walls and other protection devices 
are in place to stop an attack.
    When those protection things fail, it is very important to 
get that information out so it does not spread.
    Mr. Langevin. Secretary Garcia, let me turn to you on 
another topic. The White House has announced a few weeks ago a 
new initiative called the Cyber Initiative. It has been said 
that the Cyber Initiative will be a multi-year, multi-billion-
dollar operation which will help protect government and private 
communication networks from cyber attacks. I have also heard 
that the DNI will be coordinating this effort with over 2,000 
people from DHS, NSA and other Federal agencies.
    It is extremely disconcerting, however, that everything 
that I have heard about this new initiative has come from 
newspaper articles, despite repeated requests for a briefing 
from DHS. Why won't the Department brief this committee on the 
Cyber Initiative?
    Mr. Garcia. Mr. Chairman, thank you very much.
    First of all, we take very seriously our commitment to 
inform and engage the Congress on matters as important as 
cybersecurity. And along those lines, we are glad that we have 
had the opportunity to brief members of the committee on more 
than one occasion on the classified threats that we are facing 
as a Nation, and particularly as a Federal Government.
    So the question becomes, then, what do we actually do about 
it? And this is--in fact, many of the issues that I have 
testified to you about we have a number of programs under way 
in DHS under my Office of Cybersecurity and Communications that 
are addressing this day after day. And one of the highest 
priorities that I stated at the outset of my tenure at the 
Department was to protect Federal networks, which are 
constantly under attack, cyber attack, on a day-to-day basis. 
So that has been well-stated as one of my highest priorities.
    In terms of making that a comprehensive, holistic 
Government program that involves all members of the Federal 
Government on an interagency basis, it is a complex plan in 
process. And we would want to be sure that we have an accurate 
assessment of the way forward before we brief the Congress on 
this. The last thing we want to do is give you an incomplete or 
fragmented strategy.
    Mr. Langevin. Well, Secretary Garcia, you know, I just 
remind you that this is supposed to be a collaborative effort, 
and both the administration working with the Congress. And when 
you are talking about the Cyber Initiative, something this 
massive, involving this many people, with the direct 
involvement potentially of the NSA, along with billions of 
dollars that are going to be spent, the lack of being 
forthcoming and engaging in a full disclosure with the 
Congress, particularly with this committee, subcommittee, it is 
very upsetting, it is disconcerting, and I am not happy. I am 
not satisfied with that answer.
    Now, according to an article in the Baltimore Sun, the 
Cyber Initiative calls for NSA to work with DHS and other 
Federal agencies to monitor critical infrastructure networks to 
prevent unauthorized intrusions. One presumes this would mean 
the monitoring of both Federal and privately owned critical 
infrastructure networks.
    If this is true, what impact will this have, this 
initiative have, on the cybersecurity elements of the sector-
specific plans? And beyond that, what impact will this have on 
the public-private partnership that DHS has been developing?
    Mr. Garcia. Sir, certainly I wouldn't want to comment on an 
article that is speculative before we really finalize our 
plans. But we certainly look forward to briefing the committee 
at the appropriate time when we have finalized our plans.
    But let me tell you that everything that we have been doing 
over the past year and a half or 2 years has been focused on 
this public-private partnership, and that needs to continue. My 
emphasis, absent the public-private partnership, is in 
strengthening our Federal networks. And that really is one of 
the highest priorities. And that is what we are focusing on 
here for the purposes of this hearing. The NIPP and the sector-
specific plan process is one that we are committed to, year 
after year, as we involve the private sector in our efforts.
    Mr. Langevin. Mr. Secretary, I certainly look forward to 
getting that briefing on the Cyber Initiative at the earliest 
possible opportunity.
    With that, the Chair now recognizes the ranking member of 
the subcommittee, Mr. McCaul, for 5 minutes.
    Mr. McCaul. I thank the Chair.
    And I would also like to raise the issue--we have had 
several hearings on cybersecurity. And, Secretary Garcia, you 
have participated in many of those.
    And it is my assumption that this plan that DHS is working 
on with the administration, you are in the process of 
developing that plan at this point in time? Is that correct?
    Mr. Garcia. That is correct, sir. It is an interagency 
process.
    Mr. McCaul. Right. When do you anticipate that the plan 
will be fully developed so that you will be in a position to 
brief Members of Congress?
    Mr. Garcia. Sir, I wouldn't want to commit to a time at 
this point. We are still in the planning stages.
    Mr. McCaul. Okay. Certainly, if it hasn't been finalized, I 
can see why it is an ongoing process at this point. But I would 
ask, as well as to echo the Chairman's remarks, that, to the 
extent when you are ready to share and coordinate with us on 
that, we certainly would like to know what the plan is.
    In addition, the commission that was formed as of yesterday 
I am sure will be very interested in working with you on that, 
as well.
    Mr. Garcia. Sir, let me just say I appreciate and commend 
you and Chairman Langevin for the appointment of that 
commission. I think this really shows proactive thinking about 
an ongoing attention that needs to be paid to cybersecurity and 
what is working, where are the gaps, what do we need to be 
doing, going forward.
    Mr. McCaul. And I thank you for saying that. I think as the 
Chairman mentioned yesterday, we see it as a forward-looking 
vehicle, not a ``gotcha'' exercise. It is a policy exercise, 
looking forward, what can we do to better protect our systems. 
And I think you will find it should be a very friendly, not 
hostile, relationship with the Department of Homeland Security 
and the administration.
    Having said that, I think as you mentioned, Secretary, the 
12 of 17, as I look at the report card, is actually some good 
news, that we have plans that are satisfactory. There are a few 
that are not.
    And, Mr. Powner, I want to ask you about some of those, 
specifically the financial sector, which has some concern. If 
the financial networks were hacked into and the numbers were 
moved on the ledger, you can imagine the economic chaos that 
would cause. And we know that, whether they are criminal 
enterprises wanting to steal or whether it would be terrorists 
that would like to cause economic devastation in this country, 
you can imagine the consequences. So this particular sector is 
of some concern.
    Mr. Hender has raised the issue that your review is not as 
thorough as it should have been on the financial sector, and I 
want to get your response on that. He specifically said you did 
not consult with Treasury on your analysis. Can you comment on 
that?
    Mr. Powner. Yes, a couple comments.
    First of all, I would like to start by saying, do we think, 
based on our years of work looking at cyber critical 
infrastructure, that the banking and finance sector is one of 
the mature sectors? We do. Okay.
    When we did our analysis, we were surprised, okay. The way 
we go about our analysis, I have a team that has actually 
looked at this for many years, and we had multiple folks where 
they independently came up with the same assessment. Okay. So 
we stand by our assessment. I think Secretary Garcia mentioned 
that our assessment overall was consistent with his assessment. 
So I think there is a disagreement not with just GAO but 
perhaps with the DHS.
    Now, going forward, I am more than willing to sit down with 
Mr. Hender. We have talked about this, and we will talk about 
the differences here. I think the larger question here is 
this--not to go over checkmarks in this category or this 
category when you look at 30--is, what is the value of the 
plans? Okay. Some mature sectors--and it wasn't the banking and 
finance sector, but in other work we have done, the water 
sector, for instance, has mentioned, we are beyond the planning 
phase; these plans are not that helpful for us. And my only 
question is whether that is similar with the banking and 
finance sector.
    Mr. McCaul. Are you questioning the necessity for the plans 
or the----
    Mr. Powner. Well, I think as you heard from the two 
witnesses here, there is a lot going on, on an individual 
company basis. And when you look at the whole sector approach, 
we have been trying to do this well prior to the, you know, 9/
11, the Homeland Security Act. This goes back to a Presidential 
directive in 1998. Okay.
    So we are almost 10 years into this, and many would argue 
that we haven't made much progress. We are still in the 
planning and assessing phase, and we ought to be into the 
protecting and putting in place robust recovery plans.
    So I am not saying that the plans necessarily aren't 
useful, because they could be useful. It is a question of 
whether we complete them and effectively implement them going 
forward.
    Mr. McCaul. Just to follow up to that, what more needs to 
be done to the financial sector to put it in the passing 
category? I am of the view that mandates and regulatory actions 
should be a last resort, that we should allow the private 
sector to work with the public to work this out. What more, in 
your opinion, needs to be done?
    Mr. Powner. Well, in order to get their plan more 
comprehensive, I think there are probably only six or seven 
criteria that they could easily bump their plan up and they 
would be one of the most comprehensive. So it is matter of just 
making the plan complete at this point. And do we have 
confidence that will occur? Yes.
    And we are more than willing to sit down with Mr. Hender, 
too, to make sure we didn't miss anything. But, once again, we 
stand by our analysis.
    Mr. McCaul. Last question. My time has expired, but I would 
like to ask Mr. Hender, how vulnerable, in your opinion, is the 
financial sector to a cyber attack?
    Mr. Hender. Well, I would never sit here and tell you that 
a cyber attack could not happen against our sector, but I don't 
want to leave the impression with this committee that we are 
still in the planning phase in terms of cyber.
    I think if the GAO had looked at our full plan and the 
appendices that were attached to that plan, and if they would 
have understood that we are way beyond the planning stage--we 
are a highly regulated industry. And back in 2006, there was an 
analysis done by the Federal Reserve, the Office of the 
Comptroller of the Currency, and the SEC to see what progress 
our sector had made not only in physical but also in cyber. And 
I will tell you, I would like to submit for the record the 
results of their findings, because I think you will find, if 
you read that report, we are way beyond the planning stage. We 
have done an enormous amount of work to protect this sector, so 
that if it is a cyber attack or a physical attack, we are in as 
good of shape as we think we can be. That is not to say you 
can't be better, but we work at it every single day to try and 
get better.
    Mr. McCaul. And what is the name of the report you 
mentioned again?
    Mr. Hender. The name of the report is the ``Joint Report on 
Efforts of the Private Sector to Implement the Interagency 
Paper on Sound Practices to Strengthen the Resilience of the 
U.S. Financial System,'' and is dated April 2006.
    Mr. McCaul. Mr. Chairman, I would respectfully request that 
report be entered into the record.
    Mr. McCaul. I see my time has expired. Thank you.
    Mr. Langevin. The Chair now recognizes the gentleman from 
New Jersey, Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Did I hear you right, Mr. Hender, that the 
GAO did not take into account the appendix of the report?
    Mr. Hender. That is my impression. I don't know that for a 
fact. Because if you look at the appendix, it really answers 
the questions where they found fault with our sector.
    Mr. Pascrell. Mr. Powner, did you take into account the 
appendix?
    Mr. Powner. I would have to go back and revisit the full 
plan. A lot of these plans are quite comprehensive. Was there 
an appendix, or the one that Mr. Hender was referring to? I 
would have to look at that.
    Mr. Pascrell. When you are looking at the chart, you are 
looking at the chart that you presented to us, the five areas 
that need, really, some improvement and are still perhaps in 
the planning stage, as you go back before 9/11, this process 
started, correct, Mr. Powner?
    Mr. Powner. That is correct.
    Mr. Pascrell. We are talking about banking and finance, 
defense industrial base, national monuments, agriculture, food 
and commercial facilities are the worst. Aren't they?
    Mr. Powner. Correct.
    Mr. Pascrell. Why is agriculture and food the worst, one of 
the worst? Specifically?
    Mr. Powner. Specifically? I could go through in detail, you 
know, those areas.
    Mr. Pascrell. I read your testimony.
    Mr. Powner. Right.
    Mr. Pascrell. But you know that off the top of your head. 
What stands out? Is there any one thing that stands out?
    Mr. Powner. I would have to get back to you on that. I 
mean, we have details here in an appendix for each of the 30 
criteria that we looked at, but clearly when you look at that, 
with as many categories that were not fully satisfied, there 
are eight overall categories, you know, do you have----
    Mr. Pascrell. Right.
    Mr. Powner. --do you have a methodology to assess your 
assets? Do you have a methodology to perform your risk 
assessments? There be would be weaknesses in all those. Are 
there appropriate methodologies for recovery plans?
    Mr. Pascrell. Might not the biggest problem be here, to go 
back to something stated earlier, that we do not have a 
national risk assessment? What is the relationship between 
that, Mr. Powner, and the results which you have come up with, 
in your estimation?
    Mr. Powner. A national cyber risk assessment?
    Mr. Pascrell. Right.
    Mr. Powner. Well, one of the things that is clear is we 
have never had a national cyber threat assessment. Okay. So we 
have not had that.
    Mr. Pascrell. Ten years into the plan, and we don't have a 
risk assessment.
    Mr. Powner. Correct.
    Mr. Pascrell. All right.
    Let me ask Mr. Hender this question. Nothing changes under 
the sun. How are you verifying what companies are doing with 
the information you provide? How do you know what they are 
doing with it?
    You are not just sending information, you are not just 
sending out an advisory. This is serious business, as you well 
know better than I do. So what are you doing with the 
information? What are the companies doing with the information 
you give them?
    Mr. Hender. Well, I have talked to the companies. And 
depending upon the threat level, the company either has a 
problem or doesn't have a problem.
    Mr. Pascrell. Do we have a list of what is done? Do we have 
a report to present to this committee as to what these 
companies are doing with the information that is provided?
    Mr. Hender. I think if you look at the report that I 
referred to earlier----
    Mr. Pascrell. Right.
    Mr. Hender. ----that report is very comprehensive. And it 
also deals with the companies that make up the sector. And I 
think the agencies that regulate them--I mean, we are highly 
regulated. These regulatory agencies----
    Mr. Pascrell. You are highly regulated about--what things 
are you talking about?
    Mr. Hender. We are highly regulated by a number of things, 
but cyber is one of the things that we are regulated by.
    Mr. Pascrell. And how are you regulated?
    Mr. Hender. We are regulated by examination. And, in fact, 
in some of the large companies, the regulators sit right in the 
offices to make sure that the things that you are worried about 
don't happen.
    Mr. Pascrell. So you think the assessment that was made by 
GAO is just a result of them not reading all the information 
that should be available and is available to them? If they read 
that information, they are going to change their assessment, 
they are going to change the report. They are going to send 
back a report to this committee and say, ``Oh, we missed three 
or four different things, and we really want to change the 
banking and financial assessment to comprehensive. We don't 
think they are somewhat comprehensive; they are 
comprehensive.''
    Is that what you want us to believe?
    Mr. Hender. I truly believe that. And I think our sector 
coordinating agency, the United States Treasury, truly believes 
that. I believe that we are one of the most mature sectors that 
are out there. We take this very seriously.
    Mr. Pascrell. No one is saying that you are not taking it 
seriously. You have been on this for 10 years.
    Mr. Hender. And we--
    Mr. Pascrell. Excuse me. You have been on this for 10 
years, and I am not convinced, in what I have read and what I 
have heard today--I am asking you to convince me. You haven't 
so far; you might. I am asking you to convince me that there 
have been tangible actions on your part, not you personally, 
but in that sector, that would indicate that we have come a 
long way. I don't feel that. What am I missing?
    Mr. Hender. Maybe I am just not a good communicator.
    Mr. Pascrell. No, I don't think that is the case at all. 
You have to have something to communicate.
    Mr. Hender. I think the amount of money that the firms have 
spent since 9/11 in making our sector more robust and able to 
deal not only with the physical threats but the cyber threats 
are very, very impressive. As I said, they take this very 
seriously. Our regulators take it very seriously.
    And I think that I would be surprised if the GAO, when we 
have our conversation and point to them the real efforts--not 
plans, but the real things that we have in place to protect 
this sector--would not change their opinion. I would be very 
surprised.
    Mr. Pascrell. Well, in conclusion, Mr. Chairman, we are 10 
years into this, with this particular sector, and there is a 
very serious statement that Mr. Hender has made, that we 
respectfully disagree with the GAO's analysis.
    Those are your words, Mr. Hender. And I respect those 
words. Don't get me wrong. I am more inclined, at this point--
not you personally--I am more inclined to believe GAO, because 
they have a different part of this. They are involved in a very 
different part of this than you may be or I may be.
    And I would hope that you will prove to them that they are 
wrong and so that this committee will get the report back, and 
maybe I will change my mind, or maybe some of the other 
committee members who feel like I do will change their mind.
    But going back to what Mr. Powner said, we need a national 
risk assessment plan. And we cannot be honest with the American 
people about how safe they are unless we have that plan.
    And that plan is overdue, is it not, Mr. Powner?
    Mr. Powner. Yes, it is.
    Mr. Pascrell. Thank you, Mr. Chairman. I appreciate your 
giving me those courtesies.
    Mr. Langevin. I appreciate the gentleman's line of 
questioning. His point is well-taken, and the Chair certainly 
agrees.
    With that, the Chair now recognizes the gentleman from 
California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Let me ask both Mr. Hickey and Mr. Hender this. It seems to 
me that the nature of your industries are such that the cyber 
world is an essential part of it, an obvious, central part of 
it. It is part of what you do. It is part of what you are. It 
is part of how you provide your services. As opposed to some 
other sectors where cyber is important, extremely important, 
but it is not so transparent to the user that if you were to 
charge them for protecting the cyber aspect of their business 
the user would say, ``Well, I understand that,'' in your 
industry it seems to me to be far more obvious.
    So I would ask you this, in both cases. How do your 
respective industries view cyber protection as a part of the 
cost of doing business, such that your members can justify to 
your shareholders the bottom line? Because I happen to think 
that that is one of the most important things we are going to 
have to do in the private arena. And it would seem to me it 
would be more obvious in both of your cases to begin with. So I 
would say these may be the easy cases.
    But can you give me an idea of how the companies that make 
up your organizations view that as part of cost of doing 
business and, therefore, part of the cost of being active 
competitors?
    Mr. Hickey. I think when you take a look at today's 
marketplace, our customers--which are enterprise customers, 
Government customers, and consumers--are demanding that 
companies like Verizon put in place safeguards to protect their 
business and their livelihoods within our organization. So the 
market is demanding that companies like Verizon invest, and 
invest very heavily, in technologies that will safeguard not 
just our physical assets and certainly our human assets but, 
very importantly, our cybersecurity assets.
    Mr. Lungren. Let me ask you this, then. You can look at a 
whole array of potential attacks. They could be hackers. They 
could be mischievous college students. They could be the bad 
guys who want to be able to get into your company and therefore 
extract some economic benefit on their part or to harm you so 
that someone else is benefitted. Those, it seems to me, are, in 
terms of possibilities, greater than a terrorist attack, which 
has greater consequence but the likelihood is far less.
    How do you calculate that such that you make a judgment to 
either insulate your operation from a cyber attack by a 
terrorist organization, transnational or national, or to create 
redundancies in the event that they are successful with an 
attack?
    Mr. Hickey. I think if we continue to focus on the blocking 
and tackling of cybersecurity practice, given the environment, 
given the fact that we are looking at an all-hazards 
environment, that we will continue to invest as necessary in 
the technology and the expertise to help secure the interests 
of our customers.
    Verizon in 2006 invested over $17 billion in infrastructure 
build-out. And we are doing that certainly with an eye to our 
customer and our future customer base. And vendors that do 
business with Verizon know very clearly what our priorities 
are, in terms of the technologies that we require to make our 
network more secure going forward.
    So, again, going back to the marketplace, we are mindful of 
our customers' needs; our vendors are mindful of our needs as a 
major carrier. And companies like Verizon continue to invest 
very aggressively to make sure that we are addressing all 
hazards within the cybersecurity realm.
    Mr. Lungren. I would say parenthetically, if Verizon were 
one of those companies that we asked to assist us after 9/11 on 
our efforts on foreign intelligence that we are now refusing to 
give immunity, it is kind of tough for us to tell you to trust 
us as we go forward. Hopefully, we will address that.
    Let me ask both of you--and I know I asked both questions 
to you as well, Mr. Hender, but I am limited in time. Do you 
have, in the private sector, among the companies that would 
receive information that would be of value to them from the 
Government, do you have or do those companies have their people 
that have the proper clearances that they could receive that 
information? And is it at the CIO level? And if a CIO has that 
information, has that clearance, how does the CIO interact with 
the CEO if the CEO doesn't have that clearance? And what have 
we done in terms of recommendations, if any, in your sectors to 
deal with that?
    Mr. Hender. I think our sector--Specific agency, Treasury, 
has been very responsive in getting the right people in our 
sector the necessary clearances that we need and, in addition 
to that, giving us access to the people in the Federal 
Government who are charged with collecting the intelligence 
information and passing that information on to us.
    You ask a very important question, though. And that is, 
what can the person who has the clearance do with that 
information? Clearly, if there is a life-threatening event that 
is going on that is classified, that person has an exemption 
and can pass that information on to anyone to make sure that 
those lives are not lost. Also, that person, with the 
permission of the agency, can work and make sure that the 
appropriate people within that company or within that entity 
know what is going on to protect that entity.
    It has never really been a challenge, to date, where 
something has come to our attention that has been classified 
where we have not been able to use that information to protect 
the sector.
    Mr. Lungren. Mr. Hickey, you feel the same way?
    Mr. Hickey. Our sector-specific agency is the National 
Communications System. And just as Mr. Hender said, the NCS has 
been very attentive to the needs of not just my company but 
others, in making sure we have the right clearances for the 
right individuals.
    I can say that, from a Verizon standpoint, our CEO, Ivan 
Seidenberg, has just received his top-secret clearance. So, 
right to the top within our organization. If we, at the ground 
level, if my team becomes aware of information shared within 
the NCS or, you know, within the HITRAC organization, within 
the IP division, we can share that at the very highest levels 
of the business with the appropriate individuals to make the 
right decisions, from a response standpoint.
    Mr. Lungren. Thank you.
    Mr. Langevin. I thank the ranking member.
    The Chair now recognizes the Chairwoman of the Subcommittee 
on Transportation Security and Infrastructure Protection for 5 
minutes.
    Ms. Jackson Lee. Thank you very much.
    And I thank the witnesses.
    And I am having trouble with double appointments and 
hearings that we have responsibility for, but I am delighted 
that the testimony has contributed to, I think, a very 
important discussion.
    I am going to start on this debate that is going on with 
the initial offering to work with the private sector. Again, 
the private sector holds 85 percent of the infrastructure. And, 
certainly, cybersecurity being a seamless part of that, there 
is a dialogue going on about the question of the voluntary 
cooperation, which I made mention of in my opening remarks, or 
a regulatory framework.
    So I would like to ask Mr. Hender, based upon your 
experience--let me pose the question first to Mr. Powner, and 
then, Mr. Hender, you might want to comment.
    But based upon your experience in critical infrastructure 
work, protection work, do you think the Department of Homeland 
Security should continue to work with the private sector, or 
providing the private sector with an adequate value proposition 
to encourage it to effectively protect critical infrastructure?
    In essence, are we giving them enough of a carrot to do it 
voluntarily, or should there be some form of a regulatory 
framework in this partnership?
    Mr. Powner?
    Mr. Powner. I think when you look at what was envisioned in 
national policy going back pre-HSPD-7, one of the things that 
the Federal Government needs to do a better job--and Assistant 
Secretary Garcia and I have talked about this--if there were 
more products, analytical products coming out of the US-CERT, 
more information on national threat information that was of 
value to the critical infrastructure owners, I think that would 
improve the partnership. Okay.
    So in order to have an effective partnership, you have to 
be offering something that these sectors want. Okay. 
Historically, when you look at where it has really worked, I 
think there were times when we provided grants to the water 
sector to do vulnerability assessments. That opened up the 
communications, okay, because the Government was paying for 
certain vulnerability assessments, so they were more inclined 
to open the discussion.
    I think there are pockets of sectors, due to the maturity 
of them working in regulated environments, that are more mature 
and have worked more effectively together, like the banking and 
finance sector.
    So I think regulation should be considered if we don't make 
more progress. But there is also--if you stay the course with 
the NIPP and the sector plans, the Federal Government needs to 
offer more and provide more of a service to the infrastructure 
owners.
    Ms. Jackson Lee. And that is service in what form?
    Mr. Powner. The service--the things that the Government 
controls more, when you look at the roles and responsibilities 
of the NCSD under Assistant Secretary Garcia, is threat 
information and it is analytical products on vulnerabilities 
and incidents. Okay.
    We have a US-CERT that we continue to attempt to build out 
capability with the vision that we are going to have more 
robust analytical products that we can provide to these 
infrastructure owners. As an example, if you go to DOD or some 
parts of the intelligence community, you will see some fairly 
robust analysis and warning capability, when it comes to cyber. 
Okay?
    So there are pockets in the Federal Government where we 
have this. All right? What we need to do is we need to build 
that out and transfer that information to the infrastructure 
owners. That would help with the partnership.
    Ms. Jackson Lee. And the pockets in the Federal Government 
are just scattered, or there is some order to them?
    Mr. Powner. I think there is order, but it depends on where 
it is at. If you look at DOD and some of their capabilities in 
this area, some of it is fairly robust.
    Ms. Jackson Lee. We need to harness it. We need to get some 
sort of organized way of connecting.
    Mr. Powner. Absolutely. If you look at HSPD-7 and if you go 
back to analysis and warning pre-DHS, we had this capability, 
and we were building it within the FBI. There was something 
there called the National Infrastructure Protection Center. 
With the creation of DHS, we moved it from the FBI and it now 
became the US-CERT.
    So, clearly, we have had some starts and stops. We have 
progressed forward; we have taken some steps backward. But if 
we really want to build out that capability, that is one way to 
build a more effective partnership, if you offer more on the 
Government side that was of value to these sector owners.
    Ms. Jackson Lee. Let me, Mr. Hender----
    Mr. Hender. It is very clear that, unless there is a 
partnership between the private sector and the public sector, 
the things that we have discussed today are never going to be 
solved. I think a good example and a model is to look at the 
partnership that we have with Treasury. It is so critical to 
have information that flows both ways.
    And if I could make a recommendation, I would think it 
would work very well and be very important to take people from 
the private sectors, just not our sector but all the sectors, 
and house them in some form or fashion within CERT or some 
other intelligence organizations, so, as this information comes 
in, it can be analyzed, not only by the Government, but you 
have the private sector sitting there and saying, ``This is 
important information. This is a threat. This is what this 
means, this information.'' Unless you have that partnership and 
unless you have those people sitting there working together, a 
lot of information that maybe flows into these intelligence 
organizations, I think we are missing a golden opportunity. And 
I think we are missing it.
    Ms. Jackson Lee. We are missing it.
    Mr. Garcia--Mr. Chairman, if I can, I just have a couple of 
quick questions, probably not quick on the answers.
    Secretary Garcia, let me thank you for your service. This 
is a tough business that we are in. And I think there are some 
tough concerns that we have as members.
    You know that I expressed my concern about the national 
annual report regarding the status of critical infrastructure 
protection nationally and within each of the sectors. The 
report is due on November 5th. And my question is, is it ready? 
Is it something that we can expect? And you might want to 
acknowledge whether this is still the case, that we will have a 
full report.
    And I have another question for you that I would like to 
just offer so that you can answer it. The incident at the Idaho 
laboratory provided you with an opportunity to showcase how 
effectively you can reach out to the private sector with best 
practices. My concern, though, is how you verify the 
implementation of these advisories. And I think this was 
mentioned by one of the witnesses.
    How do we have a two-way street? How are you measuring such 
implementation? And into what obstacles are you running, so 
that the private sector can become vested in what you do?
    Mr. Garcia. Absolutely. Thank you, Madam Chairwoman.
    On the first point, I believe we are on track for 
delivering that report to you.
    And on the second issue, you are correct that one of the 
most important things for us to achieve over time is the 
ability to measure progress. Where DHS is not empowered to 
compel reporting back from the private sector on the extent to 
which they have implemented best practices or other----
    Ms. Jackson Lee. DHS is not compelled to report back to the 
private sector?
    Mr. Garcia. No, to the extent that DHS cannot compel the 
private sector to report back to DHS.
    Ms. Jackson Lee. To report back. So there is a lack of 
either oversight or regulatory structure.
    Mr. Garcia. Right. And for those sector coordinating 
councils that we have worked with, for example, they, in turn, 
are not necessarily empowered to demand from their member 
companies that they report back to them. So, much of this is, 
in fact, voluntary.
    I would point out, I think the fact that, through this 
whole NIPP process and the sector-specific plan process, the 
fact that there are 17 critical sectors that have come to the 
table with DHS and other sector-specific agencies without 
actually being compelled to do so is, I think, in fact, a 
testament to the importance that the entire private sector, 
sector-specific agencies give to this issue of the joint 
public-private partnership.
    Ms. Jackson Lee. Quickly, Mr. Hickey, has the DHS given 
enough incentives to the business community to do what Mr. 
Garcia says is missing, which is to come back and report back 
on best practices? Apparently, there is a schism there, in 
terms of being able to do this in a voluntary manner.
    Mr. Hickey. I would respond to that by saying that there 
are a great number of forums that companies like Verizon 
participate in, from the National Security Telecom Advisory 
Committee to the President, where you have 30 companies coming 
together from a full array of sector participants, that come 
together regularly to develop plans and policy and 
recommendations to the President on global infrastructure 
resiliency, on network security, on GPS issues, on a full array 
of issues where we feel an obligation to bring our subject-
matter expertise to the table to work with Government and 
support Government initiatives.
    The NSIE, the National Security Information Exchange, where 
Government and industry come together, again, it is 
voluntarily, but willingly, to share best practice around 
cybersecurity and other security practice.
    My sense is that companies like Verizon are there because 
we feel an obligation to Government and to the country to 
participate not only in planning but in operationalizing 
security practice to protect the country's best interests. So 
we are there willingly.
    I think, from an incentive standpoint, the issue of real-
time sharing of threat intelligence is very important. And that 
is helpful for companies like Verizon, to have a good, accurate 
source of timely information regarding threats, cybersecurity 
and otherwise, that we can then internalize and deal with from 
an operational standpoint.
    Within Assistant Secretary Garcia's organization, he has 
made, I think, a positive move toward bringing together, even 
more closely, the information-technology sector and the 
communications sector by collocating our NCC ISAC, our National 
Coordinating Center for Telecommunications ISAC, with the IT 
ISAC and with the US-CERT. That brings us closer together, 
physically, day in and day out. We can address, as things 
evolve, operational issues much more quickly on a day-to-day 
basis.
    So threat intelligence would be a major incentive, but I 
think there is a real willingness there to assist our 
Government partners. And we are, I think, continuing to move in 
the right direction.
    Ms. Jackson Lee. Thank you. I think we have a lot of work 
that we can look at that you have done that we need to do. 
Thank you.
    Mr. Langevin. I thank the gentlelady.
    There is a vote on right now, but we will go to Ms. Clarke 
for the final question before we dismiss this panel. Ms. Clarke 
is recognized for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chair.
    This question is to Mr. Powner.
    You just suggested to Chair Jackson Lee that the Federal 
Government could assist these sectors to ensure greater 
consistency through partnership, if you will. Clearly, there is 
a lack of consistency in the quality of the various sector-
specific plans.
    Do you feel that DHS is doing enough to work with each 
respective set of public-private stakeholders to ensure greater 
consistency? And have your offices recommended or determined a 
good way for them to do this?
    Mr. Powner. Well, clearly, Assistant Secretary Garcia had 
mentioned his office and the interaction they had with various 
sectors in putting those plans together.
    I think what is important is, when you look at this next 
annual report that is due out, the annual report should be 
providing some assurance, Madam Chairwoman, that you mentioned, 
that, one, the plans are now complete and, two, that we are 
actually moving down the road toward implementation.
    Ms. Clarke. Mr. Garcia, Assistant Secretary Garcia, good to 
see you again.
    In response to Representative Pascrell's questioning, Mr. 
Powner said that there needs to be a national risk assessment 
for cybersecurity. Five months ago, the Department stood up the 
Risk Management and Analysis Division. Have you engaged with 
that office to date?
    Mr. Garcia. That is part of the National Protection and 
Programs Directorate, to which my office belongs as well. CS&C 
is part of that, as well as the Risk Management Analysis 
Office. So, yes, we interact regularly.
    The national risk assessment that we are focusing on is, in 
fact, the National Infrastructure Protection Plan, the sector-
specific plans that go with it. And I think, as we implement 
these plans, as Mr. Powner says, we are going to have a 
national risk assessment with metrics in place that we can 
measure how well we are doing.
    I would emphasize that it is important to note that this is 
the first time we have done this, that 17 sectors, industry 
sectors, have organized themselves around a common mission, and 
then to organize themselves to interact with the Government in 
a collaborative process, a framework by which we are going to 
measure the vulnerability, assess the vulnerability of our 
infrastructure nationwide, and then take the steps to actually 
mitigate those vulnerabilities and strengthen our 
infrastructure.
    So I think we have come a long way in just a year-and-a-
half worth of time. And the fact that most of these sector-
specific plans were written around the middle of last year, 
there has been a tremendous amount of effort and resources put 
into infrastructure protection since then in the cyber area.
    Ms. Clarke. Assistant Secretary, I recognize that, you 
know, this is a major, major undertaking, and some would say 
just putting together the Department of Homeland Security has 
been a major, major undertaking.
    The concern is that there be some sort of a driving force 
that puts some, you know, some energy behind getting this done 
in a timely fashion, and that we are not sort of leaving it up 
to inertia to get us there.
    You know, with each passing day, people are concerned that 
we have, you know, the critical infrastructure, particularly 
with respect to cybersecurity, in place. Because it seems like 
there is a generation of intelligentsia out there that just 
lives to get ahead of us, with respect to cyberspace.
    So I hope that you will certainly recognize the urgency 
from which you hear this committee speaking, because we 
certainly believe time is of the essence but, at the same time, 
understand that haste can make waste. So we hope you will take 
that under advisement.
    And this question is--really, my final question is to 
anyone on the panel. Although there are many differences 
between each sector represented in the NIPP and there is merit 
to the idea that each area tailor its own plan, when it comes 
to cybersecurity, many of these sectors deal with some of the 
same problems. For example, organizations of every sector have 
to deal with the possibility of data theft or that systems can 
be brought down. Therefore, if planners in one sector figure 
out a useful solution that can apply to other sectors, it would 
be useful if this information were disseminated.
    Is there any information-sharing occurring between the 
coordinating councils for each sector? And is this a role that 
DHS plays or could play?
    Mr. Garcia. Absolutely, Congresswoman. Thanks very much for 
that question.
    We, last May, set up--my office set up the Cross-Sector 
Cybersecurity Working Group. And it is composed now of experts 
in cybersecurity from all of the 17 sectors. And we meet at 
least monthly and, I think, more frequently on conference call. 
And this is the forum precisely for those various sectors to 
share their experiences in cybersecurity and see where there 
are dependencies on one another in their cyber infrastructure 
and interdependencies, and see where are there are common 
problems across all of them.
    Control systems, a subject that this committee held a 
hearing on on October 17th, is a prime example, where there is 
a nexus between cybersecurity and physical security. That the 
process control systems that enable us to purify water, 
manufacture chemicals, to run the electric grid, all of these 
digital control systems have a nexus to information networks or 
communications networks.
    And so, the fact that these sector representatives are 
coming together on a regular basis to share those concerns, 
identify common vulnerabilities, this is taking us a long way 
down the track of doing that national risk assessment that we 
are heading toward.
    And I think this is a perfect example of how the sector-
specific plans, the NIPP process, is working.
    Ms. Clarke. You want to say anything?
    Mr. Hickey. I would just like to comment that the 
Communications Sector Coordinating Council and the IT Sector 
Coordinating Council work very closely together, day in and day 
out. We have cross-membership. We work together in a number of 
forums. Actually, the chair of the IT Sector Council is in 
today's audience. So there is a very close relationship.
    As was pointed out earlier by one of your colleagues, it is 
hard to distinguish where pure providers end and information 
service providers start. Companies like Verizon and other 
companies, large and small, are aware of the fact that, with 
convergence of technologies, cybersecurity has to remain a real 
focus. And I can assure you that, both within the IT sector and 
com sector, we work very, very closely together.
    Mr. Hender. I would just like to comment that we just 
finished a 3-week pandemic exercise. Part of the component of 
that exercise was cyber, because if the Internet is not there, 
then the work-at-home programs that the firms have put together 
are going to be useless.
    It is our intention to make those findings public in 2008, 
early in 2008, not only to our sector, but to all the sectors 
in this country and to the international countries that are 
interested in learning the experiences we had during this 
pandemic exercise.
    Ms. Clarke. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Langevin. I thank the gentlelady.
    And I thank the witnesses for their testimony.
    There is one last thing I am going to pose. Unfortunately, 
we don't have time for the answer since there is a vote on 
right now. We have about 2 minutes.
    But, you know, when we talk about the risk assessment--
Secretary Garcia, I would ask you to respond to this in 
writing. And, Mr. Powner, if you would comment.
    You know, a risk assessment is composed of threat and 
vulnerability and consequence. You know, how will the national 
report be a risk assessment, when it is lacking these critical 
issues?
    So I pose that to you. And we will have some other 
questions that we would like you to respond to in writing.
    Again, I thank the witnesses for their valuable testimony, 
the members for their questions.
    The members of the subcommittee, as I mentioned, may have 
additional questions for the witnesses, and we ask that you 
respond expeditiously in writing to those questions.
    At this time, the first panel of witnesses is dismissed.
    And the Chair now recesses for what will be one vote, and 
we will reconvene in approximately 15 minutes.
    Thank you.
    [Recess.]
    Mr. Langevin. The committee will come to order. As we call 
up the second panel of witnesses, I want to thank the panel for 
your patience and willingness to stick around. We do appreciate 
it, and I know you have valuable testimony to offer. 
Unfortunately, Mr. O'Hanlon was not able to stick around. He 
was going to be on this panel as the lead-off. Mr. O'Hanlon 
specializes in U.S. national security policy and is the co-
author of a book called Protecting the Homeland 2006, 2007, and 
he would have been discussing one of his articles in that book. 
But he has submitted a statement for the record, and we will 
certainly forward look forward to reviewing that and hearing 
from Mr. O'Hanlon on a later date. In the meantime, of course, 
we are very grateful for the rest of our panel being here.
     Our first witness will be Ms. Sally Katzen, faculty member 
of the George Mason School of Law and a senior consultant to 
the Critical Infrastructure Protection Program at George Mason 
University. We thank you, Ms. Katzen, for being here.
    Our next witness is Mr. Larry Clinton, president of the 
Internet Security Alliance. We are grateful for you being here 
as well, Mr. Clinton.
    And our next witness, the last witness is Dr. Larry Gordon, 
Ernst & Young Alumni Professor Managerial Accounting 
Information Assurance at the Robert H. Smith School of Business 
at the University of Maryland. Dr. Gordon is also an affiliate 
professor with the University of Maryland Institute for 
Advanced Computer Studies.
    Mr. Langevin. Again, we want to thank you for being here. 
Without objection, the witnesses' full statements will be 
inserted into the record. And I now ask each of the witnesses 
to summarize their statement for 5 minutes, beginning with Ms. 
Katzen.
    And before I turn the floor over to, Ms. Katzen, I 
understand that it is your anniversary today. Let me take the 
prerogative as Chair to wish you a happy anniversary, and thank 
you for spending your anniversary with us today.
    Ms. Katzen. My husband thanks you as well. Thank you.
    Mr. Langevin. I don't know if that was sincere or not. He 
may question it as well. Thank you.

 STATEMENT OF SALLY KATZEN, GEORGE MASON SCHOOL OF LAW, SENIOR 
 CONSULTANT TO THE CRITICAL INFRASTRUCTURE PROTECTION PROGRAM, 
                    GEORGE MASON UNIVERSITY

    Ms. Katzen. Chairman Langevin, Chairman Jackson Lee, 
Ranking Members McCaul and Lungren, other distinguished members 
of the subcommittee. My background and qualifications and the 
credentials of the George Mason Law School CIPP program are set 
forth in the written testimony. Given the lateness of the hour, 
I want to condense my oral comments to the bare essentials.
    First point. You have heard it before, but it cannot be 
overemphasized. One of the problems that we have had with cyber 
CIPP is that for too long and in too many places, both in the 
private sector and in government, the task of identifying and 
addressing cyber CIPP risks has been confined to those in the 
enterprise that own, operate, maintain the computers, the 
servers, the networks. In other words, the IT department. But 
viewing cybersecurity as an IT problem with an IT solution 
greatly understates the problem and misperceives the solution.
    As we explain in the written testimony, even the best 
technical defenses are no better than the physical security and 
personnel security elements that must accompany them. And not 
only are these elements typically outside the direction and 
control of the IT department, but also they like the IT 
department typically fall on the operations side of the 
enterprise which generally is not well represented at the 
highest levels of corporate accountability and governance.
    Based on the extensive work that the CIPP program at GMU 
has done, we are impressed with what is called the ERM, the 
Enterprise Risk Management program. The emphasis in ERM is on 
the enterprise as a whole and raising cyber CIPP issues to the 
highest corporate level of accountability. And we have got a 
lot of discussion in our written testimony about how it works 
and what it does. I hope you like the cowboy graphic.
    Second point. Six years and billions of dollars since 9/11, 
how much progress have we made? Now, the headlines from the GAO 
study say 12 of the 17 SSPs have comprehensively addressed the 
30 cybersecurity criteria. We think that may be an overly rosy 
summary if you look at the individual cyber criteria, plan by 
plan and sector by sector.
    In the written testimony, we highlight section 6 of the GAO 
criteria, which speaks to the measures of progress. And in that 
connection, the representative from GAO in the earlier panel 
said, well, we are passed the plans. We are now into 
implementation. Fine. In fact, good. But if you don't have 
quality metrics to establish benchmarks at the outset and over 
time, how to you measure this implementation? How do you 
evaluate the implementation? And we think the verification of 
that is also essential.
    To our mind, the problem is the dearth of data, the absence 
of valid information. And I have heard from some that the 
Paperwork Reduction Act is part of the problem. I think it is 
part of the solution. And this is something that we can get 
into another time, but I think it is really important to focus 
on getting good information.
    Third point. What should we do to improve the situation? We 
propose that the government provide incentives for the private 
sector to do the right thing. To be sure, companies already 
have lots of incentives in terms of smoother, more efficient 
operations and in terms of marketplace acceptance. There is the 
Ernst & Young study which shows the correlation between success 
in risk management and success on Wall Street. But, again, the 
GAO report, and again just looking at the plans, Section 3 
which says incentives--that is where the bottom fell out. Only 
three sectors have fully addressed incentivizing vulnerability 
assessments.
    We gave five different carrots for you all to chew on. 
Carrots are good for your diet. They are part of my diet, if I 
get dinner tonight. In any event, many of them are actually 
discussed in Mr. Clinton's testimony, and I am going to defer 
to him on virtually all of them but I want to make two 
comments.
    I do want to distance myself from his discussion of 
liability limitations, limitations on liabilities for 
companies. I disagree with that approach. And, also, the 
reinsurance program at DHS. I don't think it should be a 
government-sponsored reinsurance program. I think he hits the 
nail on the head when he talks about government leading by 
example and the importance of the government getting its act 
together.
    One of my responsibilities while I was in Federal service 
at OMB was the Y2K experience. Now, that is a very different 
order of magnitude from what we are talking about now. But if 
you think about the Y2K adventure as a mini pilot of how the 
government can face these problems and work within, we had no 
additional command and control authorities, we had no 
regulatory authorities. We were nonetheless able to work 
collegially with the groups. We were able, with the various 
sectors, to share best practices, to work through the problems 
that had to be done on a cooperative basis, and to use trusted 
established relationships that already exist between members of 
the private sector and their State or local regulators or their 
Federal regulators or their colleagues.
    And the problem, in answer to Chairman Jackson Lee's 
question, what do we do? How do we solve, how do we change this 
relationship? We do not recommend any additional commands and 
control authorities. We do not think you should go the 
regulatory route either with respect to making DHS the SSA for 
the other sectors or with respect to even the sectors that it 
has.
    But DHS should not be trying to do it alone. DHS should not 
be dictating to others to ``do it my way.'' Rather, as we 
experienced in Y2K, DHS should adroitly use its convening 
powers, take advantage for its opportunities for collaborative 
work together and collegially work through programs with their 
partners.
    In our written testimony, we give an even more recent 
example than Y2K. DOE has done this very successfully on a 
smaller scale.
    That is it. Smash the stove pipes, develop metrics, and 
gather quality data, and have the government help in a 
noncommand and control regulatory way.
    I look forward to any questions you may have. Thank you so 
much.
    Mr. Langevin. Thank you, Ms. Katzen, for your testimony. 
And we enjoyed hearing what you had to say.
    [The statement of Ms. Katzen follows:]

                Prepared Statement of Sally Katzen, Esq

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Langevin. The Chair now recognizes Mr. Clinton for 5 
minutes. Welcome.

   STATEMENT OF LARRY CLINTON, PRESIDENT, INTERNET SECURITY 
                            ALLIANCE

    Mr. Clinton. Thank you, Mr. Chairman, Mr. McCaul.
    The Internet Security Alliance believes the threat to our 
economy, our Nation, and our citizenry from cyber attacks is 
real and growing. We also believe that government and industry 
must work much more aggressively to address these threats. We 
are past the time for simple education. Now is the time for 
action.
    However, for industry and government to create a 
sustainable and effective cyber defense system, we need a 
fundamental rethinking about how we address these issues.
    First, the Internet is unlike anything we have ever dealt 
with before and, hence, securing it will require a solution 
unlike anything we have done before. In its June 2006 GAO 
report, they cited the number one challenge to developing a 
public-private sector partnership for cybersecurity was the 
innate characteristics of the Internet itself. The Internet is 
just different. It transmits phone calls but it is not a phone 
line. It makes copies but it is not a Xerox machine. It houses 
books but it is not a library. It broadcasts images but it is 
not a TV station. Is critical to our national defense but it is 
not a military installation.
    The Internet is international, interactive, constantly 
changing, constantly under attack. We cannot simply cut and 
paste old governing systems and realistically expect that we 
are going to be able to manage this new system effectively.
    Even if Congress were to enact an enlightened statute, it 
would reach only to our natural borders and hence would not be 
comprehensive enough. Even if some agency wrote a brilliant 
regulation, it would probably be out of date before it got 
through the entire process.
    Second. Information security, as Ms. Katzen has pointed 
out, is not a static and merely technical problem. The threats 
to the Net have recently morphed from the broad, benign, and 
well publicized attacks like Love Bug and Blaster, to Designer 
Now-ware that is constructed to target specific systems where 
it can reside undetected for a long time while causing 
significant economic and physical damage.
    As a result, traditional antivirus software and viral 
solutions are becoming inadequate. To adequately address the 
modern threats, we need an ever-evolving system that addresses 
all the vulnerabilities, technical and otherwise.
    Third, the threat to our infrastructure from cyber attack 
is very, very serious and growing.
    Two years ago, the Internet Security Alliance reported to 
this committee that the main protocols that the Internet is 
based on were over 30 years old and had multiple well-known 
security flaws. Since then, the massive growth in Internet use 
based on these same protocols has increased our vulnerability 
at a massive rate. Moreover, the Internet attacks are no longer 
based on publicity but now are designed to generate money or, 
more insidiously, power and destruction.
    Especially worrisome are cyber attacks that would hijack 
systems with false information in order to discredit systems 
and do lasting physical damage. At a corporate level, attacks 
on this kind have the potential to create liabilities and 
losses large enough to bankrupt large companies. At a national 
level, attacks directed at our critical infrastructure 
industries could cause hundreds of billions of dollars worth of 
damage and thousands of lives.
    But, fortunately, we know a good deal about how to protect 
ourselves. The best evidence of this is that the Internet has 
been under attack constantly thousands of times a day and has 
yet to go down. The largest study ever done of best practices 
found that organizations that follow the approved best 
practices for information security have shown a remarkable 
ability to fend off attacks, recover from attacks, and even 
deter attacks. The problem is, we need more entities to embrace 
these practices while also working with us to develop new ones.
    The best mechanism to effectively establish a sustainable 
defense system is to inject market incentives to motivate the 
adoption of best practices.
    Unlike some of the conversation at the first panel, markets 
do not emerge spontaneously. They must be created and managed. 
That is what we need to do with cybersecurity.
    In this regard, the Internet Security Alliance has come to 
the committee with a specific and concrete proposal. This 
proposal is detailed more fully in our written testimony, but 
it offers a market-based incentive program to bridge the gap 
between the purely voluntary program as outlined in the 
national strategy to secure cyber space, and a regulatory model 
which, A, won't work and, B, would probably be 
counterproductive.
    The core elements of the Cyber Safety Act would be for 
government to use its market power instead of its regulatory 
power to promote security primarily through the procurement 
practice. Congress can lead by example, as Ms. Katzen pointed 
out. Congress can tie incentives such as civil liabilities safe 
harbors such as those that are currently provided in the SAFETY 
Act. Congress can stimulate the stunted cyber insurance market, 
and I would be delighted to discuss the specifics with this 
further with the committee. And, Congress can create government 
industry consortiums similar to what we did with the Sema-Tech 
to solve our computer chip problem in the 1980s. And, 
government can create awards programs.
    There are other market-based programs such as the use of 
model contracts that we can use to expand the perimeter of 
cybersecurity. But I urge the committee to consider acting, but 
acting in a novel and creative fashion. The old system won't 
work. A new system must be created. Thank you.
    [The statement of Mr. Clinton follows:]

                  Prepared Statement of Larry Clinton

    Good Morning, I am Larry Clinton, President & CEO of the Internet 
Security Alliance (ISAlliance). I also am a member of the DHS's 
Communications Sector Coordinating Council, the Critical Infrastructure 
Partnership Advisory Council and serve as an Officer on the IT Sector 
Coordinating Council.
    ISAlliance is a cross-sector trade association focused exclusively 
on information security. We were created in 2001 as collaboration with 
the Carnegie Mellon University. We now have roughly 1,000 member 
companies. We provide our members with a range of services, including 
technical, business operational and public policy. ISAlliance provides 
its members with an integrated series of security services addressing 
the technical, legal, business and public policy concerns 
simultaneously.
    I want to thank the Chairman for inviting me to participate.
    ISAlliance continues to believe that the threat to our economy, our 
nation, and our citizenry from cyber attacks is real and growing.
    We also believe that government and industry must work much more 
aggressively to address these threats. We are past the time for simple 
education about the cyber threat. Now is the time for action.
    However, for industry and government to create a sustainable and 
effective system of cyber defense we need a fundamental re-thinking of 
how we go about addressing these issues.
    This rethinking must include at least three critical realizations.
    First, the Internet is a technology unlike anything we have dealt 
with before and hence will require a solution unlike what we have 
traditionally used to address technology and business.
    We need to change the way government, perhaps including Congress, 
thinks about and conceptualizes its role in assuring Internet security. 
In its June 2006 report, ``Internet Infrastructure: DHS Faces 
Challenges in Developing a Joint Public/Private Recovery Plan,'' the 
GAO got it right. It listed as the number one challenge we face the 
``innate characteristics of the Internet.''
    How then is the Internet different?
        <bullet> It transmits phone calls but it is not a phone line.
        <bullet> It makes copies but it is not a Xerox machine.
        <bullet> It houses books but it is not a library.
        <bullet> It broadcasts images but it is not a TV station.
        <bullet> It is critical to our national defense, but it is not 
        a military installation.
        <bullet> It is all these things and much, much more.
    The Internet is international, interactive, constantly changing, 
constantly under attack, then changes and changes again.
    It is not even really an ``It.'' It is actually lots of ``Its'' all 
knitted together--some public, some private--all transmitting 
information across corporate and national borders without stopping to 
pay tolls or check regional sensitivities.
    We can not simply ``cut and paste'' previous governance systems 
from old technologies or business models and realistically expect that 
we will be able to manage this system effectively.
    The regulatory model we have traditionally used to govern business 
has not changed much since we created it to deal with the breakthrough 
technology of 2 centuries ago--the railroad.
    To manage the railroad, Congress decided to create an expert 
agency, the ICC, to pass specific regulations. The ICC begat the rest 
of the alphabet soup: the FCC, the SEC, the FTC. And, that system has 
worked arguably well in most instances.
    But that system will not work with Internet security. Even if 
Congress were to enact an enlightened statute, it would not have reach 
beyond our national borders and hence would not be comprehensive 
enough. Even if some agency wrote a brilliant regulation, it would 
likely be out-dated before it got through the process, a process that 
can be further delayed with court challenges.
    And that assumes, unrealistically, that the political process 
inherent in a government regulation system doesn't ``dumb-down'' the 
eventual regulations so that we wind up with a campaign-finance-style 
standard where everyone can attest that they met the federal 
regulations, but everyone knows the system is really not working.
    That may work in politics, but, frankly, we can't afford that when 
it comes to Internet security.
    Regrettably not enough is being done, either by government or 
industry, to secure cyber space. We have attempted to manage the risk 
of 21st century technology solely using regulatory models designed two 
centuries ago. While regulation has its place, a new, more creative, 
model built on market incentives must be developed.
    Yet, we can't stand idly by either. We must, together, develop a 
mechanism to assure an effective and sustainable system of security 
that will accommodate the global breadth of the Internet and still 
result in a dynamic and constantly improving system of mutual security.
    Second, information security is not a static technical problem. 
Even within the past couple of years the threats have become not just 
more sophisticated, but more subtle.
    For example, we now know that threats to the net have morphed from 
broad and often relatively benign, if well publicized, attacks like 
Love Bug and Blaster, to designer malware constructed to target 
specific systems where it can reside undetected by traditional methods 
for an indeterminate period of time while causing serious damage.
    As a result, traditional AV software and firewall solutions are 
becoming inadequate. However, a new generation of security products has 
been, and continues to be, developed to address the continually 
evolving threats.
    To adequately address information security concerns we need to 
address the full organizational system which relies on information 
infrastructure.
    Our members now look to us to provide a comprehensive risk 
management approach that encompasses the full-system approach necessary 
to address the problem. An example is our Enterprise Integration 
Program which addresses discrete cyber security issues ranging from 
preventing and handling breaches of personal information to securing 
the IT supply chain in the era of globalization.
    We address these issues by looking at their technical, business 
operational, human resource, legal and public policy aspects 
simultaneously and developing an integrated solution. We would commend 
this fully integrated model to our government partners to consider.
    Third, the threat to this nation's and the world's economic 
infrastructure from the risk of cyber-attack is real.
    Two years ago ISA reported to this Committee that the main protocol 
used to protect this data is over 30 years old and has multiple well-
know security flaws.
    Since then the massive growth in Internet use based on these same 
protocols has increased the vulnerability of the Internet at a massive 
rate.
    In addition there are now far more attackers and they have become 
increasingly more sophisticated. Whereas only a few years ago 
``hackers'' created cutely named attacks like the ``love bug'' and 
``slammer'' largely to get attention, the current generation use 
stealth and designer malware that is difficult to detect and in some 
cases virtually impossible to eradicate.
    Even worse, the motivation for Internet attacks is no longer 
publicity, but money, and more insidiously power and destruction.
    Especially worrisome are the cyber-attacks that would hijack 
systems with false information in order to discredit the systems or do 
lasting physical damage. At a corporate level, attacks of this kind 
have the potential to create liabilities and losses large enough to 
bankrupt most companies. At a national level, attacks of this kind, 
directed at critical infrastructure industries, have the potential to 
cause hundreds of billions of dollars worth of damage and to cause 
thousands of deaths.
    Some of the attack scenarios that would produce the most 
devastating consequences are now being outlined on hacker websites and 
at hacker conventions. The overall patterns of cyber intrusion 
campaigns suggest that a number of potentially hostile groups and 
nation states are actively acquiring the capability to carry out such 
attacks. Meanwhile, the many ways in which criminal organizations could 
reap huge profits from highly destructive attacks are also now being 
widely discussed. Forth, there is some good news: We actually know a 
good deal about how to protect the Internet.
    The best evidence of this is that although the Internet is under 
attack constantly--thousands of times a day--it has yet to fail. The 
owners and operators of the Internet, primarily the major private 
sector players are doing a terrific job managing the defense.
    Major independent surveys, such as the PricewaterhouseCoopers 
``Global State of Information Security''--the largest study of its 
kind--have indicated that those entities that follow approved best 
practices of information security show a remarkable ability to fend off 
attacks, recover from attacks and even deter attacks.
    The problem is that as the Internet continues to grow we need more 
entities to embrace these practices and technologies while also working 
with us to develop new ones.
    The critical question is: how precisely can we create such a 
system, if the models we have used for previous technologies are 
inadequate?
    The best mechanism to assure an adequate and sustainable defense 
system is to inject market incentives to motivate the adoption of best 
practices.
    That has been the mantra of the Internet Security Alliance, and The 
National Infrastructure Protection Plan officially embraced the need 
for a government supported market based incentive program stating that 
the ``Government can. . .[create] an environment that supports 
incentives for companies to voluntarily adopt widely accepted sound 
security practices.''
    Fifth, there is a concrete proposal for moving forward.
    The ISAlliance has long campaigned for the development of a 
publicly supported market based incentive program to bridge the gap 
between a regulatory and pure volunteer approach.
    ISAlliance believes that the Federal government should advance 
homeland security preparedness through reliance on existing published 
standards and best practices, and defer to the private sector to 
continue to invest in and develop appropriate general and industry-
specific standards for improved security.
    Fortunately, there exist a number of paths, most with Congressional 
precedent, for Congressional action to provide incentives that are in 
the national interest. Among these paths are:
        1. Congress can use its market power, instead of its regulatory 
        power by more prominently including security, along with cost 
        into its procurement process.
        2. Congress can lead by example by fully funding federal agency 
        needs for cyber security and integrating security compliance 
        into personnel evaluations along with other HR criteria
        3. Congress can tie incentives such as civil liability safe 
        harbors such as those provided in the Safety Act, or provide 
        procurement credits to companies who can demonstrate compliance 
        with market generated best practices for cyber security;
        4. Congress can stimulate the stunted cyber insurance market by 
        temporarily sharing the risk of a massive cyber-hurricane until 
        the market is sufficiently large to take the risk themselves.
        5. The Congress can create an industry/government/university 
        consortium to stimulate the needed research, development and 
        adoption of security protocols, similar to the Sema-Tech model 
        used in the late 1980s to address the computer chip gap.
        6. The Government can create awards programs similar to the 
        ``Baldrige Awards'' for quality which eventually became a 
        sought after market differentiator for corporations.
    Earlier this year the Board of Directors of the Internet Security 
Alliance met and approved an outline for a legislative approach we 
offer for your considerations which we call the ``Cyber-Security Safety 
Act of 2007.'' I spend the balance of my statement further detailing 
our thoughts on how the Saftey Act can be used as a model for improved 
cyber security.
    We do not come to the Committee with legislative language which we 
are endorsing, but rather with a set of concrete policy proposals we 
urge the Congress to work with us on perfecting.
    We believe the ``Cyber Safety Act'' offers a coherent approach 
which will create specific Federal support for a package of incentives 
that will affirmatively encourage private sector investment in improved 
security and protection of the Internet. I would like to use the 
remainder of my testimony to outline he specific incentive 
recommendations and offer a brief analysis in their support:
        <bullet> Establish a mechanism which will enable companies that 
        adopt standards-based information security programs or best 
        practices to be qualified to receive the specified incentives 
        (``Qualified Companies'').
        The availability of incentives requires some type of baseline 
        as a criterion to be met for the incentives to be available. 
        The ISAlliance has long advocated that private sector standards 
        and best practices are already in place that can be adopted by 
        DHS as a basis for incentives.
        <bullet> Create, in connection with privacy reform legislation 
        (such as uniform breach notice laws), a Federal limitation of 
        liability for Qualifying Companies that would limit their 
        liability for breaches that occur, notwithstanding their use of 
        standards-based security and best practices.
    Information security is closely associated with privacy protection. 
Many companies otherwise eligible to be Qualified Companies have large 
volumes of personal information requiring protection under various 
Federal and state laws. Those companies will not be motivated to move 
forward with their cyber-security investments if they still are exposed 
to liability when breaches occur notwithstanding good security 
practices. As a final piece of the litigation-related incentives, this 
incentive eliminates the inhibitor of continued privacy-related 
liability for Qualifying Companies.
        <bullet> Establish Federal Acquisition Regulations (FARs) and 
        other legal frameworks through which private sector companies 
        do business with the United States government that:
                Require the agencies to specify published standards and 
                best practices as required elements for any contract 
                relating to information security, data protection or 
                similar services.
        <bullet> Qualified Companies should be able to acquire 
        additional cyber-security insurance to cover losses arising 
        from CINS-related catastrophic events, and limit their 
        liability to third-parties to the amount of that insurance. The 
        amount of the insurance acquired must be reasonable in order to 
        qualify for the limited liability.
    Many companies defer investments in improved security out of a 
concern that, even with improved security, they are not protected from 
liability for losses that occur despite the quality of their security 
controls. Businesses are encouraged to invest in becoming Qualified 
Companies when they are offered the protection that is provided by (a) 
assuring the availability of insurance to cover losses from CINS-
related catastrophic events and (b) limited their liability to the 
amount of insurance that has been obtained.
    The principles of limiting liability to encourage improved homeland 
security are similar to the structures used to incent new homeland 
security technologies under the SAFETY Act which was enacted as part of 
the Homeland Security Act of 2002.
        <bullet> To support the preceding insurance market, the Federal 
        government should create within DHS a national program for 
        temporary, short term reinsurance, through which insurers may 
        purchase reinsurance coverage for their exposure to CINS-
        related catastrophic losses under policies issued to Qualified 
        Companies.
    Insurance carriers have been reluctant to create a vigorous 
marketplace for cybersecurity insurance. The chief reason is that the 
insurance companies lack sufficient experience with cyber-terrorism to 
effectively evaluate the overall risks in order to determine effective 
premium levels, particularly for CINS-related catastrophes.
    The proposed establishment of a reinsurance program provides 
underwriting for the insurance companies. In the event losses are 
incurred by the purchasing insurance carrier is greater than their 
reinsurance deductible, the insurer would be entitled to coverage under 
the reinsurance agreement with the Federal program. The program 
administrator would have the right to increase future reinsurance 
premiums as deemed necessary to accomplish a revenue neutral goal. Over 
time, the program could be sunsetted as the insurance market gains 
experience with cyber-security coverage. This solution is similar to 
Federal legislation that enhances the airline transport industry.
        <bullet> Qualified Companies with appropriate insurance will 
        also have litigation-related incentives available, excluding 
        liability for consequential and punitive damages and limiting 
        their liability for non-economic losses.
                Similar to the incentive provided by a limitation on 
                losses to the available insurance, the limitation of 
                liability for consequential and punitive damages, and 
                limited liability for non-economic losses removes a 
                serious inhibitor to information security investments--
                i.e., the risk of losses for which responsibility is 
                assigned notwithstanding a company's good faith 
                investments in adequate information security. 
                Eliminating that inhibitor encourages a more secure 
                preparedness, company-by-company.
                On many occasions, the Federal government has employed 
                its influence as a major purchaser from the private 
                sector to encourage companies to develop and implement 
                improved business practices. Establishing criteria tied 
                to providing services to the government offers new 
                market opportunities to Qualified Companies and, in 
                doing so, provides strong economic incentives to 
                improving their cyber-security.
        <bullet> Establish a ``Baldrige Award'' for information 
        security quality and excellence, coordinated with specific 
        industry organizations to develop and create awareness of 
        information security as a competitive differentiator.
                The Malcolm Baldrige Award by the US Department of 
                Commerce has become a cherished recognition of 
                excellence in the marketplace. A similar program, 
                perhaps recognizing information security excellence 
                within industry sectors, will greatly increase 
                awareness of the value of information security and its 
                function as a competitive differentiator, thereby 
                encouraging new investments.
        <bullet> Create and fund an industry/government/university 
        consortium to stimulate the needed research, development and 
        adoption of security protocols that can, in turn, stimulate 
        improved technologies for adoption across the private sector 
        and government computer systems.
    In the late 1980's, the Federal government provided matching 
funding to create an industry-government cooperative consortium that 
collaborated in accelerating solutions to common manufacturing problems 
in semi-conductor production (SEMATECH). This successful model 
revitalized the U.S. semiconductor industry and continues to generate 
industry leadership and innovation long after Federal funding was 
voluntarily terminated by the consortium.
    A similar program today will enable government, academia and 
industry to work together to replace today's security poor Internet 
protocols with security-rich protocols. Those protocols can enhance the 
quality and integrity of the hardware devices, switches and other 
components from which the Internet is constructed.

    Mr. Langevin. Thank you, Mr. Clinton.
    Mr. Langevin. And the Chair now recognizes Dr. Gordon to 
summarize your statement for 5 minutes. Welcome, Dr. Gordon.

  STATEMENT OF LARRY GORDON, ERNST & YOUNG, ALUMNI PROFESSOR, 
 MANAGERIAL ACCOUNTING INFORMATION ASSURANCE, ROBERT H. SMITH 
                      SCHOOL OF BUSINESS,

    Mr. Gordon. Chairman Langevin, Chairwoman Jackson Lee. 
Thank you very much for inviting me here. My comments are going 
to focus on how to improve cybersecurity investments within the 
private sector. I am going to concentrate on four points which 
are all detailed in my testimony that I wrote up and submitted 
already.
    But before I talk about these four points, let me just 
mention two things. One is that in the private sector, 
efficient allocation of resources is fundamental, and the 
reason that is fundamental is because that leads to profits, 
and profits leads to increasing the value of the firm. And 
increasing the value of the firm is a key concern to all senior 
executives in the private sector.
    The second point I want to make is that investments in 
cyber computer compete with other investments. And I think that 
is also fundamental to keep in mind.
    With that said, let me go to my four points. The first 
point I want to make is that the best, the strongest incentive 
by far is to have the private sector recognize that it is in 
their best interests in terms of increasing the value of the 
firm to increase investments in cybersecurity.
    There is a well-established process among business people 
for looking at efficient allocation of resources. That often is 
a concept that falls under the umbrella of what we sometimes 
call making the business case. Making the business case is the 
notion of using a well-established metric cost benefit 
analysis. There are various models of cost benefit analysis. 
And actually looking at alternative investments, rank ordering 
them, and then allocating their resources.
    So my first point is that in order to get business people 
to invest more in cybersecurity, what you want them to do is to 
recognize the importance of efficient allocation of resources 
toward cybersecurity investments. In other words, it is an 
internal incentive. It is a business incentive.
    Now, one of the problems in this regard is that the people 
who are often arguing for cybersecurity investments, the CIOs, 
the chief security officers, their training is primarily in 
technology what you might call computer security. And many of 
them, at least traditionally, have not been well versed in the 
notion of how to make the business case. So let me give you a 
little real world story.
    About 5 years ago, I was approached by the chief security 
officer for a Fortune 500 company, and he came up to me and 
said--he met with me for lunch, and he was all upset because he 
met with his CFO for his company and he asked for a $10 million 
upgrade to the network, the security of the network for that 
company. And the CFO said to him: Where is your business case?
    So when he came to me and we discussed it at lunch, he 
said: What's wrong with the CFO? Doesn't he understand the 
importance of security? And my immediate reaction was: If I 
were the CFO, when you left the room I would probably be 
saying, what's wrong with you? Don't you understand the 
importance of economics? If I give you $10 million to upgrade 
the security.
    I am essentially taking away from something else. And the 
name of the game for the private sector is, generating profits 
so that what you can do is you can increase the value of the 
firm. And when you talk about cybersecurity investments, it is 
what we call in capital budgeting a cost savings project. And 
what you really want to do when you are in a private sector is 
not only save costs, but equally if not more important is 
increase revenues. In other words, there is two ways to 
increase profits. You can increase revenues, save costs.
    And when you talk about cybersecurity investments, one of 
the big problems, this is my second point, is estimating the 
benefits which are really cost benefits here, what you are 
really talking about is estimating the cost savings. And the 
cost savings are particularly tough to estimate for two 
reasons. One is a big chunk of the cost savings really come 
from, if you have a cybersecurity breach what you have here is 
you lose customers and so a big chunk of those cost savings 
come from avoiding lost customers. And a second big chunk of 
those cost savings come from the notion of potential 
liabilities. And these are two very tough things to measure. 
And in order to measure them properly, you have got to take 
into consideration risks, the risks associated with the breach.
    And there are different notions of risk. There is a well-
established body of literature in economics and finance and in 
insurance which has all kinds of metrics for measuring risk. 
These metrics have not been well integrated into the 
cybersecurity literature. You don't have to go out and discover 
new metrics. They are there already. So that is my second 
point.
    My third point is that when you talk about cybersecurity, 
you have got another unique kind of issue and that is you have 
got what we call spillover effects, or in economics we call it 
externalities. And these externalities really relate to the 
fact that a big chunk of the costs associated with 
cybersecurity are private costs, costs associated to a private 
company. But also, another large share of these costs we call 
social costs. And these social costs, this is where government 
incentives become important. These social costs are costs that 
are borne by other companies, not the company that is not 
practicing cybersecurity.
    And my last point that I want to make relates to Sarbanes-
Oxley Act, or affectionately known as SOX. One of the things 
that recent research has shown is that SOX actually has as a 
side effect increased the cybersecurity activities of firms. It 
was, seems to me, unintended. Part of SOX requires that 
corporations improve their internal controls systems. There is 
no way an internal control system can be improved if you don't 
have strong security. And what has happened since SOX has gone 
into effect, research has shown that corporations are 
increasing their security activities.
    I would suggest that in respect to all four of these 
points, that this committee and the Department of Homeland 
Security can do several things to improve cybersecurity 
investments. First, my first recommendation would be to set up 
some kind of workshops associated with making the business case 
for cybersecurity investments. That is the first thing.
    The second thing is that we need more research in looking 
at how do you actually determine the benefits associated with 
cybersecurity investments.
    Third, we need to look at the kinds of incentive plans that 
governments set up related to these externalities, these social 
costs.
    Now, lots of people talk about tax credits, and that is 
certainly one option. Another option, one that I probably think 
should be looked at more carefully, is maybe the government 
needs to set up tough security standards. Now, you can do this 
by regulation, but I would recommend something different. I 
might recommend setting up tough security standards, and 
alongside of those is basically give preferential treatment on 
government contracts to those companies that comply with those 
standards. So you are giving them an economic incentive to 
comply with those standards.
    And the last point I want to make is I think this committee 
and DHS should take a close look at the relation between 
cybersecurity activities at firms and Sarbanes-Oxley Act. I 
think what you will find is that a lot of good things are 
coming out of that that actually relate to your concern with 
improving cybersecurity in the private sector.
    Thank you for giving me this opportunity, and I will be 
glad to answer any questions you have related to my comments.
    Mr. Langevin. Thank you, Dr. Gordon, and I thank the panel 
for their testimony.
    [The statement of Mr. Gordon follows:]

 Incentives for Improving Cybersecurity in the Private Sector: A Cost-
                          Benefit Perspective

              Prepared Statement of Dr. Lawrence A. Gordon

             (http://www.rhsmith.umd.edu/faculty/lgordon/)

    Thank you for inviting me here today to talk about economic aspects 
of improving cybersecurity in the private sector. I commend the members 
of the Subcommittee for focusing on this critical and complicated 
issue.

Introduction
    My comments today will center on ways of encouraging (i.e., 
providing incentives for) investments that are directed at improving 
cybersecurity in profit-oriented organizations operating in the private 
sector. However, much of what I have to say would also apply, with some 
modifications, to non-profit organizations (in both the private and 
public sector). My comments are based on an ongoing stream of research 
on ``economic aspects of cyber/information security'' that I (along 
with several colleagues) started in 1998. Part of this research has 
already been published, as indicated in the reference section at the 
end of this testimony.\1\
---------------------------------------------------------------------------
    \1\ Given the limited nature of this testimony, many facets of the 
above noted stream of research are not directly addressed in this 
document (e.g., cybersecurity risk management).
---------------------------------------------------------------------------
    A key concern among profit-oriented organizations is efficiency. 
This concern is usually thought of in terms of facilitating the 
generation of profits (i.e., the difference between revenues and costs) 
for the owners of an organization, with the ultimate goal being to 
increase the value of the organization. Indeed, the most powerful 
incentive for an organization in the private sector to invest in 
cybersecurity activities is the motivation to increase the 
organization's value to its owners. For a publicly traded profit-
oriented corporation, this value proposition is usually (or at least 
primarily) thought of in terms of increasing the stockholders' value.
    At the heart of implementing this stockholders' value proposition 
is the notion of cost-benefit analysis. ``Cost-benefit analysis 
compares the costs of an activity to the benefits of that activity, 
thereby focusing attention on the process of efficiently allocating 
scarce resources among competing activities. In the context of 
cybersecurity, the cost-benefit analysis principle means that managers 
need to compare the costs of an additional information security 
activity with the benefits derived from that activity'' (Gordon and 
Loeb, 2006, p. 20-21). When the benefits exceed the costs, the value of 
the organization will increase. Thus, in considering a decision to 
increase spending on cybersecurity activities, it is important that the 
organization believe that the benefits will exceed the costs.
    A fundamental assumption underlying the above concept of cost-
benefit analysis is the fact that organizations have scarce resources 
that need to be allocated to competing activities, including 
cybersecurity activities. In other words, cybersecurity activities are 
competing with other organizational activities (e.g., new product 
development, R&D, merger and acquisition decisions, fringe benefits for 
employees, etc.). If an organization invests more in cybersecurity 
activities, that means less will be available for other initiatives 
(i.e., organizations have finite resources to invest in competing 
projects). Accordingly, it is important for profit-oriented 
organizations to be able to argue that cybersecurity investments 
represent a more efficient allocation of organizational resources (on a 
cost-benefit basis) than if such resources were put to an alternative 
use (e.g., developing a new product). In the vernacular of business, 
this means it is important to be able to ``make the business case'' for 
investing in the cybersecurity activities. Generally speaking, there is 
a well established process for making the business case for an 
investment, including investments in cybersecurity activities. Figure 1 
provides a diagram of that process.
    As indicated in Figure 1, making the business case starts with 
specifying the cybersecurity objectives for the organization. Next, 
various alternative investments for achieving the cybersecurity 
objectives need to be identified. Once the alternatives have been 
identified, the data associated with each alternative needs to be 
specified and analyzed. The next step is to conduct a cost-benefit 
analysis and to rank the various investment alternatives, followed by 
the allocation of resources to particular cybersecurity 
investment(s).\2\ The final step in the business case framework is to 
conduct a post-audit of the investment decision (i.e., evaluate the 
effectiveness of the cybersecurity investment decision).
---------------------------------------------------------------------------
    \2\ For a detailed explanation on the mathematics underlying cost-
benefit analysis, based on discounted cash flows, see Chapter 2 of 
Gordon and Loeb (2006).
---------------------------------------------------------------------------
    Unfortunately, making the business case for cybersecurity 
investments is often more difficult than making the business case for 
many other investments. There are at least three separate, albeit 
related, aspects to this added difficulty. First, the benefits derived 
from cybersecurity investments are especially difficult to assess. 
Second, the risks associated with cybersecurity investments are also 
especially difficult to assess. Third, there are externalities (spill-
over effects) associated with cybersecurity investments. A brief 
discussion of each of these concerns is provided below.
    In addition to the benefits, risks and externalities associated 
with cybersecurity investments, there are two other items that are 
important to any discussion of improving cybersecurity investments in 
the private sector. These two additional items concern the total amount 
to spend on cybersecurity activities and the Sarbanes-Oxley Act of 
2002. A brief discussion of both of these items is also provided below.

Benefits Derived from Cybersecurity Investments
    The first difficulty associated with cybersecurity investments has 
to do with identifying and estimating the benefits derived from such 
investments. The primary benefits associated with cybersecurity 
investments are the future ``cost savings'' derived from the prevention 
of losses due to cybersecurity breaches.\3\ However, if breaches were 
prevented, the actual losses would not occur and therefore would not be 
observable. In fact, the better the security, the less an organization 
will observe the losses resulting from cybersecurity breaches. Thus, 
organizations need to estimate the potential losses from cybersecurity 
breaches in order to estimate the benefits derived from cybersecurity 
investments. These estimates can be based on past experiences, where 
such experience exists.
---------------------------------------------------------------------------
    \3\ It can also be argued that cybersecurity investments can create 
a competitive advantage for an organization, which in turn translates 
into potential benefits. Although this argument is correct, such 
benefits are generally considered to be secondary in relation to the 
potential cost savings from such investments.
---------------------------------------------------------------------------
    A fundamental problem in coming up with estimates of the benefits 
derived from cybersecurity investments is that the most important 
potential losses are due to unobservable lost customers resulting from 
cyber breaches and the potential liabilities associated with cyber 
breaches. In fact, as shown in the Campbell et al. (2003) study, these 
costs can be staggering.\4\ Unfortunately, even when organizations have 
data upon which to estimate the explicit losses associated with 
detecting and correcting past breaches, they rarely have data upon 
which to estimate the implicit losses associated with lost customers 
and the potential liabilities.
---------------------------------------------------------------------------
    \4\ The Campbell et al. (2003) study also shows that many 
cybersecurity breaches are not statistically significant, in an 
economic sense.
---------------------------------------------------------------------------
    One way of addressing part of the problem discussed above 
concerning estimates of the benefits of cybersecurity investments is to 
take a ``wait-and-see'' approach to such investments. As pointed out in 
the Gordon, Loeb and Lucyshyn (2003a) study, this wait-and-see approach 
is consistent with the ``real options'' (more specifically, the 
``deferment option'') approach to capital budgeting. Of course, as the 
name suggests, it also means that it is often best to defer certain 
investments in cybersecurity due to the problems associated with 
estimating the potential benefits.
    The fact that the benefits derived from cybersecurity investments 
are essentially ``cost savings'' raises an additional issue not 
discussed above. That additional issue has to do with the fact that 
most corporate executives would prefer to increase profits by 
increasing revenues rather than by decreasing costs. The reason for 
this preference is due to the fact that the stock market tends to 
reward the owners of firms for growth as well as efficiency. Thus, in 
competing for funds, cybersecurity investments have a built in bias 
against them relative to ``revenue generating'' projects.

Risks Associated with Cybersecurity Investments
    The second difficulty associated with cybersecurity investments 
deals with the risks (or uncertainty) associated with such 
investments.\5\ It is important to recognize at the onset that 100% 
security is rarely feasible in a technical sense, and certainly not 
cost-beneficial in an economic sense. Thus, it is important to realize 
that cybersecurity investments are intended to reduce the risk (i.e., 
probability) of cybersecurity breaches. However, determining the 
reduction in the probability of a particular breach taking place, let 
alone a string of breaches taking place, as result of a cyber 
investment is extremely difficult to estimate. Nevertheless, in 
estimating the benefits from cybersecurity investments it becomes 
necessary to associate those benefits with the probability of the 
occurrence of security breaches. In other words, the ``expected'' cost 
savings (i.e., expected benefits) from cybersecurity investments are 
actually derived by multiplying the potential cyber losses by the 
difference between the probability of the cyber security losses 
occurring prior to the cybersecurity investment and the probability of 
the cybersecurity losses occurring after the investment.
---------------------------------------------------------------------------
    \5\ In the early economics literature, a distinction is sometimes 
made between the terms risk and uncertainty (see Gordon and Loeb, 2006, 
p. 96). For purposes of this testimony, no such distinction is made.
---------------------------------------------------------------------------
    Not surprisingly, estimating the before and after probabilities 
associated with cyber losses is more an art than a science. Thus, many 
have argued that the entire process of trying to estimate the expected 
benefits derived from cybersecurity investments is nothing more than an 
academic exercise. However, the fact that it is difficult to estimate 
the risk (uncertainty) associated with cybersecurity breaches should 
not be used as an excuse for avoiding the determination of such 
estimates.
    Another aspect of the risk associated with cybersecurity 
investments deals with the definition of the term risk. In the 
cybersecurity literature, risk is usually associated with the expected 
loss from security breaches (i.e., the sum of the product of potential 
losses multiplied by the probability of such losses). The goal of 
reducing the risk of a cybersecurity breach, according to this 
definition of risk, is to reduce the expected loss. However, there are 
other important notions of risk that should be of interest to those 
responsible for allocating cybersecurity investments. For example, 
reducing the variance (i.e., variation) of the potential losses is 
another valuable facet of risk when discussing cybersecurity 
investments.\6\ Although beyond the scope of the testimony being 
submitted today, it should be noted that one way for an organization to 
reduce the risk associated with cybersecurity breaches is to invest in 
cybersecurity insurance (see Gordon, Loeb and Sohail, 2003).
---------------------------------------------------------------------------
    \6\ The expected loss and reducing the variance of potential losses 
are only two of the different concepts of risk that could be considered 
in the context of cybersecurity investments. For a further discussion 
of various risk concepts applicable to cybersecurity investments, see 
Chapter 5 of Gordon and Loeb (2006).

Externalities Associated with Cybersecurity Investments
    The third difficulty associated with cybersecurity investments 
relates to the externalities (i.e., spillover effects) associated with 
such investments. These spillover effects are largely the result of the 
inherent interconnectivity associated with computer networks. In other 
words, the security of a computer network--particularly the Internet--
depends on the actions of all users of the network. This creates a 
problem in the following sense. When a firm invests in information 
security activities in an effort to improve its cybersecurity, it bears 
all the costs, but does not reap all the benefits. The larger the share 
of the benefits that accrue to other firms, the smaller the incentive 
for a firm to increase its investments in cybersecurity activities. 
This may result in the firm, and hence society, under-investing in 
information security. While the government could, in principle, 
counteract this tendency by creating incentives for information 
security investments (for example, by offering tax credits for such 
investments), the government currently does not know the right level of 
incentives to provide.
    The externalities associated with the Internet have resulted in all 
sorts of efforts to coordinate cybersecurity activities on both a 
national and international level. The ISACs (Information Sharing 
Analysis Centers) and the US-CERT (United States Computer Emergency 
Response Team) are two good examples of efforts to coordinate 
cybersecurity activities. Both of these efforts rely heavily on 
information sharing related to computer security, with particular 
emphasis placed upon protecting the nation's critical infrastructure.
    Information sharing has the potential for lowering the cost of 
cybersecurity for each organization involved in such a program. 
Unfortunately, the free-rider problem (i.e., the situation where each 
member of a group shares a little amount of information, in the hope of 
learning a lot about the other members of the group), is prevalent 
among information sharing arrangements related to cybersecurity (see 
Gordon, Loeb and Lucyshyn, 2003b). Thus, unless economic incentives are 
devised to offset the free-rider problem, much of the potential benefit 
from information sharing organizations will not be realized.

How much in Total should be Invested in Cybersecurity Activities?
    The cost-benefit framework discussed above provides a 
straightforward way of assessing the benefits and costs associated with 
incremental investments in cybersecurity activities. If we assume that 
an organization already has in place some initial level of 
cybersecurity spending, then the total spending on cybersecurity 
activities would be this initial spending plus the sum of incremental 
investments. A more sophisticated approach to deriving the right amount 
to invest in cybersecurity activities is to assume a zero-base starting 
position for such investments. In its most rigorous form, a 
mathematical model can be developed to derive the optimal amount an 
organization should spend on cybersecurity activities. Although cost-
benefit analysis would be embedded within such a model, an optimization 
approach would be a far more sophisticated (in terms of the 
mathematics) approach to deriving the right amount to invest in 
cybersecurity. This model should involve specifying security breach 
functions, the potential losses associated with security breaches, the 
probability of such losses, and the productivity of cybersecurity 
investments.
    One model for deriving the optimal amount to invest in 
cybersecurity activities, which has gained wide acceptance among 
academicians and many practitioners, is referred to as the Gordon-Loeb 
Model. This model is described in the paper by Gordon and Loeb (2002). 
It must be emphasized, however, that the Gordon-Loeb Model is best 
viewed as a ``framework'' for examining the optimal level of spending 
on cybersecurity, rather than as an absolute solution to the 
cybersecurity investment dilemma. Indeed, in the final analysis, 
determining the right amount to spend on cybersecurity activities 
requires sound business judgment (based on experience and knowledge 
related to a particular firm and industry), as well as the application 
of sound economic principles. In other words, in the final analysis, 
there is no silver bullet for deriving the right amount to spend on 
cybersecurity.
    Since cybersecurity investment decisions are made based on 
expectations of the future, the likelihood of getting the optimal 
solution to the investment problem is close to zero. However, it is 
important to realize that on average an organization would be better 
off by utilizing sound economic principles in making cybersecurity 
investment decisions than ignoring such principles.

Sarbanes-Oxley Act has Created an Incentive to Increase Cybersecurity 
Activities
    The accounting scandals of the late 1990s resulted in the Sarbanes-
Oxley Act (SOX) of 2002. A key aspect of this legislation deals with 
the internal control requirements of SOX under Section 404. In essence, 
SOX requires firms registered with the U.S. Securities and Exchange 
Commission to develop sound internal control procedures associated with 
financial reporting. Given the computer-based nature of modern 
organizations, it is generally agreed that sound internal controls 
implies sound information security. Thus, as shown by Gordon, Loeb, 
Lucyshyn and Sohail (2006), an indirect result of SOX has been to 
create an incentive for firms to increase their information security 
activities (and by implication, investments) by firms. In essence, 
research suggests that SOX has created a strong incentive for 
organizations to increase their cybersecurity investments. Although the 
above claim has not been directly tested, the findings by Gordon, Loeb, 
Luchyshyn and Sohail (2006) clearly point to the validity of this 
claim.

Summary and Recommendations
    The above discussion highlights several key aspects of investments 
directed at improving cybersecurity within profit-oriented 
organizations operating within the private sector. These aspects can be 
summarized in terms of the following five points.
        1. The most powerful incentive for an organization in the 
        private sector to invest in cybersecurity activities is the 
        motivation to increase the organization's value to its owners. 
        At the heart of implementing this value proposition is the 
        concept of cost-benefit analysis, which falls under the 
        umbrella of ``making the business case'' for cybersecurity 
        investments. The idea of deriving an optimal level of 
        investment in cybersecurity activities is closely associated 
        with this cost-benefit concept. Unfortunately, many (if not 
        most) CIOs (Chief Information Officers) and CSOs (Chief 
        Security Officers) are not well versed in the economic 
        underpinnings of cost-benefit analysis. Accordingly, it is 
        often difficult for those responsible for cybersecurity 
        activities within a firm to make a cogent argument for 
        increasing the firm's spending on such activities. Remember, an 
        increase in spending on cybersecurity activities generally 
        means that less is available for spending on other initiatives 
        (including revenue generating initiatives) within the 
        organization. Thus, my recommendation is for this Subcommittee 
        to initiate an effort to establish training sessions for CIOs 
        and CSOs on how to apply cost-benefit analysis to cybersecurity 
        investment decisions. The development of these sessions could 
        fall under the auspices of the Department of Homeland Security. 
        In my opinion, such training would go a long way toward 
        improving the allocation of private sector resources toward 
        cybersecurity activities.

        2. A fundamental problem in coming up with estimates of the 
        benefits from cybersecurity investments is that the most 
        important potential losses are due to unobservable lost 
        customers resulting from cyber breaches and potential 
        liabilities associated with cyber breaches. Until organizations 
        feel more comfortable with their estimates of the benefits from 
        cybersecurity investments, it is unlikely they will make the 
        necessary commitment to such investments. In other words, the 
        tendency will be to treat cybersecurity investments as a 
        necessary evil rather than sound economic investments. Thus, my 
        recommendation is for this Subcommittee to encourage, under the 
        auspices of the Department of Homeland Security, additional 
        research related to estimating the benefits of cybersecurity 
        investments.

        3. The fact that it is difficult to estimate the risks 
        associated with cybersecurity breaches should not be used as an 
        excuse for avoiding the determination of such estimates. The 
        risks associated with cybersecurity are difficult to estimate. 
        As a result, many view the process of deriving the ``expected 
        benefits'' from cybersecurity investments as merely an academic 
        exercise. However, there is an extensive body of existing 
        literature on risk that has direct bearing upon cybersecurity 
        investments. To date, this literature on risk has not been well 
        integrated into the cybersecurity literature. Thus, my 
        recommendation is that the cost-benefit analysis training 
        sessions suggested in the first point above should include 
        coverage of this literature on risk.

        4. The inherent interconnectivity associated with computer 
        networks creates externalities (spillover effects). These 
        externalities revolve around issues related to welfare 
        economics (i.e., a branch of economics associated with 
        improving the welfare of an entire society or economic system, 
        usually based on such principles as the efficiency of resource 
        allocations and equitable income distribution to individuals). 
        Since it is difficult to get organizations to incorporate these 
        externalities into their decisions regarding cybersecurity 
        investments, the development of exogenous government incentives 
        may be appropriate. Thus, my recommendation is for this 
        Subcommittee to encourage research directed at examining the 
        appropriateness of developing incentives to address these 
        externalities.

        5. Research suggests that the Sarbanes-Oxley Act of 2002 has 
        created a strong incentive for organizations to increase their 
        cybersecurity activities. The fact that there is preliminary 
        evidence that SOX has created a strong incentive for 
        organizations to increase their cybersecurity activities, and 
        by implication their spending on such activities, is worth 
        exploring in greater depth. Indeed, assuming these preliminary 
        findings are correct, there may be ways for the Department of 
        Homeland Security to capitalize on this development. Thus, my 
        recommendation is for this Subcommittee to facilitate further 
        exploration of this SOX-cybersecurity relation.
        [GRAPHIC] [TIFF OMITTED] T1082.13.
        
        eps[GRAPHIC] [TIFF OMITTED] T1082.14.
        

    epsMr. Langevin. I now recognize myself for 5 minutes. And 
let me begin with you briefly, Dr. Gordon, on your point that 
one of the primary goals of a firm is to increase the asset 
value of the firm. But what about protecting the asset value of 
the firm? And why is it that that isn't more readily apparent 
as a need, in a sense a primary goal of doing business, right 
along with increasing value at the firm?
    Mr. Gordon. I think both of those actually address the 
issue of increasing value, but I would put it in a slightly 
different context. I would say that in the capital budgeting 
literature, we talk about generic areas of capital investments. 
One is revenue generating products, new product development, 
mergers and acquisitions. Another one would be what we call 
cost savings projects. Cybersecurity investments fall under 
that category. The third category is what we often call must-do 
projects.
    So the way I would answer your question is to say that when 
you get to these cost savings projects, it is much tougher. And 
when you get to cybersecurity investments they are the 
toughest. And the reason they are the toughest, it is much 
tougher to actually observe the benefits. And the reason for 
that is if you do the job right, then you have avoided those 
breaches, you have avoided those catastrophes, and you don't 
really see what you would have incurred as a cost.
    So that is why they are particularly tough. And that is 
why, when you talk about protecting assets in that sense, it is 
a different kind of project. It is not that they don't add 
value to the firm. They do. It is just often harder for 
managers to figure out how to quantify it.
    I am a big believer in that you should try to--you know, 
what you measure is what you get. You need metrics. And after 
you come up with these, I look at these metrics as a framework. 
Once you get those, then of course you have got to bring in 
good business judgment, nonfinancial concerns, nonquantitative 
concerns. But there is a well established process for doing 
that. So what you have to do is go through and estimate these 
benefits.
    Mr. Langevin. You have each had the opportunity to hear 
each other's testimony. Let me just go down the line and ask, 
was there anything that you heard in the other testimony of 
your fellow panel members right now that struck you that you 
highly agree with or strongly disagree with?
    Ms. Katzen. On the basis of both the oral statements and 
the written testimony which I had read, I think we are in 
violent agreement. We all seem to believe and advocate that 
necessity for getting good metrics, good data, good research; 
that the government should not be regulating; that one size 
does not fit all; that it is not an IT problem, that it is an 
enterprise-wide problem. That there are business cases 
involved, and that there should be market-based incentives, 
with the government holding out some additional incentives to 
bring the companies to the table. And I don't hear very much 
difference among us.
    Mr. Clinton. I would have to agree with Ms. Katzen. I am 
struck very pleasantly by the degree of agreement with regard 
to what is the best way forward for Congress. And it is for 
Congress to act, but for Congress to act in a novel fashion.
    Professor Gordon's testimony, which I think is probably 
pretty difficult to summarize orally, although I think he did a 
wonderful job with it, goes into really good detail on why it 
is very, very difficult for real corporations to justify the 
sort of extraordinary expenses that we would like to have them 
make for security that goes beyond their corporate borders. 
That is just not going to happen.
    For about 6 years, we have been hearing rhetoric from DHS 
and others saying, well, gee, if industry would only get it and 
realize the value proposition is there for them to protect 
their own resources, then that would take care of it. That has 
not happened. The amount of spending has not increased 
dramatically. It is not going to increase dramatically unless 
we develop a market for this. Now, that is an unhappy solution, 
but I don't see how we can come to any other realistic 
solution. There are a range of things.
    One of the things we haven't talked about here is that 
virtually all of the ideas, and again most of us have 
articulated pretty much the same ideas, use procurement better, 
use awards programs. You know, based on standards. You know, 
most of the standards are already there in the private sector. 
We already know a lot about how to do this. We are under attack 
thousands of times a day. We are preventing lots of them. We 
just need more people to adopt these things.
    So we don't need the government to come in and provide 
standards. We don't need the government to come in and regulate 
these things. We need the government to come in and provide 
incentives. And the sort of incentives that I have articulated 
in my testimony are incentives that have already been used in 
agriculture, in aviation, in the environmental sphere, in 
ground transportation, in tax law. The government has done this 
stuff before, they have just not applied it to cybersecurity. 
And that is what I would argue, is that if we would take the 
precedent that we have found in other sectors of the economy 
and the standards that have already been proven effective in 
mitigating the attacks that we are having every day, that is 
the payoff forward for improved cybersecurity, which is in the 
national interest.
    Mr. Gordon. In general, I would agree with what my 
colleagues have to say here, although--and I hate to put an end 
to the love fest, but I see a different focus. And let me tell 
you the focus.
    First of all, market-based incentives, they already exist. 
The clearest market-based incentive is to get firms to realize 
it is in their best interest in terms of cost efficiency to 
invest more in cybersecurity investments.
    And the other point I would make is, so it is not that we 
disagree, but I am saying the focus to me is it is already out 
there. We have got to get firms to understand how to use that 
better, and I think that is something your committee could 
certainly facilitate.
    The other point I want to mention is that I thought the 
point mentioned about Enterprise Risk Management, ERM, was 
really a good one. And so I appreciate the fact that it was 
mentioned. However, having done a lot of work in that area, let 
me tell you the problem with ERM. ERM comes from COSO, the 
Committee on Sponsoring Organization from the accounting 
organizations. And COSO talks about ERM in four categories. 
They talk about operations, they talk about financial 
reporting, they talk about compliance and strategy.
    What they don't do is give you a metric for measuring it. 
And if you go and read this ERM literature, what you will find 
is and you need, in my opinion, is if you need a metric for 
measuring it. In fact, I have got a Ph.D. student who just 
finished up a dissertation working on this very topic. And when 
he came to me and wanted to do something on ERM, the first 
thing I said to him is, you realize you are going to have to 
come up with a metric. What we need is some kind of a metric 
for measuring have we improved it.
    So it is not that I would disagree. I would just say the 
focus has to be on developing a metric for ERM. And so I don't 
think we disagree. It is just a question of focus. I tend to be 
more focused on the quantitative metrics.
    Mr. Langevin. My question for Mr. Clinton is, isn't it the 
case, though, that firms in the private sector when, in a sense 
creating standards, that they tend to create substandard 
standards?
    Mr. Clinton. No. I am not aware of any evidence of that. In 
my testimony, I cite the largest study that has been done on 
information security which, independent study, 
PriceWaterhouseCoopers study. And they found that the 
companies, the best practices group, the group they classified 
as following these things, were able to mitigate against 
attacks better, didn't lose money like others did, and, in 
fact, could deter tax.
    It is, as Professor Gordon has just alluded, companies do 
want to protect their own cyber systems. But the Internet 
transcends those cyber systems. If you read the discussion of 
externalities that is in Professor Gordon's testimony, I think 
he makes a really good argument here. Basically, what we need 
is for corporations that go to their own corporate borders for 
their own self-interests, to provide security that goes to the 
entire system. And that is--it is important to remember, there 
is no private sector. There is no thing that is the private 
sector. The private sector is thousands and thousands of 
different companies, with different goals, technologies, et 
cetera. We have to get all these guys to cooperate. They do 
cooperate. They set standards all the time to make sure their 
systems are interoperable, so that they can generate more 
investment, have cooperative engagements, et cetera, et cetera.
    There is plenty of reason for them to set good standards. 
And the research indicates that when they follow those 
standards and best practices, we do have demonstrable 
improvements in cybersecurity. I am not going to say it is 100 
percent, because the threat, as I also pointed out, continually 
evolves. So we need to continue to work on it.
    But the evidence that I am aware of, with all respect, Mr. 
Chairman, is the opposite. Is that rather industry set 
standards adequate to meet their needs, and then attempts to 
meet those standards.
    Moreover, one last point. One of the projects that we are 
involved in at the Internet Security Alliance is to develop 
model contracts around those standards, so that the really good 
players like Verizon who testified on the first panel--and they 
are doing a great job. They are just doing as good a job as you 
can do, I think, from what I can see. What they want to do and 
what we are working with them to do is to take their system and 
write contracts for their vendors, their suppliers, their 
customers, that include in those contracts compliance with the 
high-level security systems that Verizon is already having, so 
that we are using contracts to expand the perimeter of security 
rather than using regulation. And those contracts are much 
easier to update, keep up with the technology, keep up with the 
evolving threat, than going through a regulatory model which 
takes years. And, frankly, I think it is the regulatory model. 
You get a bunch of lobbyists coming in, they will dumb it down 
for you.
    Mr. Langevin. My concern is that the private sector would 
tend to skimp or to underestimate risk. We heard testimony last 
week on the electric grid, where the industry ostensibly self 
regulates through NERC that makes recommendations to FERC about 
the type of regulations that should be put in place. Yet, 
clearly the self regulation process in that instance doesn't 
quite go far enough. And I believe that a model similar to the 
Nuclear Regulatory Commission is stronger where they have the 
ability to come in and direct, as opposed to just allowing 
industry to kind of self-advise, self-regulate.
    Mr. Clinton. If I could respond quickly to the chairman. 
And I apologize for taking too much time. I wouldn't classify 
myself as an expert in that particular sector. I frankly don't 
have any members in that particular sector. We are a cross-
sector organization.
    My sense would be that that is the sort of thing that we 
could work with. I can tell you that there are standards that 
have been shown to work. I am unfamiliar with the standards 
that they have. It would seem to me that the government, 
particularly in a regulated sector such as the one you are 
describing, certainly can use that.
    But let me point out something that was not pointed out in 
the first panel, which is when GAO did their study, they found 
that the number one sector that had done the best job was 
completely unregulated, the IT sector. The banking sector, 
which is heavily regulated, did among the worst jobs.
    So I don't think that there is a one-to-one correspondence 
here with respect to regulated/unregulated in terms of doing a 
good job in this area. I think what we need to do is find a set 
of standards that we would agree on meet certain metrics. No 
disagreement on that. And then find ways to get more companies 
to do that. But you have got to do it in a way so that you can 
keep up with the threat.
    Ms. Katzen. If I could. What I hear, though, is almost so 
obvious, that this is not easy on the ERM. There are lots of 
ERM models, and they have to be adapted in different ways. Cost 
benefit analysis, I have spent the last 10 years of my 
professional life of doing cost benefit analysis. It is not 
easy. There are ways of doing it and there is literature out 
there and it has to work.
    The problem is the diversity of the corporate models, the 
diversity of corporate awareness, the differences in technical 
capabilities. You are not dealing with the monolithic world. 
Someone said there is no private sector, there is lots of 
components of a private sector. And this decentralized nature 
can be very offputting or frustrating.
    But if you can't fix it, flaunt it. Use it. And that means 
don't look for a silver bullet. Don't look for a one-size-fits-
all. Don't look for the perfect thing that would work in one 
sector to be applied in another, but apply sort of what comes 
naturally to each sector.
    Thank you.
    Mr. Langevin. Thank you. The Chair now recognizes the 
ranking member.
    Mr. McCaul. Thank you, Mr. Chairman. I appreciate 
everybody's patience. It is getting late, and we have got an 
anniversary, we have trick-or-treaters tonight. We convened at 
2:30. It has been 4 hours. I would like to get more input in 
writing, if that would be acceptable. It is just getting a 
little late and I have got to run on to another obligation.
    But what I am hearing is, and tell me if I am wrong. It 
sounds like, nobody here is advocating regulatory reform, but, 
rather, market-based incentives. Is that correct? Is that a 
fair statement, from all three?
    Mr. Gordon. I think there is something in between. And the 
something in between is you can have government incentives, 
which is not necessarily regulatory in nature. For example, you 
could go to NIST and ask NIST to set up the standards for you 
for security, and you can reward companies. Companies that are 
following those standards, you might give them preferential 
treatment with government contracts. I don't view that as 
regulation, but that is not straightforward market reform.
    Mr. McCaul. Sort of the novel, Mr. Clinton, where you are 
talking about the novel creative approach would be to look at 
this through the government contracting process, to provide 
incentives through that process?
    Mr. Clinton. That is one way absolutely. Yes.
    Mr. McCaul. What are some other market-based initiatives or 
incentives that can be used without regulation?
    Ms. Katzen. One of the ones that we talk about, and I think 
Mr. Clinton does as well, is a recognition and reward program 
modeled on the Energy Star, which we use to increase energy 
efficiency; and, have a Cyber Star program where there would be 
recognition if you set the bar high enough and you require them 
to keep increasing their security.
    Another of the workshops that I think we are all talking 
about, whether it is to educate for how to use or do a risk 
assessment or whether you are talking about how to use ERM, we 
are all talking about providing additional information. Not 
trying to hoard it, but to share it. And I think those kinds of 
incentives, whether the government picks up the cost of 
Federally-sponsored programs or gives tax credits for it are 
things that each of us have talked about in different ways, but 
somehow uses the Federal support for information sharing.
    Those are just two ideas that I think all three of us have 
signed onto one way or the other.
    Mr. Clinton. Briefly, Mr. McCaul. In addition to what has 
been said, there are a number of things that can be done with 
insurance. Insurance is one of the strongest motivators that we 
use in health care, you know, good driving, et cetera, cetera, 
and there are a whole range of things that could be done with 
respect to insurance. As we have mentioned procurement, there 
are awards programs like the Baldrige Award. Make security a 
market differentiator, publicize that. There are creative 
consortiums like the Sema-Tech program that we did back in the 
1980s. There are the contract systems that we use. As I said, 
there is at least a half dozen.
    And I don't advocate tax incentives. I think the tax 
incentives would probably be a good idea, but IS Alliance lives 
in the world. We don't imagine that we are going to get tax 
relief for large corporations for security, even though I think 
it is a good idea. Politically, it probably isn't going to fly. 
But these other things ought to fly. We have done them, as I 
said, in a variety of other sectors. They passed. We really 
want to work with you on this.
    Mr. McCaul. We have a Sema-Tech in Austin and that is a 
great model.
    Just in the interest of time, because it is getting late. 
To the extent you can provide us additional information on what 
we can do at this level, what congressional action would be 
helpful to facilitate these incentives you are referring to; 
whether it be the contracting, whether it be the insurance, the 
information sharing? All these are great ideas that the 
chairman and I can look at in terms of crafting legislation 
that wouldn't be overburdensome in terms of regulating, but 
rather facilitating.
    Mr. Clinton. We have a good deal of material, Mr. McCaul, 
and we would be happy to share that with you and the Chairman 
and the rest of the committee and discuss it in greater detail 
at your convenience.
    Mr. McCaul. I certainly appreciate that. Thank you.
    Mr. Langevin. And I agree. I look forward to seeing your 
recommendations as well.
    The Chair now recognizes the chairwoman of the 
Transportation Subcommittee, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. To your 
ranking member, to my ranking member, and to the staying power 
of the witnesses, let me thank you for accepting our invitation 
to become fixtures in this place. But you are doing it well and 
we thank you very much.
    Allow me to, I held up this large document that is the 
National Infrastructure Protection Plan. Let me just read into 
the record some language.
    Protection includes actions to mitigate the overall risk to 
the critical infrastructure and key resources assets, systems, 
networks, functions, or their interconnecting links resulting 
from exposure, injury, destruction, incapacitation or 
exploitation in the context of the National Infrastructure 
Protection Plan. This includes actions to deter the threat, 
mitigate vulnerabilities, or minimize consequences associated 
with a terrorist attack or other incident.
    And so we have our marching orders through this plan. And 
you are giving us sort of the wide perspective of the private 
sector. Can I get sort of a sentence answer from all of you, 
though this is cybersecurity? You heard individuals 
representing telecommunications and financial services on the 
first panel.
    Do you believe that, overall, the private sector has been 
engaged in actions to mitigate the risk to these assets systems 
and networks? And do you think there have been sufficient 
incentives for them to do that? And as we do that, I will ask 
my next question of what more once I hear where you are on that 
question. Ms. Katzen. And welcome.
    Ms. Katzen. Thank you. It is very good to see you.
    Ms. Jackson Lee. It is good to see you. Put that on the 
record.
    Ms. Katzen. Thank you.
    It is hard to know how much action has been taken because 
we have yet to develop meaningful quality metrics to measure. 
But one of the problems with the NIPP, the plan, is that it 
calls for information from the private sector, but you don't 
know what you are measuring against. We don't have benchmarks, 
we don't have metrics by which to make progress.
    I think a lot of work is being done. And much of it must be 
productive, but I am not able to sit here and tell you that it 
is or it isn't as long as we have a lack of a real partnership. 
And this is what I was trying to say earlier. DHS has got to 
work in a public-private partnership, public-public partnership 
in a way that is respectful and exploits the trusted 
relationships that exist, and that provides the--and I will go 
back to the incentives--provides incentives for the private 
sector to do the right thing. Right now, I think they are more 
in a ``do it my way'' or dictate to the SSAs as or the private 
sector what they should do, and I don't think that is as 
productive.
    Ms. Jackson Lee. Mr. Clinton.
    Mr. Clinton. Thank you, Madam Chairman. I would say, first 
of all, with regard to your first question, is the private 
sector engaged? Yes, many people in the private sector are; 
however, not nearly enough.
    I participate on a number of these organizations. The 
outreach to the breadth of U.S. industry is, in my opinion, 
woefully inadequate. We need----
    Ms. Jackson Lee. When you say breadth, you are going beyond 
even the cybersecurity?
    Mr. Clinton. No, Ms. Jackson Lee. I am speaking within the 
context of cybersecurity. Frankly, I think that probably would 
be true beyond cybersecurity. We are not reaching enough people 
with respect to being involved in these various plans.
    Ms. Jackson Lee. DHS is not reaching enough people?
    Mr. Clinton. Yes. And with respect to do they need more 
incentives, I am afraid the answer is yes. Now, certainly, as 
Dr. Gordon has pointed out, there are incentives. Lots of 
people are doing a lot of good things. That best practices 
group I was referring to before that was found in the 
PriceWaterhouseCoopers found about 30 percent of corporations, 
many of the larger corporations. That is a lot of people, but 
that means 70 percent are not being reached. And when we deal 
with the Internet, the weakest link is the problem. So that if 
we have the small businesses or the commercial sectors not 
being engaged at all, they are intertwined with everybody else 
and they can help bring down the whole system. We need a much 
more expansive effort. And the only motivator that is going to 
be dynamic enough to work is the profit motive. We have to 
inject that in.
    And you have got to remember, as somebody else pointed out 
before, it is not just a U.S. problem. The Internet is 
inherently international. So we need to reach out to the Indias 
and the Chinas and everybody else. We have to have some sort of 
system that is going to transcend that, and market incentives 
is the most logical one, which is why I think the three of us 
independently came to that conclusion.
    Ms. Jackson Lee. Mr. Gordon.
    Mr. Gordon. I would say that the private sector is clearly 
engaged. Clear evidence of that is the growing importance of 
setting up a chief security officer apart from the chief 
information officer within a company. You have now most of your 
major corporations have someone in charge of security who may 
report to the chief information officer or may even report 
directly to CFO.
    Are they doing enough? That is a tough one to answer, 
because in order to answer that one, you have got to really 
understand where they are and where they want to be. I can only 
give you my own experience, is I get contacted by at least one 
senior executive a week. And one of the biggest issues from a 
chief security officer's point of view is they want more 
security, okay, because not only is the company their concern 
but their job is their concern.
    So they have the option, they have an incentive. There is 
an agency problem; that is what we call it in economics. They 
have an incentive to overinvest. But the biggest problem they 
face is getting more funds out of the CFO for cybersecurity 
investments.
    So a little side note here is if you take a look at what 
companies invest, all the studies tend to show that companies 
invest somewhere around 5 to 7 percent of their IT budget on 
security. And the interesting thing about that is that security 
is becoming one of the fastest growing concerns, and the 
percentage of the budget for security is not growing. So that 
would suggest to me that they are not getting the share they 
should be getting. It suggests that to me; but without having 
the deed on particular companies, and I am sure it varies from 
company to company.
    Ms. Jackson Lee. My questions are never quick, but I am 
going to try to offer two more quick questions recognizing your 
time and the lateness of the hour. But what I would ask without 
having that answered, I would like to get from the witnesses 
your list of incentives that can be utilized more effectively 
through DHS. And I would like that in writing. But let me try 
to get Mr. Clinton, and then I have a question for Ms. Katzen 
and Mr. Gordon.
    You never were a fan in particular for the approach dealing 
with a regulatory scheme, if you will, I don't think. You were 
sort of interested in trying to, as you said, get DHS to be 
more enthusiastic on this best practices area. I am still 
looking at whether or not this should be a totally voluntary 
approach with incentives, or whether or not we need some 
regulatory structure, which I have heard my colleagues say and 
I too am looking at legislation along that line. I obviously 
have an array of infrastructure issues to look at.
    But what I would like to know is what has been your 
association in terms of being involved with DHS to promote the 
best practices so that they are more broadly adopted across the 
IT sector through this program.
    Have you been able to engage with DHS to talk about best 
practices? And I am just saying you in particular because you 
represent a component of the industry that I think is 
important. And, isn't this program a great way to encourage 
more effective cross-sector cybersecurity protection? Meaning 
this whole best practices. Have you been engaged in particular?
    Let me ask my other question to both Ms. Katzen and Mr. 
Gordon. I think cybersecurity gives value to companies. And it 
would look like that would be one of the industry incentives 
that, if my investors knew that I was managing my risk, that 
that would make my product more valuable. Question is, does 
Wall Street give value to cybersecurity so that companies then 
are self-rewarded for what they have done? And, in essence, 
does the government? Have they narrowed the rewards to even 
that way? Cybersecurity, more valuable, protect the America's 
assets?
    I will go to Mr. Clinton first on this whole best practices 
and interacting with the DHS.
    Mr. Clinton. Thank you, Ms. Jackson Lee. Yes. I, speaking 
as the Internet Security Alliance, am very involved.
    Ms. Jackson Lee. Is that the name of the program, so you 
will at least be--I will put it on the record. The Voluntary 
Private Sector Preparedness Certification Program.
    Mr. Clinton. Well, the Internet Security Alliance is very, 
very involved in developing best practices and finding 
incentives for our Members to use them. We do have an insurance 
incentive program with the largest insurance provider of cyber 
insurance for our best practices. We publish best practices 
basically once every year. We talked earlier about the model 
contracts that we provide.
    So we do on the private sector side a great deal with 
respect to developing best practices, providing incentives for 
best practices, et cetera. With respect to, is DHS the mode for 
that? I would have to tell you that we have not really found 
very much grounding in working with DHS in that regard.
    Most of the improvements in cybersecurity that I am aware 
of happen by the private sector doing things through the 
private sector, not through DHS. Maybe that will change as DHS 
matures. But to this point, I would have to tell you that none 
of my members would say that they are doing anything to improve 
their security thanks to DHS. They are doing it for other 
reasons; some are for social, some are business, for a variety 
of other things.
    But our view is that the infrastructure is owned and 
operated by the private sector. You have to work with the 
private sector to get it strengthened. When you strengthen that 
infrastructure, you are also fulfilling an important homeland 
security and national security function. But you do it through 
private sector. Going through DHS, I think you are really 
trying to stick a square peg in a round hole, and I think it is 
going to be counterproductive.
    Ms. Katzen. On the issue of both market value and Wall 
Street, and it is referred to in my testimony, the Ernst & 
Young study, which shows a very strong correlation between 
success in managing risks and success on Wall Street, and that 
investors do appreciate that. So I think there are data there 
that support that.
    Mr. Gordon. I would agree with that. Actually, if you take 
a look at my written testimony, I discuss this notion of what 
you call value added as opposed to cost savings from 
cybersecurity investments. It is usually thought of as sort of 
a secondary effect, but in the short run firms certainly can 
carve out a niche for themselves, a competitive advantage of 
showing they have more security than another firm. In the long 
run, it will be hard to keep that competitive advantage. I do 
discuss that point in my written testimony.
    Ms. Jackson Lee. Thank you very much to all of the 
witnesses. And, Mr. Chairman, it has been a pleasure to be able 
to unveil and to pull back the covers on what has either been 
happening or not been happening with DHS. And I think that 
there are some roads not yet traveled that we can work on, in 
particular public-public, public-private relationships and 
incentives rewards.
    Mr. Clinton, I don't want to leave DHS completely out and I 
am not convinced that they should be completely out or not, 
that they not be a regulatory structure. But I do believe that 
there should be rewards that you are aware of that are given 
through DHS, and apparently we have not established that 
structure yet.
    Mr. Clinton. I would agree with that, Ms. Jackson.
    Ms. Jackson Lee. And so, let me just thank Chairman 
Langevin. I look forward that we have an opportunity to work 
again together on this issue. And I yield back.
    Thank you all for your testimony.
    Mr. Langevin. Thank you, Madam Chair. Let me just say how 
much I appreciate your participation in this joint hearing, as 
well as Ranking Member Lungren. This was very productive, and 
some great things came out of it. I look forward to our 
continuing to work together.
    I also, of course, want to thank the panelists for your 
patience, for your testimony. You have added great insight into 
the work that we have ahead of us and perhaps a road map of 
what we need to do to better coordinate this effort of 
cybersecurity and working together with the public and the 
private sector.
    So I thank you for your testimony and the members for their 
questions.
    The members of the subcommittee may have additional 
questions for the witnesses, and we would ask that you respond 
expeditiously in writing to those questions.
    Hearing no further business--again, happy anniversary to 
you, Ms. Katzen. I hope you get home soon. And sorry for the 
lateness of the hour, but certainly an important issue.
    Hearing no further----
    Ms. Jackson Lee. Happy anniversary.
    Mr. Chairman, would you allow a moment of personal 
privilege?
    Mr. Langevin. Certainly.
    Ms. Jackson Lee. Professor Katzen goes back with my 
combined family.
    My spouse, Dr. Elwyn Lee, he sends his greetings.
    Ms. Katzen. Thank you.
    Ms. Jackson Lee. And you allowed me a moment of 
reminiscing, and she is as young and vibrant. And I am 
apologetic. Go home for that anniversary, please. And greetings 
from myself and my husband. Congratulations.
    I thank you for giving me a moment of personal privilege.
    Mr. Langevin. Certainly.
    Ms. Jackson Lee. The check is on Chairman Langevin, so do 
whatever you want to do tonight.
    [Laughter.]
    Mr. Langevin. On that note, hearing no further business, 
the subcommittee stands adjourned. Thank you.
    [Whereupon, at 6:53 p.m., the subcommittee was adjourned.]

                             For the Record

                 Prepared Statement of Michael O'Hanlon

    Greetings. It is an honor to appear before the committee today.
    My opening comments will be brief and rather broad. I am not an 
expert on cybersecurity, hence my contribution today will involve 
creating a framework within which this important aspect of homeland 
security can be considered and analyzed.
    It is useful to think in terms of different possible strategies for 
homeland security. Clearly, in a society like ours, huge as it is, as 
open and free as it is, we could be far more diligent about protecting 
ourselves from terrorism than we are today.
    For example, if the degree of terrorist threat here was anything 
approaching that in Israel, or if even a single additional major attack 
had been successfully carried out since 9/11, we would do things that 
are presently seen as politically infeasible or strategically 
unnecessary (such as searching baggage on most trains and buses, 
tightening up land borders far more, and worrying about truck bomb 
vulnerability at far more prominent buildings).
    But we are already much more diligent than we were before 9/11, and 
are spending more than $50 billion a year in federal funds on the 
effort (whereas a decade ago we spent perhaps one fifth as much on 
counterterrorism, and did not even employ the term homeland security in 
the federal lexicon). So our current strategy might be seen as an 
intermediate one along a spectrum of possible approaches.
    A notional list of a full spectrum of possible approaches to 
homeland security might look something like this, in ascending order of 
intensity and cost:
        <bullet> Pre-9/11 Approach. The philosophy here would be to 
        protect only against very specific threats that have manifested 
        themselves before, or that would be especially worrisome. For 
        example, we protected nuclear power plants from sabotage, and 
        top officials from assassination. The annual cost to the 
        federal government is under $10 billion for such an approach, 
        roughly and notionally speaking.
        <bullet> Post-9/11 Threat-Based Approach. This approach would 
        follow a similar logic but expand the list of credible threats 
        based on what we learned on September 11, 2001 and in various 
        events around the world since then. Jeremy Shapiro of Brookings 
        is a proponent of this approach (see opportunity08.org). 
        Airline security is an obvious area of focus for this approach, 
        which would emphasize prevention of what we know that al-Qa'ida 
        and related groups CAN do, as opposed to what they might wish 
        to do. Reducing our vulnerability to truck bombs at prominent 
        sites is another logical area of emphasis, given known patterns 
        of terrorist activity around the world. The annual cost is 
        about $20 billion to $30 billion (my estimates).
        <bullet> Bush Administration Approach. This goes beyond the 
        threat-based approach to include as well attention to those 
        types of attacks that we know al-Qa'ida would LIKE to carry 
        out, as well as those that would be so horrible we have to 
        worry that they might occur even if they probably will not 
        (such as WMD attacks). Estimated annual cost $50 billion.
        <bullet> Brookings Approach. This approach, reflected in two 
        Brookings studies this decade by a team of authors, is similar 
        in some ways to the Bush administration's concept. But it takes 
        a slightly broader approach to defining threats and toughens up 
        the steps taken to address them in some cases. We focus 
        primarily on attacks that could cause major damage to our 
        national security, our population, or our economy (catastrophic 
        attacks). For example, we emphasize better protection of the 
        chemical industry and the hazardous trucking industry, as well 
        as improved use of intelligence to find patterns of possible 
        terrorist attack before they occur (a ``google function for 
        counterterrorism'') along the lines also proposed by the Markle 
        Foundation. Estimated yearly cost $60 billion.
        <bullet> ``America the Vulnerable'' approach. I borrow here 
        from Stephen Flynn of the Council on Foreign Relations; former 
        Bush administration homeland security official Clark Kent Ervin 
        has written a somewhat similar book. The approach here is to 
        take imagination to its logical extreme, and suppose that any 
        serious attack al-Qa'ida might be able to carry out we should 
        defend robustly against. It is a vulnerability-based approach, 
        but with vulnerability defined in a broad way. Great attention 
        is paid to inspecting cargo in international shipping by Flynn, 
        for example, even though it could be very difficult to rework 
        our port infrastructure to make this possible. Estimated cost 
        $80 billion a year.
        <bullet> Council on Foreign Relations task force approach. This 
        Hart-Rudman task force of several years ago reflected the logic 
        of Flynn, who was involved with the project as well, and also 
        placed particular emphasis on equipping and training most of 
        America's millions of first responders to deal with WMD attacks 
        and other catastrophes. About $90 billion a year.
        <bullet> Israel-style approach. If we had to worry about small 
        bombs going off in most public places, a whole different level 
        of effort would be required, with annual costs perhaps reaching 
        $200 billion (and many inconveniences introduced to daily 
        life).
    This is a very short written testimony but I hope its succinctness 
will be of some use in providing a simple taxonomy for further 
discussion. I would be happy in particular to explain the Brookings 
approach, both in broad philosophy and in its specific recommendations.
    I am attaching as an appendix a chapter in a recent Brookings book 
I coauthored in 2006. I have no reason to believe my coauthor's 
thinking has changed. However, given his current position, please 
assign responsibility for this ``republishing'' of material that first 
appeared a year and a half ago entirely to me.\1\
---------------------------------------------------------------------------
    \1\ Micahel d'Arcy, Michael O'Hanlon, Peter Orszag, Jeremy Shapiro, 
and James Steinberg, Protecting the Homeland 2006/2007 (Washington, 
D.C.: Brookings, 2007), pp. 73-95. ???
---------------------------------------------------------------------------
        Appendix: Protecting Infrastructure and Providing Incentives 
        for the Private Sector to Protect Itself
        Since the attacks of September 11th, the private sector has 
        generally not done nearly enough to improve its security 
        against terrorist attack. For example, the Congressional Budget 
        Office recently concluded that ``there is relatively little 
        evidence that firms have been making additional investments 
        since September 11 to improve their security and avoid 
        losses.'' \2\ About 85 percent of the nation's critical 
        infrastructure is owned by the private sector, and security had 
        typically not been sufficient before the attacks, so the 
        failure to materially improve security measures in many key 
        industries represents one of the most glaring and dangerous 
        shortcomings in the nation's response to the terrorist attacks.
---------------------------------------------------------------------------
    \2\ Congressional Budget Office, ``Federal Terrorism Reinsurance: 
An Update,'' January 2005, page 13. Some industries (such as 
transportation, energy, utilities, and financial services) have 
increased spending modestly. See Benjamin Weiser and Claudia H. 
Deutsch, ``Many Offices Holding the Line on Post-9/11 Security 
Outlays,'' New York Times, August 16, 2004; and the Conference Board, 
Corporate Security Management: Organization and Spending Since 9/11 
(New York: The Conference Board, 2003), p. 5.
---------------------------------------------------------------------------
    The key to improved security in the private sector is structuring 
incentives properly: Markets respond to incentives. But to date, the 
federal government has done little to alter firms' incentives for 
protecting most private sector infrastructure from terrorist attack. 
Apart from efforts to protect those types of infrastructure that have 
already been attacked, such as commercial airliners, the 
Administration's policy has been very restrained. Part of its 
reluctance to intervene may be a reflection of the admittedly daunting 
nature of the task--and the impossibility of knowing exactly which 
types of infrastructure to protect to what standards of robustness. But 
the Administration's laissez-faire approach also risks leaving 
undefended targets within the United States that could nonetheless 
cause catastrophic harm.
    The greatest concerns apply to key pieces of private 
infrastructure--chemical facilities, skyscrapers, other large 
buildings, many hospitals, and so on. Such infrastructure is 
predominately owned by the private sector, but is critical to the 
functioning of our broader society. Protection of the public is not 
always consistent with private incentives in such settings. Given 
existing incentives, economic logic suggests that owners of key 
infrastructure will, from the point of view of the broader public 
interest, underinvest in security precautions.\3\ At present, many 
industries see counterterrorism protection as a costly way to provide 
an uncertain degree of protection against an unlikely threat. There are 
few perceived benefits and many costs to improving security. As Frank 
Cilluffo, former Special Assistant to the President for Homeland 
Security in the Bush administration puts it: ``We need to be able to 
spur [that] investment by providing incentives. Right now, the 
incentives are disincentives.'' \4\
---------------------------------------------------------------------------
    \3\ Peter R. Orszag, ``Homeland Security and the Private Sector,'' 
Testimony before the National Commission on Terrorist Attacks Upon the 
United States, November 19, 2003.
    \4\ Frank Cilluffo, ``The Mission of Homeland Security,'' The NYU 
Review of Law and Security: Are We Safer?, Issue No. 3 (Fall 2004), p. 
38.
---------------------------------------------------------------------------
    Private markets by themselves do not generate sufficient incentives 
for homeland security, and government intervention can therefore be 
warranted, for several reasons. Most broadly, national security is a 
core constitutional responsibility of the federal government. Even if a 
given terrorist attack only affects private property, it can have 
broader ramifications for the country's sense of safety. In the 
terminology of economists, such an attack imposes a ``0negative 
externality.'' The presence of this negative externality means that 
private markets will undertake less investment in security than would 
be socially desirable: Individuals or firms deciding how best to 
protect themselves against terrorism are unlikely to take the external 
costs of an attack fully into account, and therefore will generally 
provide an inefficiently low level of security against terrorism on 
their own.\5\ Without government involvement, private markets will thus 
typically under-invest in anti-terrorism measures.\6\
---------------------------------------------------------------------------
    \5\ It is also possible, at least in theory, for private firms to 
invest too much in anti-terrorism security. In particular, visible 
security measures (such as more uniformed guards) undertaken by one 
firm may merely displace terrorist attacks onto other firms, without 
significantly affecting the overall probability of an attack. In such a 
scenario, the total security precautions undertaken can escalate beyond 
the socially desirable levels--and government intervention could 
theoretically improve matters by placing limits on how much security 
firms would undertake. Unobservable security precautions (which are 
difficult for potential terrorists to detect), on the other hand, do 
not displace vulnerabilities from one firm to another and can at least 
theoretically reduce the overall level of terrorism activity. For an 
interesting application of these ideas to the Lojack automobile 
security system, see Ian Ayres and Steven Levitt, ``Measuring Positive 
Externalities from Unobservable Victim Precaution: An Empirical 
Analysis of Lojack,'' Quarterly Journal of Economics, Vol. 108, no. 1 
(February 1998). For further analysis of evaluating public policy in 
the presence of externalities, see Peter Orszag and Joseph Stiglitz, 
``Optimal Fire Departments: Evaluating Public Policy in the Face of 
Externalities,'' Brookings Institution Working Paper, January 2002.
    \6\ The Coase theorem shows that under very restrictive conditions, 
the negative externality can be corrected by voluntary private actions 
even if the role of government is limited to enforcing property rights. 
But the Coase theorem requires that all affected parties are able to 
negotiate at sufficiently low cost with each other. Since virtually the 
entire nation could be affected indirectly by a terrorist attack, the 
costs of negotiation are prohibitive, making the Coase theorem 
essentially irrelevant in the terrorism context.
---------------------------------------------------------------------------
    Second, a more specific negative externality exists with regard to 
inputs into terrorist activity. For example, loose security at a 
chemical facility can provide terrorists with the materials they need 
for an attack. Similarly, poor security at a biological laboratory can 
provide terrorists with access to dangerous pathogens. The costs of 
allowing terrorists to obtain access to such materials are generally 
not borne by the facilities themselves: the attacks that use the 
materials could occur elsewhere. Such a specific negative externality 
provides a compelling rationale for government intervention to protect 
highly explosive materials, chemicals, and biological pathogens even if 
they are stored in private facilities. In particular, preventing access 
to such materials is likely to reduce the overall risk of catastrophic 
terrorism, as opposed to merely displacing it from one venue to 
another.
    Third, a related type of externality involves ``contamination 
effects.'' Contamination effects arise when a catastrophic risk faced 
by one firm is determined in part by the behavior of others, and the 
behavior of these others affects the incentives of the first firm to 
reduce its exposure to the risk. Such interdependent security problems 
can arise, for example, in network settings. The problem in these 
settings is that the risk to any member of a network depends not only 
on its own security precautions but also on those taken by others. Poor 
security at one establishment can affect security at others. The result 
can often be weakened incentives for security precautions.\7\ For 
example, once a hacker or virus reaches one computer on a network, the 
remaining computers can more easily be contaminated. This possibility 
reduces the incentive for any individual computer operator to protect 
against outside hackers.
---------------------------------------------------------------------------
    \7\ See Howard Kunreuther and Geoffrey Heal, ``Interdependent 
Security,'' Journal of Risk and Uncertainty 26: 231-249 (March/May 
2003), and Howard Kunreuther, Geoffrey Heal, and Peter Orszag, 
``Interdependent Security: Implications for Homeland Security Policy 
and Other Areas,'' Policy Brief #108, Brookings Institution, October 
2002.
---------------------------------------------------------------------------
    Even stringent cyber-security may not be particularly helpful if a 
hacker has already entered the network through a ``weak link.''
    A fourth potential motivation for government intervention involves 
information--in particular, the cost and difficulty of accurately 
evaluating security measures. For example, one reason that governments 
promulgate building codes is that it would be too difficult for each 
individual entering a building to evaluate its structural soundness. 
Since it would also be difficult for the individual to evaluate how 
well the building's air intake system could filter out potential bio-
terrorist attacks, the same logic would suggest that the government 
should set minimum anti-terrorism standards for buildings if there were 
some reasonable threat of a terrorist attack on the relevant type of 
buildings (so that the individual would have some interest in ensuring 
that the building were protected against biological attack). Similarly, 
it would be possible, but inefficient, for each individual to conduct 
extensive biological anti-terrorism safety tests on the food that he or 
she was about to consume. The information costs associated with that 
type of system, however, make it much less attractive than a system of 
government regulation of food safety.
    The fifth justification for government intervention is that 
corporate and individual financial exposures to the losses from a major 
terrorist attack are inherently limited by the bankruptcy laws. For 
example, assume that there are two types of possible terrorist attacks 
on a specific firm: A very severe attack and a somewhat more modest 
one. Under either type of attack, the losses imposed would exceed the 
firm's net assets, and the firm would declare bankruptcy--and therefore 
the extent of the losses beyond that which would bankrupt the firm 
would be irrelevant to the firm's owners. Since the outcome for the 
firm's owners would not depend on the severity of the attack, the firm 
would have little or no incentive to reduce the likelihood of the more 
severe version of the attack even if the required preventive steps were 
relatively inexpensive. From society's perspective, however, such 
security measures may be beneficial--and government intervention can 
therefore be justified to address catastrophic possibilities in the 
presence of the bankruptcy laws.
    The sixth justification for government intervention is that the 
private sector may expect the government to bail it out should a 
terrorist attack occur. The financial assistance to the airline 
industry provided by the government following the September 11th 
attacks provides just one example of such bailouts. Such expectations 
create a ``moral hazard'' problem: private firms, expecting the 
government to bail them out should an attack occur, do not undertake as 
much security as they otherwise would. If the government cannot 
credibly convince the private sector that no bailouts will occur after 
an attack, it may have to intervene before an attack to offset the 
adverse incentives created by the expectation of a bailout.
    The final justification for government intervention involves 
incomplete markets. The most relevant examples involve imperfections in 
capital and insurance markets. For example, if insurance firms are 
unable to obtain reinsurance coverage for terrorism risks (that is, if 
primary insurers are not able to transfer some of the risk from 
terrorism costs to other insurance firms in the reinsurance market), 
some government involvement may be warranted. In addition, certain 
types of activities may require large-scale coordination, which may be 
possible but difficult to achieve without governmental intervention.
    These market shortcomings provide a justification for targeted 
government intervention. But providing a high degree of protection for 
all possible targets would be prohibitively expensive and practically 
impossible. Focusing on high-impact attacks helps to narrow the range 
of private-sector settings in which government intervention is 
warranted.
    When government intervention is needed, the best approach is to use 
government regulation to alter incentives for the private sector for 
better protecting itself. This can be done either by providing firms 
with certain advantages when they adopt appropriate measures (the 
carrot approach), or by imposing costs on those who fail to adopt such 
measures (the stick approach). In both cases, the goal would be the 
same: to introduce a difference in the cost of one activity compared to 
another, accomplished either by reducing the cost of the first activity 
(e.g., an investment in security) or by raising the cost of the second 
activity (e.g., business as usual).
    For example, consider the case of trucking. Truck drivers can be 
subjected to more intensive background searches, and advanced 
technologies can be used to monitor trucks and ensure the security of 
their cargo in real time. The government could directly subsidize such 
steps, for example by providing tax credits to firms that adopt them. 
Or it could mandate insurance for trucking firms, thereby relying on 
insurances firms to impose costs (e.g., through higher premiums) on 
firms that fail to adopt appropriate security measures. The government 
could also combine either of these approaches with some form of 
regulation, such as allowing better protected cargo trucks to travel 
closer to population centers than less protected trucks, thereby 
providing time and money savings to the firms that invest in protecting 
their trucks.
    The key distinction between the ``carrot'' and the ``stick'' 
approaches is who pays. Government subsidies or tax credits spread the 
cost of homeland security spending in a particular private market 
across the entire population, rather than the stakeholders (the owners 
of businesses, the workers, and consumers of the product) in that 
sector itself. The stick approach--either through regulation or 
insurance, or some combination thereof--instead concentrates its costs 
on the stakeholders in that sector. If particular sectors are 
inherently more dangerous than others, we as a society may want to 
encourage activity in other, safer sectors where we have a choice--
which would be better accomplished by having stakeholders in the sector 
bear the full cost of protection. The reason is that imposing the cost 
on the stakeholders rather than the general public would raise the 
costs of the most dangerous activities. The market would thus 
discourage such activities (through higher prices), which would help to 
mitigate the risk of a terrorist attack in the most dangerous sectors.
    Before turning to a discussion of specific industries, we first 
examine these generic approaches to improving security in the private 
sector.

    SUBSIDIES
    Perhaps the most obvious way of strengthening incentives for 
protective measures in the private sector is to provide a government 
subsidy. For example, some policy-makers have proposed tax credits for 
security measures. This approach, however, is generally flawed, and not 
just because of the substantial budget imbalance facing the nation.
    Subsidies or tax credits can encourage unnecessarily expensive 
investments in security measures (or ``gold plating''). The problem is 
particularly severe in the case of investments that provide protection 
against terrorist attack but also have substantial other benefits to 
firms. Even if they don't encourage firms to undertake excessively 
costly investments with minimal homeland security benefits, subsidies 
or tax credits can provide benefits to firms that would have undertaken 
the investments even in the absence of the tax subsidy--raising the 
budget cost without providing any additional security. In other words, 
subsidies or tax credits ``buy out the base'' of what firms are already 
doing to protect themselves against terrorist attack. Subsidies or tax 
credits also do a poor job of differentiating between high-risk and 
lower-risk sectors, yet the degree of government intervention should 
clearly vary by circumstance. In other words, designing and 
implementing subsidies or tax credits is likely to be just as 
cumbersome and inefficient as designing direct regulations.

    INSURANCE AS A MECHANISM FOR IMPROVING INCENTIVES
    An alternative is to provide incentives for better security through 
the insurance system. At first glance, terrorism insurance may seem 
counterproductive: Firms and individuals with insurance against 
terrorist attack would appear to lack incentives to take appropriate 
precautions against an attack. However, where such insurance is 
available, it typically comes with provisions (such as a deductible) to 
ensure that the insured bear at least some of the cost of an attack, 
and thus have an economic incentive to avoid such attacks or minimize 
their consequences. More important, the insurance companies themselves 
have an incentive to encourage risk-reducing activities. Indeed, 
insurance firms are well positioned to provide incentives for 
mitigation efforts--for firms to take steps ahead of time to protect 
themselves against terrorist attack. The terrorism insurance market 
could thus guide protective efforts. Best practices would be encouraged 
through graduated rate structures for insurance that encourage 
individual owners to adopt prudent and cost-effective technologies and 
procedures for protecting their assets and the people within them.
    Three critical questions arise with regard to the use of insurance 
in this way. The first is whether firms will voluntarily purchase the 
insurance. Terrorism insurance coverage among large firms has expanded 
noticeably: take-up rates were quite low in 2003 but nearly doubled in 
2004, reaching almost half of large firms in mid2004.\8\ Despite the 
recent increases, however, take-up of terrorism insurance remains well 
below 100 percent.\9\ In the absence of universal take-up, at least 
among firms that own critical infrastructure, the incentives provided 
by the insurance industry would be much less likely to produce adequate 
risk reduction. Furthermore, voluntary insurance markets often suffer 
from classic problems of ``adverse selection,'' in which firms that are 
riskier are the ones that are more likely to purchase insurance, 
creating a potential spiral of rising premiums and reduced take-up.
---------------------------------------------------------------------------
    \8\ Congressional Budget Office, ``Federal Terrorism Reinsurance: 
An Update,'' January 2005, page 6; and Erwann Michel-Kerjan and 
Burkhard Pedell, ``Terrorism Risk Coverage in the post-9/11 Era: A 
Comparison of Public-Private Partnerships in France, Germany, and the 
U.S,'' Risk Management and Decision Processes Center, Wharton School, 
University of Pennsylvania, Working Paper 2004029, October 2004, page 
22.
    \9\ Some economists argue that many firms should not insure 
themselves against terrorist attack, since the owners of the firm can 
mostly if not entirely diversify that risk. Kent Smetters, ``Insuring 
Against Terrorism: The Policy Challenge,'' NBER Working Paper 11038, 
January 2005.
---------------------------------------------------------------------------
    The shortcomings with voluntary terrorism insurance raise the 
question of whether insurance should be mandatory--at least for large 
firms or key sectors. Mandatory insurance would not only facilitate 
risk-mitigation efforts on a broader scale and allow the insurance 
industry to spread its risks more effectively, but would also reduce 
the likely demands on government following any attack in the 
future.\10\
---------------------------------------------------------------------------
    \10\ Howard Kunreuther and Erwann Michel-Kerjan, ``Policy Watch: 
Challenges for Terrorism Risk Insurance in the United States,'' Journal 
of Economic Perspectives, Volume 18, Number 4, Fall 2004, page 211.
---------------------------------------------------------------------------
    In France, terrorism insurance is mandatory.\11\ Former Deputy 
Homeland Security Adviser Richard Falkenrath has suggested that 
Congress mandate that terrorism insurance be included in all commercial 
insurance policies.\12\ In our view, terrorism insurance should indeed 
be required on all commercial policies, perhaps above some minimum 
threshold of several million dollars to avoid unnecessary 
administrative costs in settings unlikely to cause high-impact 
terrorist damage.
---------------------------------------------------------------------------
    \11\ Erwann Michel-Kerjan and Burkhard Pedell, ``Terrorism Risk 
Coverage in the post-9/11 Era: A Comparison of Public-Private 
Partnerships in France, Germany, and the U.S,'' Risk Management and 
Decision Processes Center, Wharton School, University of Pennsylvania, 
Working Paper 2004029, October 2004.
    \12\ Statement of Richard A. Falkenrath before the United States 
Senate Committee on Homeland Security and Governmental Affairs, January 
26, 2005.
---------------------------------------------------------------------------
    The second question is whether the insurance industry will be able 
to develop the tools for evaluating terrorism risk. Models of terrorism 
risk at the level of zip codes or specific locations are now available 
from firms such as Risk Management Systems, EQECAT, and Applied 
Insurance Research Worldwide.\13\ These models represent significant 
advances; they are, however, inherently limited not only by the paucity 
of historical data on terrorist attacks but also by the difficulties in 
predicting how terrorist behavior will evolve over time. For example, 
one model assumes that risk is mostly concentrated in high visibility 
targets; another assumes that attacks at low visibility targets could 
be employed to sow confusion and broad fears.\14\ The key issue is not 
whether the models are fully reliable; they clearly are not.\15\ 
Instead, the fundamental question is whether the models could become 
good enough to provide the basis for an insurance-oriented approach to 
protective efforts. From this perspective, especially compared to an 
alternative of failing to provide incentives for private efforts or 
relying exclusively on government regulation, the models seem 
relatively insightful. And it should be possible for them to be 
informed by government risk analyses as well. Homeland Security 
Presidential Directive 7 (HSPD 7) requires the Secretary of Homeland 
Security to coordinate national protection efforts in infrastructure 
sectors such as information technology, telecommunications, 
transportation, and the chemical industry, and requires the government 
as a whole to prioritize protection activities.\16\
---------------------------------------------------------------------------
    \13\ Congressional Budget Office, ``Federal Terrorism Reinsurance: 
An Update,'' January 2005, page 4.
    \14\ Congressional Budget Office, ``Federal Terrorism Reinsurance: 
An Update,'' January 2005, page 4.
    \15\ The insurance industry operates in many areas in which models 
are nowhere close to fully reliable, including tort cases. See Kent 
Smetters, ``Insuring Against Terrorism: The Policy Challenge,'' NBER 
Working Paper 11038, January 2005.
    \16\ President George W. Bush, ``Homeland Security Presidential 
Directive/HSPD 7: Critical Infrastructure Identification, 
Prioritization, and Protection,'' December 17, 2003, available at 
www.whitehouse.gov/news/releases/2003/12/print/20031217-5.htlm.
---------------------------------------------------------------------------
    A final question is whether the insurance industry requires a 
government backstop to play the role envisioned for it here. Some 
economists argue that the risks can be spread across private financial 
markets without government intervention.\17\ Other economists and 
market observers, however, argue that capital market imperfections 
impede the ability of insurers to provide coverage against catastrophic 
risks, such as those involved in terrorist activities. In such a case, 
a government backstop may be required. Alan Greenspan, for example, has 
testified that he has ``yet to be convinced'' that the terrorism 
insurance market could operate effectively without a government 
backstop.\18\
---------------------------------------------------------------------------
    \17\ Kent Smetters, ``Insuring Against Terrorism: The Policy 
Challenge,'' NBER Working Paper 11038, January 2005. See also Appendix 
B in Congressional Budget Office, ``Federal Terrorism Reinsurance: An 
Update,'' January 2005.
    \18\ ``Senators Trying Again To Extend Terrorism Insurance Plan,'' 
CongressDaily, February 18, 2005.
---------------------------------------------------------------------------
    The most pressing issue involves the Terrorism Risk Insurance Act 
(TRIA), enacted in November 2002. TRIA is scheduled to expire on 
December 31, 2005, and policymakers are debating whether it should be 
extended. Under TRIA, insurance firms are required to offer terrorism 
coverage, and the government agrees to pay a specified share of the 
insured losses in the event of a terrorist attack.\19\ Although some 
form of federal backstop should be extended past 2005, significant 
changes in the existing program are warranted.\20\ A substantial flaw 
with the current program is that no fee is imposed by the government 
for the backstop. (The government would recover a certain amount of its 
losses after the fact, but through a surcharge on all commercial 
policies, rather than only on those with terrorism insurance 
components. As a result, the government program effectively subsidizes 
terrorism insurance, with all commercial policyholders potentially 
liable to pay for part of the subsidy.) A better approach would have 
the government charge a premium based on how much protection the 
insurance firm itself wants; the government should continue, though, 
only to provide coverage against extreme losses.\21\ Losses below the 
catastrophic level should be covered entirely by private markets.
---------------------------------------------------------------------------
    \19\ For a description, see Congressional Budget Office, ``Federal 
Terrorism Reinsurance: An Update,'' January 2005.
    \20\ See also Swiss Re, ``Terrorism Risks in Property Insurance and 
Their Insurability After September 11, 2001'' (2003).
    \21\ For one explanation of how various layers of insurance could 
be provided, including a government layer for catastrophic losses, see 
Howard Kunreuther and Erwann Michel-Kerjan, ``Policy Watch: Challenges 
for Terrorism Risk Insurance in the United States,'' Journal of 
Economic Perspectives, Volume 18, Number 4, Fall 2004.

A MIXED SYSTEM WITH INSURANCE AND REGULATIONS
    An insurance-based system could be combined with a larger policy of 
regulatory standards and third-party inspections. A mixed regulatory-
insurance system is already applied in many other areas, such as owning 
a home or driving a car. Local building codes specify minimum standards 
that homes must meet. But mortgages generally require that homes also 
carry home insurance, and insurance companies provide incentives for 
improvements beyond the building code level--for example, by providing 
a reduction in the premiums they charge if the homeowner installs a 
security system. Similarly, governments specify minimum standards that 
drivers must meet in order to operate a motor vehicle. But they also 
require drivers to carry liability insurance for accidents arising out 
of the operation of their vehicles. Meanwhile, insurance companies 
provide incentives for safer driving by charging higher premiums to 
those with poorer driving records.\22\
---------------------------------------------------------------------------
    \22\ To be sure, crucial differences exist between the terrorist 
case and these other examples. For example, stable actuarial data exist 
for home and auto accidents, but not for terrorist attacks. 
Nonetheless, it may be possible for insurers to distinguish risks of 
loss based on differences in damage exposures, given a terrorist 
incident. Some financial firms are already trying to devise basic 
frameworks for evaluating such risks. See, for example, Moody's 
Investors Service, ``Moody's Approach to Terrorism Insurance for U.S. 
Commercial Real Estate,'' March 1, 2002.
---------------------------------------------------------------------------
    A mixed system of minimum standards coupled with an insurance 
mandate not only can encourage actors to act safely, but also can 
provide incentives for innovation to reduce the costs of achieving any 
given level of safety. The presence of minimum regulatory standards 
also helps to attenuate the moral hazard effect from insurance: Moral 
hazard arises when firms, knowing that they are insured against 
terrorist losses, take less care in protecting against attack. Minimum 
standards could also provide guidance to courts in determining 
negligence under liability laws.\23\
---------------------------------------------------------------------------
    \23\ For a discussion of the potential benefits of a mixed system 
of building code regulations and mandatory catastrophic risk insurance 
in the context of natural disasters, see Peter Diamond, ``Comment on 
Catastrophic Risk Management,'' in Kenneth Froot, ed., The Financing of 
Catastrophe Risk (University of Chicago Press: Chicago, 1999), pages 
85-88.
---------------------------------------------------------------------------
    A mixed system also has the advantage of being flexible, a key 
virtue in an arena where new threats will be ``discovered'' on an 
ongoing basis. In situations in which insurance firms are particularly 
unlikely to provide proper incentives to the private sector for 
efficient risk reduction (for example, because insurers lack experience 
in these areas), regulation can play a larger role.
    Third-party inspections can be coupled with insurance protection to 
encourage companies to reduce the risk of accidents and disasters. 
Under such schemes, insurance corporations would hire third-party 
inspectors to evaluate the safety and security of plants seeking 
insurance cover. Passing the inspection would indicate to the community 
and government that a firm complies with safety and security 
regulations. The firm would also benefit from reduced insurance 
premiums, since the insurer would have more confidence in the safety 
and security of the firm.
    This system takes advantage of two potent market mechanisms to make 
firms safer, while freeing government resources to focus on the largest 
risks. Insurance firms have a strong incentive to make sure that the 
inspections are rigorous and that the inspected firms are safe, since 
they bear the costs of an accident or terrorist attack. Private sector 
inspections also reduce the number of audits the regulatory agency 
itself must undertake, allowing the government to focus its resources 
more effectively on those companies that it perceives to pose the 
highest risks. The more firms decide to take advantage of private 
third-party inspections, the greater the chances that high-risk firms 
will be audited by the regulatory agency.
    Studies have shown how such a program could be implemented in 
practice. In Delaware and Pennsylvania, the State Departments of 
Environmental Protection have worked closely with the insurance 
industry and chemical plants to test this approach for chemical 
facility safety.\24\
---------------------------------------------------------------------------
    \24\ For further information, see Howard Kunreuther, Patrick 
McNulty, and Yong Kang, ``Improving Environmental Safety Through Third 
Party Inspection,'' Risk Analysis. 22: 309-18, 2002.

REQUIRED STEPS IN SPECIFIC INDUSTRIES AND SECTORS
    The steps required to improve security vary across industries. In 
keeping with the principles we set forth in chapter one, it is 
important to find ways to maximize protection, particularly against 
catastrophic attack, in cost-effective ways and where possible in a 
manner that provides additional benefits outside the homeland security 
realm. But applying these principles to specific industries and sectors 
requires considerable detailed technical analysis on a case by case 
basis.
    One common theme in much of the below, however, is that appropriate 
safeguards are often expensive to implement immediately but relatively 
painless to build into new systems. For example, given that al-Qa'ida 
appears to have considerable interest in biological agent attacks, and 
given the continued difficulty of treating the symptoms of biological 
attacks quickly and effectively (especially on a large scale), it 
behooves the United States to adopt defensive measures where cost-
effective.\25\ Air intakes on buildings can be put well above street 
level and beyond the reach of anyone without access to restricted 
areas.\26\ Filters might be built into air circulation systems, to 
impede the distribution of any chemical or biological agent introduced 
into a building (and a slight overpressure maintained within buildings 
to reduce the risk that agents will infiltrate from the outside).\27\ 
Addition of filters may sometimes only be practical when entire 
heating, ventilation, and air conditioning systems are being 
replaced.\28\ Still, over time, considerable progress is quite 
feasible. Many modern heating and air circulation systems have the 
kinds of sensors, adaptable flows, and other features that could help 
protect against the effects of terrorist attack as well as optimize a 
building's functioning and the quality of its air in normal times.\29\ 
This shows how measures taken in part to promote homeland security can 
have other benefits.
---------------------------------------------------------------------------
    \25\ Judith Miller, ``U.S. Has New Concerns About Anthrax 
Readiness,'' New York Times, December 28, 2003, p. A20; and Philip 
Shenon, ``Terrorism Drills Showed Lack of Preparedness, Report Says,'' 
New York Times, December 19, 2003.
    \26\ Gregory Wright, ``Is Your Building's HVAC Safe Against 
Terrorism?'' HVACR News, vol. 24, no. 2 (May 2004).
    \27\ U.S. Army Corps of Engineers, ``Protecting Buildings and Their 
Occupants from Airborne Hazards,'' draft, October 2001; Energy 
Information Administration, Department of Energy, ``Building 
Characteristics: Buildings Use Tables,'' table 12, available at 
www.eia.doe.gov/emeu/consumption; Letter from Michael C. Janus, 
Battelle Corporation, December 1, 2001, to Michael O'Hanlon; and Ann 
Gerhart, ``Tom Ridge, on High Alert,'' Washington Post, November 12, 
2001, p. C1.
    \28\ Department of Health and Human Services, Guidance for 
Protecting Building Environments from Airborne Chemical, Biological, or 
Radiological Attacks (May 2002);
    \29\ Jon C. Lund, ``Smart Buildings,'' IEEE Spectrum (August 2003), 
pp. 18-23.
---------------------------------------------------------------------------
    Protecting key buildings against attacks involving explosives is 
difficult, but sometimes warranted when high casualties or other severe 
damage to society could result from a given attack (and when any attack 
is probably preventable through reasonably inexpensive measures). 
Sometimes it is a matter of adopting simple steps of limited but useful 
impact. For example, elevators might be built so as to descend to the 
nearest floor in the event of a power outage--a wise investment against 
the possibility of electricity overloading as well. (In the public 
sector, relatedly, street lights could be given low-energy diode 
emitters powered by batteries as backups to main power systems.\30\)
---------------------------------------------------------------------------
    \30\ Peter Fairley, ``The Unruly Power Grid,'' IEEE Spectrum 
(August 2004), pp. 22-27.
---------------------------------------------------------------------------
    Truck bombs will remain a threat in the future; they have been the 
weapon of choice of al-Qa'ida in most attacks since 9/11. Defending 
against them can involve constructing new, prominent buildings a 
certain distance back from streets--as has occurred with a number of 
new U.S. embassies in recent years. Further desirable measures, at 
least for the highest-profile buildings, can involve using shatterproof 
glass or comparable coatings in the lower floors of such buildings, and 
closing or at least inspecting entrants into underground parking 
garages. Relatedly, one might worry about large bombs being assembled 
piece by piece through the use of individual bags to carry explosives 
into buildings. This threat may argue for controlling access to 
symbolically important buildings in particular. At present, outside of 
New York, very few major buildings have any checks or controls on 
entry.\31\
---------------------------------------------------------------------------
    \31\ Terry Pristin, ``Different Cities, Different Security for 
Buildings,'' New York Times, July 9, 2003, p. C6.

The Chemical and Nuclear Industries
    The U.S. chemical industry remains quite vulnerable to possible 
terrorist strikes.\32\ As Richard Falkenrath recently testified, ``To 
date, the federal government has made no material reduction in the 
inherent vulnerability of hazardous chemical targets inside the Untied 
States. Doing so should be the highest critical infrastructure 
protection priority for the Department of Homeland Security in the next 
two years.'' \33\ A DHS study that ranked a terrorist act releasing 
chlorine, along with nuclear and anthrax attacks, as among the most 
deadly plausible scenarios for the United States to worry about in the 
future gives further credence to Falkenrath's view.\34\ As we argue in 
chapter one, it is precisely such types of vulnerabilities that demand 
the most urgent attention.
---------------------------------------------------------------------------
    \32\ For further discussion of homeland security and the chemical 
industry, see Congressional Budget Office, ``Homeland Security and the 
Private Sector,'' Chapter 3 (Chemicals and Hazardous Materials), 
December 2004.
    \33\ Statement of Richard A. Falkenrath before the United States 
Senate Committee on Homeland Security and Governmental Affairs, January 
26, 2005.
    \34\ Eric Lipton, ``U.S. Report Lists Possibilities for Terrorist 
Attacks and Likely Toll,'' New York Times, March 16, 2005, p. 1.
---------------------------------------------------------------------------
    Voluntary measures have been adopted by some chemical plants, 
notably those of the American Chemistry Council, but these represent a 
minority of the nation's total such facilities. Hardening plants 
against sophisticated attacks by well-trained bands of terrorists, and 
other such robust safeguards, could be uneconomical and in many cases 
unnecessary. There are thousands of chemicals produced in the United 
States, but only some 300 that are very dangerous and about half that 
number that are most extreme in the threats they pose. There are tens 
of thousands of chemical plants but only 4,000 to 8,000 where the 
improper release of agent could kill 1,000 or more individuals.\35\ But 
a more systematic approach that at least requires periodic assessments 
of vulnerabilities and common-sense solutions is imperative.\36\ 
Senator Corzine introduced a bill to do just that but it has not been 
passed by the Congress.\37\
---------------------------------------------------------------------------
    \35\ Richard D. Farmer, Homeland Security and the Private Sector 
(Washington, D.C.: Congressional Budget Office, December 2004), pp. 
21--28.
    \36\ Government Accountability Office, Homeland Security: Voluntary 
Initiatives Are Under Way at Chemical Facilities, but the Extent of 
Security Preparedness Is Unknown, GAO-03-439 (March 2003), summary 
page.
    \37\ Office of Senator Jon S. Corzine, ``Fact Sheet on Senator 
Corzine's Chemical Security Legislation,'' November 17, 2003, available 
at www.corzine.senate.gov/priorities/chem _sec.html; and Rick Hind and 
David Halperin, ``Lots of Chemicals, Little Reaction,'' New York Times, 
September 22, 2004, p. A31.
---------------------------------------------------------------------------
    There are also situations where less dangerous chemicals can be 
used in place of highly toxic ones. Reducing dependence on chlorine for 
drinking water purification is the most notable example. In these 
cases, the good sense of chemical plant owners combined with the 
guiding hand of the insurance market are the ideal mechanisms for 
improving safety.\38\
---------------------------------------------------------------------------
    \38\ A related topic concerns the safeguards applied to the sales 
of certain lethal chemicals. Not enough has yet been done to ensure 
proper oversight in this regard. For example, a full decade after the 
Oklahoma City tragedy, only three states have notable regulations on 
the sale of ammonium nitrate fertilizer. Oklahoma joined South Carolina 
and Nevada in requiring requiring presentation of identification from 
anyone wishing such fertilizer and tracking sales of such materials to 
allow for investigation of any problems that may result. Others should 
follow this lead. In such cases where simple, common-sense, minimal-
cost regulations can be devised, they are hardly inconsistent with the 
general approach advocated here of using market incentives where 
possible but mixed approaches including some regulation when sensible. 
See Associated Press, ``National Briefing--Oklahoma: Rules to Regulate 
Selling of Fertilizer,'' New York Times, February 18, 2005, p. A17.
---------------------------------------------------------------------------
    Another key challenge is securing nuclear materials.\39\ Power 
plants are now protected fairly well. But the cooling ponds used for 
storage of spent fuel may not be protected against certain types of 
attacks (such as from airplanes).\40\ Nor are many areas where low-
medium-grade waste is stored. These latter materials can be used in 
``dirty bombs.'' While such weapons might not kill large numbers, they 
could cause enormous economic costs (due to cleanup) and disruption (if 
a city center or other important area could not be used while being 
cleaned). Here the most practical defense is much improved security for 
sites where such materials are found, at home and abroad.\41\ In this 
type of case, where the optimal safety features are not obvious, 
regulation may be less desirable than reliance on insurance market 
incentives.
---------------------------------------------------------------------------
    \39\ See Congressional Budget Office, ``Homeland Security and the 
Private Sector,'' Chapter 2 (Civilian Nuclear Power), December 2004.
    \40\ Shankar Vedantam, ``Storage of Nuclear Spent Fuel 
Criticized,'' Washington Post, March 28, 2005, p. 1.
    \41\ Peter D. Zimmerman and Cheryl Loeb, ``Dirty Bombs: The Threat 
Revisited,'' Defense Horizons, no. 38 (Washington, D.C.: National 
Defense University, January 2004); and Joby Warrick, ``Smugglers 
Targeting Dirty Bombs for Profit,'' Washington Post, November 30, 2003, 
p. 1.

    Passenger Trains, Buses, and Boats
    On March 11, 2004, a simple terrorist strike against trains in 
Madrid killed some 200 people and injured another 1,500. The July 7, 
2005 London attacks, killing more than 50 themselves, underscored that 
Madrid was not a fluke. This worry applies not only to trains, but in 
similar ways to buses, ferries, and cruise ships. Yet not nearly as 
much attention has been given to this issue as, for example, to 
airplane security.\42\
---------------------------------------------------------------------------
    \42\ Arnold M. Howitt and Jonathan Makler, ``On the Ground: 
Protecting America's Roads and Transit Against Terrorism,'' 
(Washington, D.C.: Brookings, 2005).
---------------------------------------------------------------------------
    Several experimental efforts have been made to monitor passengers 
and cargo entering American trains. However, such efforts tend to rely 
heavily on labor-intensive methods such dogs to detect explosives. The 
challenge is the speed at which people must move through such stations, 
and the number of passengers involved, particularly for heavily 
traveled local train services and subways.\43\ For example, the New 
York subway system carries nearly 4 million passengers a day (getting 
on and off at 468 stations); all America's airports handle just 1.5 
million people a day between them.\44\
---------------------------------------------------------------------------
    \43\ Baronet Media Ltd., ``Washington Tests High Security System 
for Trains,'' Vigilo Risk, issue #1, June 9, 2004, p. 7.
    \44\ Gregg Easterbrook, ``In an Age of Terror, Safety Is 
Relative,'' New York Times, June 27, 2004, p. 1.
---------------------------------------------------------------------------
    Some additional safeguards are desirable for trains and buses. 
Emergency communications systems can be improved, stations protected by 
perimeter fencing and guards and monitoring, relevant tunnels hardened, 
and spot checking made more common. Further federal funding is 
appropriate here; insurance markets are unlikely to be of much help 
since much train infrastructure is publicly owned.\45\ The American 
Public Transportation Association has called for over $7 billion in 
added funding for mass transit systems including trains over the next 
three years--thirty times the expenditures of the last three years 
combined.\46\ Indeed, there is a strong case for substantial funding 
increases.\47\
---------------------------------------------------------------------------
    \45\ Baronet Media Ltd., ``House Committee Seeks $1 Billion for 
U.S. Rail Security,'' Vigilo Risk, issue #2, June 23, 2004, p. 7.
    \46\ David Randall Peterman, ``Passenger Rail Security: Overview of 
Issues,'' CRS Report for Congress (Washington, D.C.: Congressional 
Research Service, July 29, 2005), pp. 2--3.
    \47\ Nicole Gaouette, ``Senate is Split on Spending Bill for 
Domestic Security,'' Los Angeles Times, July 12, 2005.
---------------------------------------------------------------------------
    But the $7 billion added amount strikes us as too much. More 
logical is a gradual, incremental increase that continually evaluates 
the benefits of new and experimental measures as they are introduced. 
The fact of the matter is that, almost independent of expenditure 
levels, security will not be perfect on trains and buses. Controlling 
access of all passengers at all times seems unrealistic.
    Tightened security measures can be used for special events or in 
the case of intelligence alerts suggesting particular cause for 
concern. For example, police officers were put on every subway train in 
New York the day after the July 7, 2005 London bombings.\48\ But alas 
this vulnerability is one of those so difficult to address that it 
underscores the need for preventive homeland security activities-border 
patrols, prevention efforts by police departments and the FBI, and so 
forth--as well as continued intelligence operations and offensive 
action abroad.
---------------------------------------------------------------------------
    \48\ Sewell Chan, ``In Added Security Measure, Officers are Riding 
the Rails,'' New York Times, July 8, 2005.
---------------------------------------------------------------------------
    A Democratic attempt to add $1.7 billion to the 2006 budget for 
rail security failed in the Congress.\49\ The Democratic idea was sound 
but the amount was, for the reasons noted above, probably too much. 
That said, an increase in the range of hundreds of millions of dollars 
would have been appropriate, and should be pursued for the 2007 budget.
---------------------------------------------------------------------------
    \49\ David Rogers, ``Homeland Budget Accord Is Reached,'' Wall 
Street Journal, September 30, 2005, p. 2.
---------------------------------------------------------------------------
    The situation is similar for passenger ships and ferries. Some 
improvements in security are warranted, but that said, vulnerability is 
a fact of life.\50\ Given that most such attacks, however tragic they 
might be, would not be catastrophic in the terms we use in chapter one, 
a cost-benefit analysis--and the state of available technology and 
procedures for security--suggest that only limited investments of the 
type already underway are warranted at this time.\51\
---------------------------------------------------------------------------
    \50\ In addition to the threat of explosives being placed in cars, 
or planted directly on ferries and other ships, there is a risk of 
scuba divers attacking ships. See Jim Gomez, ``Terror Plots May Reach 
New Depths,'' Chicago Tribune, March 18, 2005. Sometimes certain risky 
ports or waterways can be avoided overseas, but clearly this is not a 
protection method of complete reliability. See David Wood, ``Terrorism 
Fears Divert Navy Supply Ships from Suez Canal,'' Newhouse.com, January 
13, 2005.
    \51\ Eric Lipton, ``Trying to Keep the Nation's Ferries Safe from 
Terrorists,'' New York Times, March 19, 2005, p. 18.

Cargo Trains, Trucks, and Barges Carrying Hazardous Materials
    Trucks, trains, and barges are the chief methods for the transport 
of hazardous materials in the United States today. On the issue of 
trucks, at present there are few restrictions on who can drive the 
trucks and where those trucks can go--except of course that as a matter 
of public safety, tunnels and certain other very specific sections of 
road are sometimes deemed off limits to certain classes of highly toxic 
or flammable materials. Background checks have been begun for drivers 
of especially dangerous classes of chemicals and other substances. But 
efforts to authenticate their identities using identification with 
biometric indicators remain in the pilot, testing stage.\52\ Moreover, 
Mexican and Canadian drivers on American roads are not being checked in 
the same way.\53\ Some municipalities have similarly decided to find 
substitutes for the most lethal sorts of chemicals often carried by 
trucks (such as chlorine) when possible. Some companies train their 
employees in security precautions and monitor key facilities such as 
fuel depots. But these efforts are at present scattershot.\54\
---------------------------------------------------------------------------
    \52\ William H. Robinson, Jennifer E. Lake, and Lisa M. Seghetti, 
``Border and Transportation Security: Possible New Directions and 
Policy Options,'' CRS Report for Congress (Washington, D.C.: 
Congressional Research Service, March 29, 2005), pp. 9--10.
    \53\ Transportation Security Administration, information at 
www.tsa.gov/public/display?content=09000519800d3fd3&print=yes, accessed 
January 6, 2005.
    \54\ See David Johnston and Andrew C. Revkin, ``Officials Say Their 
Focus Is on Car and Truck Bombs,'' New York Times, August 2, 2004, p. 
A13.
---------------------------------------------------------------------------
    This situation is highly imprudent. Leaving aside the issue of 
truck bombs, many trucks carry potentially lethal materials that could 
kill thousands if dissipated in densely congested parts of cities. To 
reduce the risks, several steps can be taken. First, for those drivers 
transporting anything from gasoline to chlorine, background checks must 
be done comprehensively and quickly. Names and fingerprints must be 
compared to entries on terror watchlists. Second, truck storage yards 
must meet minimal safety standards limiting access and monitoring 
perimeters. Third, safety features should be used on the doors of 
relevant trucks--reducing the odds that dangerous materials would be 
stolen for subsequent use in a terrorist attack. Given the danger of 
the materials involved, not just to the drivers of the trucks and 
others directly involved but to society on the whole, minimal safety 
standards are important enough to be done by regulation rather than 
relying entirely on the insurance markets.
    As an additional precaution, trucks carrying certain highly toxic 
substances should be banned from the most central parts of cities--
unless escorted by security and outfitted with tracking technology as 
well as automatic braking technology.\55\ Economic incentives would 
thus come into play, with firms measuring the costs of protective 
technology against the economic benefits of being granted greater 
access to densely populated regions.
---------------------------------------------------------------------------
    \55\ Flynn, America the Vulnerable, pp. 118--122.
---------------------------------------------------------------------------
    The chlorine gas tragedy in South Carolina in January of 2005 
underscored the need for upgrades to security in this realm as well. 
Several types of improvements are needed. As the South Carolina 
accident underscored, both would have benefits for general public 
health beyond the subject of counterterrorism, reducing the risks of 
routine accidents. Since it is a dual-benefit program, it serves one of 
main goals we suggest in chapter one for guiding future homeland 
security efforts.
    When substitution of dangerous chemicals by safer chemicals cannot 
happen, specific trains should be rerouted away from the centers of 
cities when necessary and practical. In early 2005, the District of 
Columbia prohibited shipments of hazardous materials through parts of 
the nation's capital. A more systematic national effort is appropriate 
as well.\56\ (The most lethal substances should be banned outright from 
city centers; others could be permitted, as noted above, when companies 
adopt best practices on safety such as automatic tracking and braking 
technology on their trucks.)
---------------------------------------------------------------------------
    \56\ Eric M. Weiss and Spencer S. Hsu. ``90-Day Hazmat Ban Is 
Passed; Measure Will bar Shipments in DC.'' Washington Post, February 
2, 2005, p. B1.
---------------------------------------------------------------------------
    Finally, safety standards should be enforced. For example, it 
should not be tolerated that half of the nation's 60,000 train cars 
frequently carrying poisonous gases are obsolete or otherwise in poor 
shape.\57\ This recommendation complements the first, since it is 
easier to improve safety on a smaller number of trains.\58\
---------------------------------------------------------------------------
    \57\ Walt Bogdanich and Christopher Drew, ``Deadly Leak Underscores 
Concerns About Rail Safety.'' New York Times, January 9, 2005, p. 1.
    \58\ Sara Kehaulani Goo, ``Accidents Spur New Focus on Securing 
U.S. Raily System,'' Washington Post. Janaury 29, 2005.

The Food and Water Industries
    Other areas where not enough has been done to prevent attacks are 
the food industry and the country's water infrastructure.
    In regard to food, the case for doing more can be debated. There 
are no known cases of al-Qa'ida or affiliates attacking the food 
supply, but that hardly means that an organization that has already 
proved itself innovative will not attack it in the future. And certain 
types of attacks, such as a small amount of botulism toxin poured into 
a milk truck leaving a farm could literally cause tens if not hundreds 
of thousands of deaths.\59\ Thus, if simple and economical measures 
that bring other benefits beyond the counterterrorism domain can be 
identified, they should be seriously considered.
---------------------------------------------------------------------------
    \59\ Rick Weiss, ``Report Warns of Threat to Milk Supply,'' 
Washington Post, June 29, 2005, p. A8.
---------------------------------------------------------------------------
    As he left the Bush administration, former Secretary of Health and 
Human Services Tommy Thompson said the worries ``every single night'' 
about large-scale food poisoning.\60\ But infrastructure for monitoring 
food supplies and quickly detecting any signs of contamination is 
insufficient. Some additional funding has been added for food safety 
investigators and laboratories to check for deliberate contamination. 
But no demands have been placed on the nation's 50,000+ food processing 
sites to improve site security. Some voluntary measures have been 
adopted by the industry--and FDA and USDA have preferred to keep them 
voluntary to avoid collecting data that could later be made available 
due to Freedom of Information Act requests. But these have been 
spotty.\61\
---------------------------------------------------------------------------
    \60\ Mike Allen, ``Rumsfeld to Remain at Pentagon; Thompson Quits 
at HHS, Warns of Vulnerabilities,'' Washington Post, December 4, 2004, 
p. A1.
    \61\ General Accounting Office, Food-Processing Security, GAO-03-
342 (February 2003), pp. 1--7.
---------------------------------------------------------------------------
    Requiring sites such as food processing centers to carry terrorism 
insurance (against any liability for poisoning that occurs on their 
premises) may provide the simplest and soundest means of addressing 
this vulnerability in a cost-effective way. At a minimum, it could lead 
to more uniform adaptation of commonsense protective measures such as 
more systematic patrolling and monitoring of the perimeters of 
facilities.
    As suggested by the Democratic members of the House Select 
Committee on Homeland Security, each state or region should also have 
the ability to quickly test foods for a wide range of possible 
contaminants. This can allow spot checking of food under normal 
circumstances, and prompt efforts to contain the consequences of any 
attack should one occur.
    As for water, it is extremely difficult to contaminate large water 
systems because of the amount of material needed for lethal doses. That 
means that protecting drinking water reservoirs, for example, need not 
extend to the level of providing complete assurance that no person on 
foot is ever near a reservoir at any time. Protective systems that keep 
trucks away from such reservoirs, and monitor foot traffic well enough 
to ensure that substantial numbers of people are not able to gain entry 
to a reservoir, would generally suffice. And as for the chemical 
treatment facilities, these can be viewed largely as any other chemical 
plant--with risk, and appropriate security measures, determined by the 
nature of the chemicals in use. To the extent chlorine is employed, 
that implies a reasonably high level of protection, but nothing beyond 
the scale of what would be properly applied to many other facilities in 
the chemical industry.\62\
---------------------------------------------------------------------------
    \62\ Government Accountability Office, Homeland Security: Agency 
Plans, Implementation, and Challenges Regarding the National Strategy 
for Homeland Security, GAO-05-33 (January 2005), pp. 84--93.
---------------------------------------------------------------------------
    A second problem with water concerns the potential for attacks on 
dams to flood metropolitan areas and create conditions not unlike those 
produced by Hurricane Katrina--though this time without the warning. 
Risk assessments have been completed for the nation's major dams.\63\ 
The amount of high explosive needed to destroy most of them, together 
with improved site security near most, limit the likely danger 
associated with this type of terrorist scenario. But they do not 
eliminate the risk entirely by any means. At a minimum, this worry is 
further reason for the nation to digest fully the lessons of Katrina--
and figure out how to mount large-scale responses to such catastrophes 
within hours rather than days. This observation has implications for 
many agencies, including NORTHCOM. The military should not be the lead 
responder to the vast majority of natural disasters or terrorist 
strikes, in terms of leading any effort. But leaving aside such issues, 
as well as the question of whether posse comitatus should be modified, 
the U.S. armed forces have physical capacities rivaled by no other 
national institution and at a minimum need to be better prepared to 
organize and deploy them fast in future crises.
---------------------------------------------------------------------------
    \63\ Claudia Copeland and Betsy Cody, ``Terrorism and Security 
Issues Facing the Water Infrastructure Sector,'' in Russell Howard, 
James Forest, and Joanne Moore, eds., Homeland Security and Terrorism 
(New York: McGraw Hill, 2006), p. 200.

Energy Infrastructure
    It will not always be possible to know what infrastructure to 
protect and what not to protect--until after the fact. Take for example 
the Alyeska Pipeline in Alaska (or any other oil pipeline). It is 
possible to use a rifle to disrupt the flow of oil, and in fact that 
has happened before (though in an act closer to vandalism or 
hooliganism than terrorism). Pipelines are of course attacked in 
Colombia, Iraq, and elsewhere so this threat is hardly implausible. 
That said, taking steps to try to prevent such attacks would clearly be 
very difficult in some places, short of setting up dense security 
perimeters (or burying the pipelines). Moreover, attacks on oil 
pipelines would be unlikely to cause the loss of any human life. This 
is the type of threat that should be in a second or even third tier of 
importance.\64\ Some measures such as protecting choke points, ensuring 
capacity for quick shutdown of damaged pipes, and protecting the 
pumping stations (and key electronics) of pipeline systems are 
warranted, but comprehensive protection is not.\65\
---------------------------------------------------------------------------
    \64\ See for example, Andrea R. Mihailescu, ``Alaska's Vulnerable 
Oil Pipeline,'' Jane's Terrorism and Security Monitor, September 1, 
2004.
    \65\ One area where it behooves the United States to establish 
improved vigilance is in the vulnerability of power, communications, 
transportation, and water infrastructure to electromagnetic pulse from 
a high-altitude nuclear detonation. Terrorists are unlikely to carry 
out such an attack, but a nation-state could, and the nature of the 
preparation against such an attack is akin to homeland security 
activities so worthy of brief mention here. Protecting all electronics 
from such an attack is impractical (and modern electronic systems, with 
their low power requirements and low voltage tolerances, are inherently 
more vulnerable to such attacks than were vacuum tubes). But the 
country's infrastructure should not be allowed to fail catastrophically 
after such an attack; the period of recovery could last many months, 
during which time the country would have function like a premodern 
society. Devising protections to key nodes of major infrastructure is 
estimated to cost about one to three percent of total system cost, if 
done when a system is first being built. But retrofitting protections 
onto existing equipment might be an order of magnitude more expensive, 
implying costs reaching well into the tens of billions of dollars. This 
suggests a two-track approach to protection, redressing glaring 
vulnerabilities where feasible in the short term (that is, hardening 
key electronics used by major infrastructure, or purchasing backup 
systems), while planning to gradually eliminate other vulnerabilities 
as infrastructure is modernized in the coming years. See 65 Commission 
to Assess the Threat to the United States from Electromagnetic Pulse 
(EMP) Attack, Report of the Commission to Assess the Threat to the 
United States from Electromagnetic Pulse (EMP) Attack, Volume I: 
Executive Report (2004), available at www.iwar.org.uk/iwar/resources/
emp/04-0722emp.pdf, accessed February 17, 2005; and Testimony of Frank 
Gaffney before the House Committee on the Budget, U.S. Congress, 
February 16, 2005.
---------------------------------------------------------------------------
    To take another energy example, of greater concern given the 
potential loss of life involved in any attack, Boston is the only major 
city in the United States to have a liquid natural gas terminal nearby. 
(Explosions of such tankers could cause structural damage to buildings 
a third of a mile away and burn the skin of people a mile away.\66\ ) 
Tankers were not allowed to come into Boston harbor to service this 
terminal during the 2004 Democratic convention, suggesting that there 
is a real basis to worry about a possible attack. But has the danger 
really passed now that the convention is over? This question suggests 
that it would be prudent to move the terminal--if not immediately, then 
at least when a major renovation would be needed on the existing 
infrastructure.\67\
---------------------------------------------------------------------------
    \66\ Justin Blum, ``Report Assesses Risks of Attack on Tankers,'' 
Washington Post, December 22, 2004, p. E1.
    \67\ Associated Press, ``Collins Suicide Attack Warning,'' Lloyd's 
List, July 5, 2004, p. 12.

Skyscrapers, Major Buildings and Other Structures
    In the United States, most large buildings, famous public 
facilities, sports stadiums, concert halls, and shopping malls are open 
to the public--and thus to terrorists armed with explosives, chemicals, 
or biological pathogens. Most such structures lack the types of filters 
that could clean up contamination that gets inside. Few buildings have 
the types of air circulation systems that reduce the danger of such 
contamination in the first place. And few have common-sense protections 
against the kinds of car and truck bombs that al-Qa'ida continues to 
employ with frequency and effectiveness around the world even in the 
post-9/11 era.
    The degree of appropriate protection depends clearly on the nature 
of the potential target. For the nation's 500 skyscrapers, 250 largest 
arenas and stadiums, large train stations and airports, and any other 
locations where many thousands of people gather in confined spaces, 
special efforts are required when practical. New buildings might even 
be built a certain distance back from streets (as is the case with many 
U.S. embassies today), tougher structural building codes employed, and 
parking garages kept physically separate from buildings. But these 
sorts of sweeping measures are clearly not practical for all cases.\68\
---------------------------------------------------------------------------
    \68\ See Protecting the American Homeland, pp. 54--56.
---------------------------------------------------------------------------
    Existing structures can be equipped with shatterproof glass in 
lower floors. Vehicles entering their parking garages can be searched 
and in some cases restricted in their movements. When air circulation 
systems are renovated, their intakes should be moved above street level 
and monitored. Reverse pressure air systems and good filters are among 
the other options. Again, insurance markets can help incentivize owners 
to adopt such measures.\69\
---------------------------------------------------------------------------
    \69\ See Eric Lipton and James Glanz, ``New Rules Proposed to Help 
High-Rises Withstand Attacks,'' New York Times, March 6, 2002, p. A1; 
Letter from Michael C. Janus, Battelle Corporation, December 1, 2001, 
to Michael O'Hanlon; Ann Gerhart, ``Tom Ridge, on High Alert,'' 
Washington Post, November 12, 2001, p. C1; and Statement of Arden 
Bement, Director, National Institute of Standards and Technology, 
Hearing before the Committee on Science, U.S. House of Representatives, 
107 Cong. 2 sess. (March 6, 2002).
---------------------------------------------------------------------------
CONCLUSION
    The number of sites that might be targeted in the United States is 
daunting, and a rigorous means of protecting the country 
comprehensively is unaffordable (if even conceivable). But the United 
States has a more limited number of sites of particular interest--where 
thousands of individuals routinely congregate, where the economy has 
important choke points or centers of activity, where the symbolic and 
political effect of any attack could be hugely significant. Most such 
sites are in the private sector, which holds 85 percent of the nation's 
infrastructure, though an important number are clearly public too. By 
focusing on this category of key locations (and establishing different 
tiers of necessary protection within that category), and by using 
insurance makrets and related mechanisms to give private owners 
incentives to adopt best practices at reasonable cost, the country's 
vulnerability to truly catastrophic terrorism can be substantially 
mitigated. Since 9/11, we have moved towards this objective. But we 
have a great distance still to go.
                               __________

[GRAPHIC] [TIFF OMITTED]

                               Appendixes

                              ----------                              

[GRAPHIC] [TIFF OMITTED]

                                <all>

</pre></body></html>
